<html>
<title> - MISCELLANEOUS NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 110-514]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-514
 
                MISCELLANEOUS NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                     

                           S. 662                                S. 827

                           S. 923                                S. 956

                           S. 2073                               S. 2513

                           S. 2604                               S. 2804

                           H.R. 53                               H.R. 1483

                           H.R. 1528



                                     
                               __________

                             APRIL 23, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
44-616 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Burr, Hon. Richard, U.S. Senator From North Carolina.............     5
Christensen, Hon. Donna M., Delegate to Congress, U.S. Virgin 
  Islands........................................................     6
Illig, Gale, Grantwood Village, MO...............................    36
Monsanto, Lorelei, Spokesperson, One Campus Group, St. John, VI..    41
Pencek, William J., Jr., Director of Heritage and Cultural 
  Tourism, Office of Tourism Development, Baltimore, MD..........    30
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................    12

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    65


                MISCELLANEOUS NATIONAL PARKS LEGISLATION

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 3:06 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Senator 
Daniel K. Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. The Subcommittee on National Parks will come 
to order. Good afternoon to all of you and to the subcommittee 
as well on National Parks. We have received many requests for 
hearings from sponsors of bills that have been referred to the 
subcommittee. In an attempt to address as many of these as 
possible in a timely manner we have another lengthy agenda this 
afternoon.
    Today's hearing will consider the following bills.
    S. 662 to authorize the Secretary of the Interior to 
conduct a study of the Harriet Beecher Stowe House in 
Brunswick, Maine to determine the suitability and feasibility 
of establishing the site as a unit of the National Park System.
    S. 827, to establish the Freedom's Way National Heritage 
Area in Massachusetts and New Hampshire.
    S. 923 and H.R. 1528, to designate the New England National 
Scenic Trail.
    S. 956, to establish the Land Between the Rivers National 
Heritage Area in the State of Illinois.
    S. 2073, to amend the National Trails System Act relating 
to the statute of limitations that applies to certain claims.
    S. 2513, to modify the boundary of the Minute Man National 
Historical Park.
    S. 2604, to establish the Baltimore National Heritage Area 
in the State of Maryland.
    S. 2804, to adjust the boundary of Everglades National 
Park.
    H.R. 53, to authorize the Secretary of the Interior to 
enter into a long-term lease with the Government of the United 
States Virgin Islands to provide land in Virgin Islands 
National Park for the establishment of a school.
    H.R. 1483, to establish certain National Heritage Areas.
    Today's agenda includes the remaining heritage area 
proposals that are in the subcommittee. I hope to use the 
hearing as a way to evaluate whether these proposals are 
consistent with the standards the committee has adopted for 
previously designated areas. While many of the bills we will 
review today are non-controversial, I understand that a few of 
the bills do raise more significant policy issues. We'll have 
the chance to learn more about those this afternoon.
    At this time I'd like to recognize Ranking Member Senator 
Burr of the subcommittee for his opening statement.
    Senator Burr.
    [The prepared statements of Senators Durbin, Collins, and 
Shelby follow:]

 Prepared Statement of Hon. Richard Durbin, U.S. Senator From Illinois
    Mr. Chairman and Ranking Member Burr, I thank you for the 
opportunity to talk about a piece of legislation that Senator Obama and 
I have introduced to help preserve a culturally rich and 
environmentally diverse region of our home state of Illinois. S. 956, 
the Land Between the Rivers Southern Illinois National Heritage Area 
Act, provides for the management of the seventeen southern-most 
counties of Illinois as a National Heritage Area.
    Natural Heritage Areas are designed to recognize places where, in 
the words of the National Park Service, ``natural, cultural, historic, 
and recreational resources combine to form a cohesive, nationally 
distinctive landscape arising from patterns of human activity shaped by 
geography.'' Under that definition, it is hard to imagine a region more 
worthy of becoming a National Heritage Area than the southern tip of 
Illinois, for it was the shape of the land here that helped shape our 
nation's history.
    Native Americans called this region the ``Land Between the 
Rivers.'' Bounded by the waters of the Mississippi, Ohio, and Wabash 
Rivers, the area is unique geographically, environmentally, and 
historically. The confluence of these mighty American rivers was the 
backdrop for forces that set the northern border of the United States, 
opened the West to exploration and settlement, restored a divided 
nation, and ended slavery once and for all.
    Illinois is called the Prairie State. That accurately describes the 
broad, flat vistas of northern Illinois that were planed smooth by 
glaciers. The landscape changes radically, though, at the southern tip 
of the state where glaciers never reached. Here, the rough Illinois 
Ozark and Shawnee Hills include stone bluffs, canyons, and grand 
overlooks. The flood plains lie at only 325 feet above sea level, but 
the elevation rises to 1,064 feet at Williams Hill in Pope County. 
Southern Illinois is breathtakingly beautiful, representing the 
intersection of northern hardwood forests, the western plains, and the 
Ozark Mountains.
    Nomads came to southern Illinois 12,000 years ago as the continent 
emerged from the Ice Age. By the year 1000 a vibrant culture was 
thriving in the region. Near what is now Collinsville, Illinois, ten to 
twenty thousand Native Americans built the most impressive mounds in 
the United States. This was the largest settlement in the Western 
Hemisphere north of the Mayan and Aztec civilizations. As a 
consequence, the area is rich in archeology, including petroglyphs at 
Millstone Bluff and ancient stone walls in Union and Saline Counties.
    The French laid claim to Illinois following Marquette and Joliet's 
journey down the Mississippi in 1673. By 1699 the first French 
settlement came to southern Illinois. In 1763, though, the land was 
ceded to the British after the French and Indian War. The British did 
not stay long, though. In 1778 and 1779, during the Revolutionary War, 
George Rogers Clarke and a band of 200 men crossed the Ohio River into 
southern Illinois and systematically forced the British to retreat. The 
British were permanently forced out of Illinois and Indiana. That set 
the stage for the 1783 Treaty of Paris, which established the current 
border between the United States and Canada.
    In 1803 President Thomas Jefferson directed his private secretary 
Meriwether Lewis to lead a mission through the vast unknown territory 
west of the Mississippi River to the Pacific Ocean. Lewis gathered 
supplies and men and met up with William Clark in Kentucky. Together 
they came to southern Illinois.
    Lewis and Clark traveled from Metropolis, Illinois, along the Ohio 
River to Wood River at the confluence of the Missouri and Mississippi 
Rivers. There they established their winter camp. The following spring 
their Corps of Discovery departed Camp Dubois and began their historic 
scientific expedition west. Lewis marked this spot near Wood River, 
Illinois, as the official ``point of departure.'' Two and a half years 
later, the team returned to this camp after its remarkable adventure to 
the Pacific coast.
    As the Civil War approached, Illinois was the southern-most 
Northern State. Southern Illinois, naturally, became center stage for 
national issues surrounding slavery.
    African-Americans first came to the region in 1720 as slaves to the 
French. Illinois was a free state when statehood was granted in 1818. 
Nevertheless, Illinois law allowed slavery at southern Illinois salt 
mines, prohibited assistance to runaway slaves, and allowed indentured 
servitude. Still, this most southern slavery-free location became a 
magnet for large numbers of runaway slaves from the south. The return 
to slavery in the south was a constant threat, but safe routes in 
Illinois, Indiana, and Ohio constituted the ``Underground Railroad'' 
and a gateway to freedom.
    The same geographic features that led men and women to find freedom 
in southern Illinois made this area a strategic launching point for 
General Grant's Western Campaign into the south. When hostilities began 
in April 1861, Abraham Lincoln immediately dispatched troops to Cairo 
to command the confluence of the Ohio and Mississippi Rivers. The 
Confederates had the same idea, but the Union forces arrived first. 
Here, Fort Defiance was built and, upon Grant's arrival, the offensive 
into the South began. Victory was secured by an able U.S. Navy, which 
was headquartered in Mound City, Illinois.
    Today the Land Between the Rivers boasts of growing tourism as 
families seek to enjoy the natural beauty and important history of 
southern Illinois. The area includes the 260,000-acre Shawnee National 
Forest, two National Scenic Byways, and two national wildlife refuges. 
The State of Illinois manages 22 parks, fish and wildlife areas, and 
other attractions.
    The Land Between the Rivers National Heritage Area will be managed 
initially by the Southern Illinois University Carbondale, which has 
consistently ranked as one of America's top universities. The 
university is well suited to manage the heritage area. From its 
beginning, SIUC has been committed to addressing social and economic 
issues in the region.
    National Heritage Areas are an economic boon to the communities 
involved. This can be especially important for rural communities such 
as the ones in southern Illinois. Increased traffic from tourism can 
provide a significant economic stimulus to downtowns and service 
businesses in cities and underserved areas. By integrating communities 
through a common heritage, more opportunities are available for 
marketing and tourism.
    The Land Between the Rivers initiative will provide an incentive 
for heritage travelers to spend more time in southern Illinois. That is 
important, because heritage travelers are known to stay longer and 
spend more money than other tourist groups.
    The Land Between the Rivers Southern Illinois National Heritage 
Area Act will do much to bring families outdoors to discover important 
events and geographic locations in the creation of America. The bill 
celebrates Native American, Colonial American, and African American 
heritage that were the foundation of southern Illinois today. The bill 
honors our past and helps preserve important history that is at risk of 
being forgotten.
                                 ______
                                 
       Prepared Statement of Hon. Susan M. Collins, U.S. Senator 
                               From Maine

    Good afternoon. I want to thank Chairman Akaka and Ranking Member 
Burr for scheduling this hearing today on Senator Snowe's legislation, 
which I am pleased to cosponsor, calling for a study of the feasibility 
of adding the Harriet Beecher Stowe House, in Brunswick, Maine, to the 
National Park System.
    Harriet Beecher Stowe lived in this home from 1850 to 1852, while 
her husband, Calvin Stowe, taught at Bowdoin College. During this 
period, she wrote a series of periodicals for an Abolitionist 
newspaper, the National Era, which were published in book form in 1852 
as Uncle Tom's Cabin. To say that Uncle Tom's Cabin was a popular book 
would be a major understatement--over 300,000 copies of the book were 
sold in its first year, and ultimately more copies of Uncle Tom's Cabin 
were sold than any other book in the 19th Century, the Bible excepted.
    The popularity of a book is not, of course, reason enough to 
consider adding the home of its author to the National Park System. But 
Uncle Tom's Cabin is not simply a book that was once popular, and 
Harriet Beecher Stowe is not simply an author who was once famous. 
Writing when she did, just two years after the passage of the Fugitive 
Slave Act, Harriet Beecher Stowe captured in Uncle Tom's Cabin all of 
the horrors and injustices of the slave system, and turned the hearts 
of millions of Americans towards the cause of Abolition. Frederick 
Douglas, the great orator and champion of freedom--who was himself a 
former slave--called the book ``a work of marvelous depth and power'', 
and said of Harriet Beecher Stowe: ``Hers were the words for the 
hour.''
    The novel was so influential that Lincoln could famously declare, 
on meeting Stowe, ``So you're the little woman who wrote the book that 
made this great war!''
    Many of us have heard that well-known line, and recognize Stowe's 
contribution to changing the attitudes of her fellow citizen towards 
slavery. But few of us recall how important Uncle Tom's Cabin was in 
tilting foreign opinion against slavery, and ultimately against aiding 
the Confederacy when war came. The book was greeted enthusiastically in 
Britain, and crowds followed the author everywhere on her first trip 
abroad in 1853. Even Queen Victoria was moved to send Mrs. Stowe a note 
of gratitude for Uncle Tom's Cabin.
    The reception given to the book in Great Britain proved essential 
to the effort to save the Union. Charles Francis Adams, scion of the 
great Adams family, and son of the U.S. Minister to the Court of St. 
James during the Civil War, said that the book exerted ``a more 
immediate, considerable and dramatic world-influence than any other 
book ever printed.''
    As Adams described it in lectures given at Oxford years after the 
war, the question of whether Britain or other European powers would 
side with the South was unsettled for some time. In Britain, Adams 
pointed out, powerful commercial interests lobbied to have the British 
Navy lift the Union blockade on Southern ports, so that cotton could 
reach the textile mills of England. Opposed to this were a few brave 
Abolitionists, armed with Harriet Beecher Stowe's novel. Ultimately, 
Adams reported, slavery and secession lost in the court of British 
public opinion because of the ``strong, almost fierce feeling . . . 
aroused by the reading of Uncle Tom's Cabin.''Harriet Beecher Stowe's 
contribution to the abolition of slavery helped shape the nation in 
which we live today, and is part of our common American heritage. It is 
entirely fitting that the idea of adding her home to the National Park 
System be studied.
    Thank you, again, for scheduling this hearing today.
                                 ______
                                 
      Prepared Statement of Hon. Richard C. Shelby, U.S. Senator 
                              From Alabama

    Thank you, Mr. Chairman. I appreciate you allowing me to submit 
this testimony on H.R. 1483 which designates the Muscle Shoals National 
Heritage Area in Alabama.
    H.R. 1483 designates six counties in North Alabama, Colbert, 
Franklin, Lauderdale, Lawrence, Limestone, and Morgan, as a national 
heritage area. This designation would authorize grants through the 
National Park Service to promote tourism, conserve natural, cultural 
and historic attributes, as well as preserve the customs and traditions 
inherent to the Muscle Shoals region.
    The Muscle Shoals area in Northwest Alabama is a region rich in 
natural and cultural history. The area is defined by its distinctive 
geography, especially the Wilson Dam, a National Historic Landmark. The 
Tennessee River at Muscle Shoals has helped shape western expansion and 
cultural development of the United States. It is also the proud 
birthplace of Helen Keller, a celebrated symbol of inspiration for 
persons overcoming disabilities, and the home of blues musician W.C. 
Handy.
    The Muscle Shoals region is also the origin of the Tennessee Valley 
Authority and the first railroad west of the Allegheny Mountains. The 
region's unique contributions to American history and culture would be 
better preserved by designating the Muscle Shoals region as a national 
heritage area.
    On December 17, 2002, President Bush signed into law the ``Muscle 
Shoals National Heritage Area Study Act of 2001'' (P.L. 107-348) which 
initiated a feasibility study to establish the northwest region of 
Alabama as a national heritage area.
    The local coordinating entity, the Muscle Shoals Regional Center 
located at the University of North Alabama, submitted the feasibility 
study for the Muscle Shoals National Heritage Area to the National Park 
Service in May 2006, based on the study as authorized under P.L. 107-
348.
    The feasibility study for the Muscle Shoals National Heritage Area 
includes plans for cultural heritage programs with themes related to 
the area of Northwest, Alabama including music and cultural heritage, 
archives, history, settlement, recreation and hospitality, Native 
American, African American, commerce, natural and human resources. The 
Muscle Shoals Regional Center is currently working with the National 
Park Service on the final details of the feasibility study.
    I strongly support H.R. 1483 and the establishment of the Muscle 
Shoals National Heritage Area.
    Thank you.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Mr. Chairman, you 
and I have spent way too much time together this week. I think 
that's either a sign of progress or the fact that he and I are 
destined to be bored with each other. Let me thank the Chairman 
for convening this hearing.
    It's only been 2 weeks since our last Parks subcommittee 
hearing, but you wouldn't know it by looking at today's agenda. 
We have another full slate of 11 bills. Most are fairly 
straight forward involving boundary adjustments, feasibility 
studies or National Heritage Areas. Two bills though did catch 
my attention because they involve topics that we don't often 
see in front of this subcommittee.
    The first is H.R. 53. It's a proposal to authorize the 
National Park to lease land to the local government at Virgin 
Islands National Park for the purposes of constructing a 
school. I fully realize the importance of providing facilities 
for quality education, but it is unusual to have a school in a 
National Park. It is unusual for the National Park Service to 
lease property to a local government. I hope and I believe that 
we can discuss other options as this debate goes on.
    I'm not sure yet that I'm comfortable with this necessarily 
being a precedent that we set. I at least would like to make 
sure that we have explored every option of land swaps in our 
ability to make sure, one, that we build a school. But two, we 
adhere to the integrity of our park's land.
    Second is S. 2073, which would allow property owners in 
Missouri to settle outstanding claims for the taking of 
property to create a trail. Property rights are protected by 
the fifth amendment. Owners are entitled to compensation if 
taking occurs.
    The problem in this case has to do with an interpretation 
of the statute of limitations. I understand the property owners 
have been working on a settlement for years, Mr. Chairman. I 
believe we need to act quickly and bring this matter to a 
close.
    I would like to thank all of our witnesses that are here to 
testify today. I would like to apologize to them and to the 
chairman that I've got a very difficult schedule that I'm 
dealing with and I will not be able to stay for the hearing in 
its entirety. That might make the chairman happy because it 
means the hearing will go smoother.
    I believe that the other bills are bills that this 
committee can and should act on. I'm not excluding the two that 
I highlighted. I think they require a little bit more work or a 
little bit more creativity. But I think they can certainly, in 
the case of the school, be resolved. In the case of the 
property owners has to be resolved.
    I thank the chair and I yield the floor.
    Senator Akaka. Thank you very much, Senator Burr. Our first 
witness is the Honorable Donna Christensen, Chairwoman of the 
Subcommittee on Insular Affairs. Congresswoman Christensen is 
here today to testify on her H.R. 53, her bill authorizing a 
lease of lands in Virgin Islands National Park. Congresswoman 
Christensen, welcome to the subcommittee. We look forward to 
your testimony. Will you please begin?

STATEMENT OF HON. DONNA CHRISTENSEN, DELEGATE TO CONGRESS, U.S. 
                         VIRGIN ISLANDS

    Ms. Christensen. Thank you, Senator Akaka. Good afternoon 
and on behalf of the people of the Virgin Islands and 
particularly the residents of St. John, I want to thank you, 
Chairman Akaka and Ranking Member Burr for holding this hearing 
on H.R. 53 and for affording the opportunity to the One Campus 
organization to testify on an issue that they have worked very 
hard on.
    I introduced H.R. 53 on January 4 of last year to authorize 
the Secretary of the Interior to lease land on the Island of 
St. John to the government of the Virgin Islands for a public 
school because the children in St. John attend schools in 
buildings that are badly in need of repair and for the Julius 
Sprauve School in Cruz Bay it is in a section of town where 
there is heavy car and industrial truck traffic as well as a 
number of rowdy eating and drinking establishments. Despite the 
hard work and dedication of the administrators and teachers at 
the school, not only is the environment not conducive to 
education. But it is extremely unsafe.
    In fact I dedicate this bill to Javon Alfred, a second 
grader who was killed by a heavy duty truck when he was leaving 
a school Christmas party. A tragedy witnessed by other 
students. There have been other near and less serious 
accidents. The one death was too many. So I joined the St. John 
community in saying no more.
    Members know the history of the park so I won't take time 
to review it here today. Suffice it to say it occupies two-
thirds of the Island, a gift from the Rockefeller family. Yes 
it's far better than a previous proposal to move the native St. 
Johnians and turn the Island into an enclave for the rich. Yes, 
the park has been the cornerstone of the St. John economy. But 
the benefits of that park are spread unevenly.
    Today the residents find themselves squeezed between VI 
National Park which has been enlarged by land gifts and a 
monument and the villas and other development by wealthy 
newcomers. In fact the American dream of home ownership is 
becoming a nightmare for middle and even high middle income 
families. The situation might have been mitigated by land made 
available for community purposes by the Jackson Hole Foundation 
years ago, but all of that land has disappeared into private 
hands.
    On the other hand, since the 1970s public school enrollment 
on St. John has more than doubled. The two existing public 
schools, the Julius B. Sprauve and the Guy H. Benjamin 
elementary school only accommodate children up to the ninth 
grade. St. Johnian high school students have to travel to St. 
Thomas, 20 minutes by ferry over open ocean. The VI government 
which agrees with the need for the school and supports the bill 
has testified that they have no land on St. John on which to 
construct a new school.
    Opposition to H.R. 53 has come chiefly to the lease through 
which the bill proposes the VI government acquire access to the 
land. The need for and the issue of this school did not begin 
this year or last year. It is close to 30 years old. Blame for 
the long delay and failure to reach a land transfer agreement 
can be placed on both sides, local and Federal.
    However, today when St. Johnians feel themselves losing 
their Island, they are adamantly opposed to a land swap. Their 
position is that they have no more land left to give. No one 
here can blame them if you know the history and the current 
land challenges.
    What I would ask is that the members of the subcommittee 
keep the welfare of the children and the future of the Virgin 
Islands foremost in your mind as you debate the outcome of H.R. 
53. St. John's situation is sufficiently unique that it sets no 
viable precedent. Further I am sure that during the course of 
the lease some way will be found to transfer valuable land to 
the Park which can be counted against this property which by 
the way, is not part of the original park land.
    Already the Park is slated to gain several large tracks at 
Mao Bay. Another land gift is already under discussion. So the 
Park is already growing. Will experience a significant net gain 
even with the loss of this small acreage to be leased.
    So I urge you to support the people of St. John by passing 
H.R. 53. There are always good reasons for us to say no. But 
let's focus on coming up with a way to say yes for the people 
and the children of St. John.
    Today I am accompanied by Ms. Lorelei Monsanto of the St. 
John community group One Campus. Along with Kirstin Cox, 
president, Alvis Christian, who is here with us this afternoon, 
Ronnie Jones and Steve Black. Lorelei and her colleagues felt 
it important to form an organization for the sole purpose of 
finding and implementing a workable solution to the problem of 
the need for a new school on St. John.
    Lorelei is a mother and her daughter is here with her this 
afternoon. She will present her testimony at the appropriate 
time. I thank you for the opportunity to make my presentation 
to the subcommittee.
    [The prepared statement of Ms. Christensen follows:]

  Statement of Hon. Donna M. Christensen, Delegate to Congress, U.S. 
                             Virgin Islands

    Good afternoon. On behalf of the people of the Virgin Islands and 
particularly the residents of St. John, thank you Chairman Akaka and 
Ranking Member Burr for holding this hearing on H.R. 53 and for 
affording the opportunity to the One Campus organization to testify on 
this issue they have worked so hard on. Later I will introduce my 
constituent and St. John resident, Ms. Lorelei Monsanto who is 
representing the president Kirsten Cox at this hearing.
    Mr. Chairman, I introduced HR 53 on January 4th of last year to 
authorize the Secretary of the Interior to lease land on the island of 
St. John to the Government of the United States Virgin Islands to build 
a new public school because the children on St. John attend school in 
buildings that are badly in need of repair, and the Julius Sprauve 
School in Cruz Bay, is in a section of town where there is heavy car 
and industrial truck traffic as well as a number of rowdy eating and 
drinking establishments.
    Despite the hard work and dedication of the administrators and 
teachers at the Sprauve School, not only is the environment not 
conducive to education, but it is extremely unsafe. In fact I dedicate 
this bill to Javon Alfred, a second grader who was killed by a heavy 
duty truck when he was leaving the school Christmas party--a tragedy 
witnessed by other students. There have been many near and other less 
serious accidents. The one death was one too many. So I join the 
community in saying no more!
    You know the history of the Virgin Islands National Park so I won't 
take time to review it here today. Suffice it to say that it occupies 
2/3rds of the Island of St. John as a result of a gift from the 
Rockefeller family. Yes, it is far better than a previous proposal to 
move the Black St. Johnians and turn the Island into an enclave for the 
rich, and yes the Park has been the cornerstone of the economy on St. 
John, but the benefits are spread unevenly.
    Today St. John residents find themselves squeezed between the VI 
National Park which has been enlarged by land gifts and a monument, and 
the Villas and other development by wealthy newcomers. In fact the 
American dream of homeownership is becoming a nightmare for middle and 
even high middle income families.
    This situation might have been mitigated by land made available for 
community purposes by the Jackson Hole Foundation, but all of it has 
disappeared into private hands.
    Since the 1970s, public school enrollment on St. John has more than 
doubled. The two existing public schools, Julius E. Sprauve and the Guy 
H. Benjamin Elementary School, only accommodate children up to the 
ninth grade. St. Johnian high school children have to travel to St. 
Thomas, 20 minutes by ferry over open ocean to complete their secondary 
education. The VI government which agrees with the need for the school 
and supports the bill, has testified that they have no land on which to 
construct a new school
    Opposition to HR. 53 has come chiefly to the lease through which 
the bill proposes the VI government acquire access to the land. The 
need for and the issue of this school did not begin this year. It is 
close to 30 years old. Blame for the long delay and failure to reach a 
land transfer agreement can be placed on both sides--local and federal. 
However today when St. Johnians feel themselves losing their Island, 
they are adamantly opposed to a land swap. Their position is that they 
have no more land left to give, and no one here can blame them if you 
know the history and the current land challenges.
    What I would ask is that members of the Committee keep the welfare 
of the children and the future of the Virgin Islands foremost in your 
mind as you debate the outcome of HR. 53. St. John's situation is 
sufficiently unique that it sets no viable precedent. Further I am sure 
that during the course of the lease some way will be found to transfer 
valuable land to the Park which can be counted against this property 
which is not part of the original Park land.
    Already the Park will gain several large tracks at Mao Bay, and 
another land gift is already under discussion. The Park is already 
growing, and will experience a significant net gain even with the loss 
of this small acreage to be leased.
    I am accompanied today by Ms. Lorelei Monsanto of the St. John 
community group One Campus. Along with Kirstin Cox, Alvis Christian, 
Ronnie Jones and Steve Black, Lorelei and her colleagues felt it 
important to form an organization for the sole purpose of finding and 
implementing a workable solution to the problem of the need for a new 
school on St. John. Lorelei is a mother and her daughter who attends 
school on St. John is here with her today.
    I urge you to support the people of St. John by passing H.R. 53.
    There are always good reasons for us to say no but let's focus on 
coming up with a way for us to say yes.

    Senator Akaka. Thank you very much, Congresswoman for your 
testimony. We look forward to hearing from Lorelei later. Do 
you have any? Yes, well, thank you very much for being here.
    The subcommittee has received statements from several 
Members of Congress, including Senator Mikulski, Senators 
McCaskill and Bond, Senator Snowe and Representative Cramer. 
All of these statements will be included in the hearing record.
    [The prepared statements of Senators Mikulski, McCaskill, 
Bond, Snowe and Representative Cramer follow:]

     Prepared Statement of Hon. Barbara A. Mikulski, U.S. Senator 
                             From Maryland

    Chairman Akaka and Members of the Subcommittee on National Parks, 
thank you for considering the Baltimore National Heritage Area Act and 
inviting me to testify today. I am proud to have introduced this bill 
with Senator Ben Cardin and my Team Maryland colleagues in the House of 
Representatives.
    Baltimore is one of America's oldest cities and is rich in history. 
From its heroic defense of Fort McHenry in the War of 1812, to its 
recognition as the birthplace of American railroading and America's 
westward expansion, to the site of the first bloodshed of the Civil 
War, Baltimore has played a vital role in the history and development 
of our Nation. It is also my hometown.
    This bill's National Heritage Area designation will strengthen 
economic opportunities for Baltimore through cultural heritage tourism. 
The National Park Service's seal of approval will help Baltimore attain 
the same recognition for its historic, cultural and natural resources 
as other east coast cities such as Boston, New York, Philadelphia and 
Washington D.C. It also will preserve Baltimore's story for future 
generations.
    Baltimore's Mayor Shelia Dixon, Maryland's Governor Martin O'Malley 
and the majority of Maryland's Congressional Delegation are all very 
supportive of this effort. I request that you look favorably upon this 
bill and enthusiastically report it out of Committee.
                                 ______
                                 
 Prepared Statement of Hon. Claire McCaskil and Hon. Christopher Bond, 
                      U.S. Senators From Missouri

    First, we would like to thank the Chairman and Ranking Member for 
holding this hearing on S. 2073, the Trails Act Technical Correction 
Act of 2007. This bill corrects a recent injustice within the Federal 
Rails to Trails Program preventing landowners from receiving fair 
compensation for lands taken under the National Trails System Act 
(Trails Act). Under a recent Federal Circuit Court of Appeals decision 
in Caldwell v. United States, property owners have been precluded from 
recovering compensation for federal takings under the Rails to Trails 
program of the Trails Act. Therefore, S. 2073 simply clarifies 
Congress's intention at the time of enactment.
    It is also important to note that we are strong supporters of the 
Rails to Trails Program and the Trails Act. Trails from railroad rights 
of way enhance community enjoyment and public health. To that point, 
S.2073 does not, in anyway, change or frustrate the purpose of the 
Trails Act. Instead, it assures the administration of the Trails Act is 
consistent with Congressional intent and will make the Rails to Trails 
program more cost-effective.
    The National Trails System Act Amendments of 1983 sought to 
preserve possible future railroad use rights-of-way not currently in 
service, but also encourage the conversion of these railroad easements 
to trails for recreational use. Under the Trails Act, railroads and the 
entity taking possession of the trail are allowed to enter into 
negotiations in order to reach an agreement that transfers the full 
responsibility of the trail to a qualified entity and the railroad 
conveys its interest in the property. The result is that the railroad's 
easement is abandoned and the property is officially taken from the 
landowner for use as a trail. The Supreme Court confirmed that this 
process is deemed a taking under the 5th Amendment of the Constitution 
and property owners are due just compensation from the federal 
government.
    The Trails Act prescribes a six (6) year statute of limitations 
from the time the taking occurs in which landowners must file a claim 
for compensation. Until Caldwell, the practice had been that the 
statute of limitations would begin to run at the time a trail agreement 
between the railroad and the qualified entity was finalized. Now, under 
the Caldwell decision, the statute of limitations begins to run at the 
time the negotiations between the two entities begin.
    This decision not only overturns 20 years of precedent and 
precludes hundreds of landowners from receiving just compensation, but 
it starts the clock ticking before landowners are notified. Under the 
process prescribed by the Trails Act, landowners are rarely notified 
before an agreement has been reached and a taking is inevitable. 
Because the negotiation period is often extended several times, these 
negotiations can last anywhere from six months to several years, 
sometimes more that 6 years. In about a third of the cases, no 
agreement is ever reached, thus no taking occurs. Yet, in such cases, 
Caldwell would require landowners to file a claim, and needlessly incur 
litigations costs for themselves as well as the federal government. 
Moreover, because the government pays interest on the taken land from 
the time of the taking until final settlement, the government will now 
pay millions in interest to landowners for the months or years of the 
negotiation prior to the actual agreement.
    We have already seen these issues arise. The Federal Court of 
Claims is currently reviewing cases where claims are being brought even 
though no Trail was created, thereby creating an additional burden on 
the Court, the federal government, and the taxpayers who ultimately pay 
the litigation costs. In fact, recent estimates put the total costs of 
the Caldwell decision in excess of $150 million annually. This is not 
an efficient or effective use of taxpayer dollars.
    To that end, S. 2073 simply restores the running of the statute of 
limitations to the date when an agreement between the railroad and the 
qualified entity reach an agreement, as was the accepted practice 
before Caldwell. Thus, the statute of limitations would start to run 
when the property owner's rights are actually taken by the Federal 
Government. This legislation will not only save the federal government 
from engaging in needless litigation, but it will preserve the rights 
of property owners to just compensation due under the 5th Amendment of 
the Constitution.
    As we stated earlier, this bill does nothing to frustrate the 
purpose of the Trails Act or the Rails to Trails program. It is a 
technical correction which will grant landowner's the compensation they 
deserve for the land that was taken from them.
    Thank you again for holding these hearings. We hope you will give 
this bill due consideration and report it favorably to the full Senate.
                                 ______
                                 
  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator From Maine

    Thank you, Mr. Chairman, for holding this hearing today on the 
Harriet Beecher Stowe House Resource Study Act. I have introduced this 
legislation with Senator Collins and believe that it would provide an 
appropriate testament to the life and work of Harriet Beecher Stowe, 
one of America's most revered authors.
    Harriet Beecher Stowe devoted her life to fighting injustice in 
American society and culture during a pivotal time in our nation's 
history. Her legacy as a prominent author, humanitarian, and 
abolitionist primarily focuses on her prolific writings and courageous 
participation in the Underground Railroad. She lived in the house on 63 
Federal Street in Brunswick, Maine, from 1850 to 1852 while her husband 
taught at nearby Bowdoin College. It was in this house where she 
completed her seminal work and masterpiece Uncle Tom's Cabin, which 
perhaps more than any other literary work conveyed the reality of 
slavery to a public detached from the horrors of this crime.
    Harriet Beecher Stowe was moved to action by the ``Fugitive Slave 
Law of 1850''--a law that required that all captured fugitive slaves be 
returned to their owners. Beyond simply removing the northern states as 
a sanctuary for runaway slaves, the law placed a sharp exclamation 
point on the fact that slaves were not people, but property that if 
lost had to be returned. Before living in Brunswick, Stowe lived in 
Cincinnati, Ohio, where she saw firsthand the misery of slaves living 
just across the Ohio River in Kentucky. Stowe built on this personal 
interaction and began to research slavery by reading and speaking with 
former slaves and slave owners.
    With the help of famed abolitionist William Lloyd Garrison, Stowe 
distilled this knowledge into a series of short stories, many based on 
real characters and events, which were published in the abolitionist 
newspaper, The National Era. These stories proved to be so popular and 
so profound that in 1852 she published them in a two-volume work called 
Uncle Tom's Cabin. Within only a week of the book's release it had sold 
10,000 copies and after a year the number rose to 300,000. To put this 
into perspective, only the Bible sold more copies in the 19th century.
    Amazingly, by 1854, her work had even been translated into 60 
languages, including Yiddish to get it smuggled into Tsarist Russia. 
These milestones are all the more stunning when one considers that the 
education and literacy of women was the exception instead of the rule, 
making Stowe's work not just significant for abolitionists and African 
Americans, but also for women.
    Few other books have demonstrated the potency of literature as 
Uncle Tom's Cabin. Its reach was so great that when President Lincoln 
met Harriet Beecher Stowe he reportedly declared, ``So you're the 
little woman who wrote the book that started this Great War!'' 
Frederick Douglass called her work a ``work of marvelous depth and 
power'' and said that ``hers are words for the hour.'' Charles Francis 
Adams, American Ambassador to Great Britain during the Civil War, 
believed that Uncle Tom's Cabin was crucial in galvanizing British 
public opinion against lifting the blockade on Confederate ports and 
maintaining British neutrality during the War, acknowledging that 
``slavery and secession lost'' because of the ``strong, almost fierce 
feeling . . . aroused by the reading of Uncle Tom's Cabin.'' There is 
no question that the popularity of the book changed the hearts of 
thousands of Americans, depicted powerfully the horrors of slavery, and 
strengthened the abolitionist cause.
    I couldn't be more proud that this book, which had such a great and 
profound impact on American history, was written in Brunswick, Maine, a 
town already steeped in history. For example, the Stowe House is nearby 
the home of General Joshua Lawrence Chamberlain, the undisputed hero of 
Little Round Top and the general chosen to receive the confederate 
surrender at Appomattox. A four-term Maine Governor and President of 
Bowdoin College, Chamberlain was also a member of Stowe's literary 
circle. Fittingly, the Stowe House is also near the First 
Congregational Church, where Stowe was inspired to write Uncle Tom's 
Cabin. Unmistakably, Brunswick is an integral part of the history of 
Uncle Tom's Cabin just as this iconic book is a central part of the 
history of Brunswick.
    As a result, my bill would seek to encapsulate the Stowe House as a 
part of historic Brunswick and to preserve it so that future 
generations will have an opportunity to experience the place where 
Harriet Beecher Stowe was able to create something that mobilized 
American opinion, leaving an indelible legacy. By authorizing a study 
to consider the feasibility of transferring the House to the National 
Park System, we will take a significant step toward improving the 
preservation and management of this site. This effort will have 
significant benefits for the town of Brunswick, adding to nearby 
cultural sites such as Bowdoin's Walker Art Building--also on the 
National Register of Historic Places--as well as the Penobscot Museum 
and the Joshua Lawrence Chamberlain Museum, to name only a few. The 
Stowe House deserves to be preserved for posterity and for the 
education and enjoyment of the public.
    More than 150 years after its publication, Uncle Tom's Cabin still 
stands as a literary landmark and historical turning point in the 
struggle to end slavery. Its impact went far beyond being an 
illustration of the misery of slaves, and became something that 
resolved into a movement, creating thousands of those determined to end 
the evils that they read about in her work. There are few other books 
that can claim to have had an impact anywhere near that of Uncle Tom's 
Cabin. Harriet Beecher Stowe has moved millions in America and around 
the world to appreciate the capacity of literature to influence the 
moral fabric of an entire nation. It's time we protected for 
generations to come all that Harriet Beecher Stowe has accomplished and 
all that she has come to represent to the nation.
                                 ______
                                 
Prepared Statement of Hon. Bud Cramer, U.S. Representative From Alabama

    Chairman Akaka, Ranking Member Burr, and Members of the National 
Parks Subcommittee, I appreciate the opportunity to share with you my 
support for legislation to designate the Muscle Shoals National 
Heritage Area.
    I represent Alabama's 5th Congressional District, which is home to 
the Muscle Shoals--an area named for its strategic location along the 
Tennessee River and the abundance of mussels found along its 
riverbanks.
    H.R. 1483, the Omnibus Parks legislation, would designate 6 
counties in Northwest Alabama including Colbert, Franklin, Lauderdale, 
Lawrence, Limestone, and Morgan counties, as a National Heritage Area.
    This designation would create additional opportunities to promote 
tourism, conserve natural, cultural and historical attributes, and 
preserve the customs and traditions inherent to the Muscle Shoals 
region.
    The people of Muscle Shoals have long-realized the area's 
significance in shaping western expansion and cultural development of 
the United States, and are proud of its contributions to American 
history.
    One of the best known symbols of this region is the Woodrow Wilson 
Dam.
    Constructed from 1918 until 1927, this Dam is one of the largest 
mass concrete lock & dam structure ever built in the United States.
    It was also the first federal hydroelectric project in the country 
and was the first successful attempt to manage and utilize the 
Tennessee River.
    In 1933, the Dam's success helped inspire President Franklin Delano 
Roosevelt to establish the Tennessee Valley Authority (TVA).
    The Shoals was also home to the first railroad west of the 
Allegheny Mountains, which opened up the region to significant economic 
development.
    In addition to our significant landmarks, the Muscle Shoals area is 
also the birthplace of many notable American icons.
    Helen Keller, a celebrated symbol of inspiration for persons 
overcoming disabilities, was born and grew up in this area.
    Her birthplace, Ivy Green, is the ten-acre Keller property in 
Tuscumbia that is toured by children and adults from all over the 
world.
    In fact, it was at Ivy Green that Helen Keller, with the help of 
her teacher Anne Sullivan, overcame her blindness and deafness to utter 
her first word, ``water.''
    This miraculous event is reenacted by the Northwest Alabama 
community every year at Ivy Green, using the very water pump that 
inspired Helen's first words.
    The region is also notably the home of ``W.C.'' Handy, known as 
``The Father of the Blues'' who has had a lasting influence on American 
music.
    The W.C. Handy Music Festival is celebrated each summer in the City 
of Florence, Alabama.
    Area-native Sam Phillips, with his discovery of Elvis Presley and 
numerous other legendary musicians, also laid the groundwork for the 
rock-n-roll sound that has influenced America's musical tastes for more 
than a half-century.
    This led the region to be recognized as the ``recording capitol of 
the world'' for its legendary studios and classic recordings throughout 
the 1960s and 1970s.
    Former Congressman and General, Joe Wheeler, the only man to hold 
the rank of General in both the Confederate and Union armies (Spanish-
American and Philippine-American Wars), also called the Shoals home. We 
are proud to have General Wheeler's likeness represent the State of 
Alabama in Statuary Hall and I'm pleased that Helen Keller will soon 
join him.
    It is for these and many other reasons that I believe the region's 
unique contributions to American history and culture would be best 
preserved by designating the Muscle Shoals region as a national 
heritage area.
    Also submitting testimony in support is Nancy Gonce, Executive 
Director of the Muscle Shoals Regional Center, located at the 
University of North Alabama. Dr. William Cale, President of the 
University of North Alabama will submit testimony in support as well.
    The Muscle Shoals Regional Center at UNA is currently working with 
the National Park Service on the final details of our region's 
feasibility study, as authorized under the ``Muscle Shoals National 
Heritage Area Study Act of 2001'' (P.L. 107-348).
    The feasibility study for the Muscle Shoals National Heritage Area 
includes plans for cultural heritage programs with themes related to 
the area of Northwest, Alabama including music and cultural heritage, 
archives, history, settlement, recreation and hospitality, Native 
American, African American, commerce, natural and human resources.
    I thank you for your attention, and ask your support for the 
designation of the Muscle Shoals Region as a National Heritage Area.

    Senator Akaka. Our next witness is Dan Wenk, the Deputy 
Director of the National Park Service, who will be testifying 
on behalf of the Administration on all ten bills. Dan, I 
understand that today is a special day for you. It's your 
birthday. So I'd like to wish you a happy birthday.
    Senator Burr. Can you do that in your native tongue?
    [Laughter.]
    Senator Akaka. Since I was asked to do it I will say, Hau 
`oli La Hanau. Hau `oli means happy. La means day and Hanau 
means birth. So Hau `oli La Hanau in Hawaiian.
    Mr. Wenk. Thank you very much, Mr. Chairman.
    Senator Akaka. I'm sure that you'd rather be celebrating 
this afternoon, but we're happy to have you here and look 
forward to your testimony and want to wish you well.
    All of your written statements will be included in the 
record so please feel free to summarize your remarks. When you 
have finished with your statements on all of the bills we'll 
have a round of questions for you. Thank you very much. Will 
you please proceed, Mr. Wenk?

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Chairman Akaka for this opportunity to 
appear before the subcommittee to present the Department's 
views on the ten subjects on today's agenda. I will submit our 
full statements for the record and summarize the 
Administration's positions on these bills.
    The Department supports the following bills:
    S. 662, which would authorize a special resource study of 
the Harriet Beecher Stowe House in Brunswick, Maine.
    S. 923 and H.R. 1528, which would designate the New England 
National Scenic Trail.
    S. 2513, which would modify the boundary of Minute Man 
National Historical Park to include the homes and surrounding 
farmland of Colonel James Barrett and the area around the 
Joshua Brooks house.
    S. 2804, which would adjust the boundary of Everglades 
National Park to authorize the acquisition of property in the 
Tarpon Basin District.
    The reasons for our positions on these bills are explained 
in detail in our full statement. For some of the bills I just 
mentioned we are requesting that the Committee make minor 
amendments to the bill language. Explanations of these 
requested amendments are also contained in the full statement.
    The Department recommends deferring action on the following 
bills:
    S. 827, which would establish the Freedom's Way National 
Heritage Area in Massachusetts and New Hampshire.
    S. 2604, which would establish the Baltimore National 
Heritage Area in Maryland.
    The Department believes that National Heritage Area program 
legislation should be enacted before moving ahead with 
designation of these areas.
    The Department opposes the following bills and I'll briefly 
explain our reasons.
    S. 956 would establish the Land Between the Rivers National 
Heritage Area. We believe a comprehensive feasibility study 
should be completed to evaluate an area before designation is 
considered. The study undertaken by Southern Illinois 
University provides a good beginning. However, we cannot 
support S. 956 until an adequate feasibility study is completed 
that demonstrates the area meets the criteria for designation. 
We are prepared to provide advice or assistance in the 
completion of the feasibility study that meets our professional 
standards and provides Congress with the necessary information 
and assessment upon which to base its decision regarding 
designation in the future.
    S. 2073 relates to the statute of limitations that apply to 
certain claims for rail to trail taking stations. The 
Department of Justice advises us that S. 2073 has not 
eliminated Constitutional concerns that the legislation would 
unnecessarily displace settled, well-reasoned, case law first 
expressed about similar legislation considered in the 109th 
Congress. Therefore the Administration opposes this bill.
    H.R. 53 authorizes the Department to enter into a long-term 
lease with the government of the Virgin Islands for the purpose 
of constructing a local school complex. This use is 
inconsistent with the purposes for which the park was created. 
We are concerned about the precedent this would set for other 
communities adjacent to National Parks that may want to develop 
Park Service lands for local, civic purposes. Therefore the 
Department opposes this bill.
    We were also requested to testify on certain sections of 
H.R. 1483 an Omnibus Heritage Areas Act passed by the House. 
While I will comment briefly on those specific sections, you 
should note that we testified in opposition to the sections in 
Title I that extend the authorization for Federal funding for 
nine established National Heritage Areas. We recommend that the 
committee defer action on Title II, Subtitle C which would 
establish the Muscle Shoals National Heritage Area since we are 
conducting a feasibility study that is expected to be completed 
later this year. We also recommend deferring action until a 
National Heritage Area program legislation is enacted on Title 
II, Subtitles B and F which would establish the Freedom's Way 
National Heritage Area and the Santa Cruz Valley National 
Heritage Area.
    The Department supports enactment of Title III, Section 
3001 to authorize a feasibility study for the Northern Neck 
National Heritage Area in Virginia. Title IV, Section 4006, to 
make several improvements to the operation of the Erie Canalway 
National Heritage Corridor. Title V, Section 5001 stating the 
sense of Congress that the Federal Government should not fund a 
National Heritage Area into perpetuity.
    Title VI, Section 6001 requires all land within Heritage 
Areas designated in this Act to be exclusively governed by 
relevant state and local laws on hunting, fishing and the 
pedestrian use of a weapon, trap or net. The Department is 
concerned that there are Federal lands within National Heritage 
Areas that do not allow hunting, fishing, trapping or other 
wildlife harvesting activities. Under Departmental regulations, 
the National Park Service is already required to consult with 
the state agencies on certain fish and wildlife management 
actions within National Park units. We recommend this section 
be amended to exempt Federal lands within National Heritage 
Areas from this requirement.
    Mr. Chairman, this concludes my statement. I'd be pleased 
to answer any questions that you or other members may have.
    [The prepared statements of Mr. Wenk follow:]

 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior

                                H.R. 53

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on H.R. 53, a bill to enter into a long-term 
lease with the Government of the United States Virgin Islands.
    The Department opposes H.R. 53 because it would allow the lease of 
property within a National Park Service unit for a use inconsistent 
with the purpose for which the park was created. The Department is 
concerned about the precedent this would set for other communities 
adjacent to national parks that may want to develop National Park 
Service lands for a local, civic purpose.
    H.R. 53 would authorize the Secretary to lease to the U.S. Virgin 
Islands real property, including any improvements, for the purposes of 
constructing a local school complex to serve grades K through 12.
    Virgin Islands National Park (subsequently referred to as ``park'') 
was authorized by Congress in 1956 and established largely by an 
initial donation of land on St. John from Laurance Rockefeller through 
the Jackson Hole Preserve, Incorporated. Congress enlarged the park in 
1962 by adding 5,650 acres of submerged lands along the north and south 
coasts of St. John. In 1978, Congress added approximately 135 acres at 
Hassel Island in St. Thomas Harbor to the park. The park protects 
Caribbean forests, coral gardens, beaches and historic ruins, and 
currently owns 12,917 acres of land and water within its 14,689-acre 
boundary.
    The property identified for this lease is a 10-acre plot within the 
park that is part of Estate Catherineberg, a historic sugar plantation 
located near the center of the island, close to Centerline Road. The 
property is not part of the Rockefeller donation, and is not encumbered 
by the reversionary clause that restricts the use of the Rockefeller 
properties to national park purposes. Though no formal survey has been 
done, the property is believed to contain fewer historic resources than 
other parts of the Estate.
    The lease authority proposed by H.R. 53 would exceed the authority 
currently granted to the Secretary to lease real property within units 
of the National Park System. The 1998 National Parks Omnibus Act gives 
the Secretary the authority to lease buildings and associated property, 
as long as the lease does not ``result in degradation of the purposes 
and values of the unit.''
    Public education is not in conflict with the purpose of Virgin 
Islands National Park. However, the construction of a complex of 
buildings is in conflict with the direction given by the park's 
authorizing legislation, which states that the park ``shall be 
administered and preserved by the Secretary of the Interior in its 
natural state . . .''
    The National Historic Preservation Act gives the Secretary of the 
Interior authority to lease historic property, including historic 
buildings and historic lands, but only if the lease ``will adequately 
insure the preservation of the historic property.'' New construction of 
an education complex would not insure that the historic character of 
the land in question is preserved.
    Finally, the Land and Water Conservation Act authorizes the 
Secretary of the Interior to convey to a freehold or leasehold interest 
in lands within the national park system, but this authority does not 
apply to ``property within national parks.''
    During the past 14 years, the U.S. Virgin Islands and the National 
Park Service have discussed other proposals that would allow the U.S. 
Virgin Islands to construct a school on land currently owned by the 
National Park Service. These proposals have included an administrative 
land exchange. Though the Secretary of the Interior does have the 
authority to make minor boundary revisions of a unit of the National 
Park Service system through a land exchange, the Land and Water 
Conservation Act stipulates several conditions that must be met before 
the land is exchanged and the boundary is revised.
    First, the land gained in the exchange must be ``necessary for . . 
. the proper preservation, protection, interpretation or management of 
an area of the national park system.'' Second, the total value of the 
land exchanged--the combined value of both the land added and the land 
deleted from the unit--must be less than $750,000. Though no formal 
determination has been made, it appears that the Estate land alone is 
likely to be worth more than $750,000.
    The Department understands that the U.S. Virgin Islands would like 
to build a school in a central location on St. John and that 
reasonably-priced private land is largely unavailable. However, the 
Department believes this would set a dangerous precedent for other 
units of the National Park Service system. Several units of the system 
are located in areas where reasonably-priced private land is 
unavailable for civic purposes. The enactment of H.R. 53 might 
encourage these communities to pursue the use of park lands for 
purposes other than the national purpose for which they were 
designated.
    This concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.

                               H.R. 1483

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 1483, as passed by the House, to amend the Omnibus Parks and 
Public Lands Management Act of 1996 to extend the authorization for 
certain national heritage areas, and for other purposes. The committee 
has asked us to only address specific sections contained within Title 
II through VI in our testimony. We should note, however, that the 
Department testified on May 15, 2007, in opposition to the sections in 
Title I that extend the authorization for federal funding for nine 
established national heritage areas. The Department has also cited 
concerns or recommended the committee defer action on other provisions 
included in H.R. 1483.
    H.R. 1483, the Celebrating America's Heritage Act as passed by the 
House, has six titles related to national heritage areas. The 
Department will present its position on each of the specific sections 
within each of the five titles as requested by the committee.
    Title II, Subtitle C would establish the Muscle Shoals National 
Heritage Area in the counties of Colbert, Franklin, Lauderdale, 
Lawrence, Limestone, and Morgan in northwestern Alabama, and would 
designate the Muscle Shoals Regional Center as the local coordinating 
entity responsible for developing and implementing the management plan 
for the heritage area. The National Park Service is in the process of 
conducting a feasibility study, authorized by Public Law 107-348, to 
determine the suitability and feasibility of establishing this region 
as a national heritage area. We expect to complete the study later this 
year, at which time we will provide a recommendation on the suitability 
and feasibility of establishing the Muscle Shoals National Heritage 
Area. Until the study is completed, it would be premature to state a 
position on its designation as contained in this subtitle, so we 
recommend that the committee defer action on this provision.
    Title II, Subtitle D would establish the Freedom's Way National 
Heritage Area that includes 37 Massachusetts and 8 New Hampshire 
communities northwest of Boston. This is a region that substantively 
influenced our democratic forms of governance and the development of 
intellectual traditions that underpin the concepts of American freedom, 
democracy, conservation, social justice, and ethnic diversity. Its 
natural and community resources are exceptional examples of the rural 
beauty of the New England landscape.
    A feasibility study and addendum was completed by the proposed 
management entity, the Freedom's Way Heritage Association, Inc., and 
reviewed by the National Park Service. The study found that the area 
met the criteria for designation as a national heritage area. However, 
the Department recommends that the committee defer action on this area 
and all other proposed heritage area designations until program 
legislation is enacted that establishes guidelines and a process for 
the designation of national heritage areas. In summer 2006, the 
Administration sent to Congress a legislative proposal to establish 
such guidelines and a process for designation. The National Heritage 
Areas Partnership Act, S. 278, was introduced during the 110th Congress 
and it incorporated the majority of the provisions of the 
Administration's proposal. We look forward to continuing to work with 
Congress on this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas work 
toward self-sufficiency by outlining the necessary steps, including 
appropriate planning, to achieve that shared goal.
    Title II, Subtitle F would establish the Santa Cruz Valley National 
Heritage Area in southern Arizona, managed by the Santa Cruz Valley 
Heritage Alliance Inc. The proposed Santa Cruz Valley National Heritage 
Area encompasses approximately 3,300 square miles of the upper and 
middle Santa Cruz River watershed and the upper Sonoran Desert. It 
includes two units of the National Park System, Tumacacori National 
Historical Park which preserves a Spanish Colonial Mission, and Saguaro 
National Park which protects a diverse and picturesque area of the 
Sonoran Desert. The Juan Baptista de Anza National Historic Trail also 
crosses the heritage area's boundary. Both the Bureau of Land 
Management and the U.S. Forest Service manage extensive land within the 
proposed national heritage area.
    A feasibility study was completed by the Center for Desert 
Archaeology and reviewed by the National Park Service. The study found 
that the area met the criteria for designation as a national heritage 
area. However, the Department recommends that the committee defer 
action on this area and all other proposed heritage area designations 
until program legislation is enacted that establishes guidelines and a 
process for the designation of national heritage areas.
    Title III, Section 3001 would direct the Secretary of the Interior, 
in consultation with appropriate State historic preservation officers, 
State historical societies, and other appropriate organizations, to 
conduct a study of the suitability and feasibility of establishing the 
Northern Neck National Heritage Area in the Commonwealth of Virginia to 
evaluate if it meets the criteria for heritage area designation. The 
Secretary would be required to submit a report to Congress, no later 
than three years after funds are made available, on the findings, 
conclusions, and recommendations of the study. The Department supports 
enactment of this title, however, we believe that any funding requested 
should be directed first toward completing previously authorized 
studies.
    Title IV, Section 4006 would amend the Erie Canalway National 
Heritage Corridor Act (Title VIII of Appendix D of Public Law 106-554) 
with several changes to improve the operation of the federal 
commission. The Department supports these amendments.
    Title V, Section 5001 states that it is the sense of Congress that 
the Federal Government should not fund a national heritage area in 
perpetuity. As outlined in the Administration's legislative proposal, 
and as included in S. 278 as reported by the Senate Energy and Natural 
Resources Committee, it is our expectation that heritage areas should 
work toward self-sufficiency with federal funding through the National 
Park Service limited to a 15-year period. The Department concurs with 
this provision.
    Title VI, Section 6001 states that all designated and future 
designated lands within any natural heritage area for which funding is 
provided under this Act shall be exclusively governed by relevant State 
and local laws regarding hunting, fishing, and the possession or use of 
a weapon, trap, or net. Relevant State and local laws already apply to 
lands within a national heritage area and the majority of recently 
designated heritage areas include a provision in the authorizing 
legislation that state that nothing in a heritage area's designation 
diminishes the authority of the State to manage fish and wildlife 
including the regulation of fishing and hunting within the heritage 
area. However, the Department is concerned that there are federal lands 
within national heritage areas, including units of the National Park 
System, that do not allow hunting, fishing, trapping, or other wildlife 
harvesting activities. Under Departmental regulations, the National 
Park Service is already required to consult with State agencies on 
certain fish and wildlife management actions within national park 
units. We would recommend that the section be amended to exempt federal 
lands within national heritage areas from this requirement and we 
recommend that the reference be changed to ``national'' heritage areas 
to reflect the correct name of these areas.
    Finally, we would like to work with the committee on amending this 
bill to include an additional title that would make a technical 
amendment to the John H. Chafee Blackstone River Valley National 
Heritage Corridor Act (Public Law 99-647) to allow ex officio or 
delegates of commission members to attend commission meetings on behalf 
of the State officials who sit on the commission. This is a standard 
provision in most recently established federal commissions, but was not 
included in the Act establishing the John H. Chafee Blackstone River 
Valley National Heritage Corridor, and this oversight has hampered the 
work of the commission.
    Mr. Chairman, that concludes my testimony and I am prepared to 
answer any questions that you or other members of the committee might 
have at this time.

                                 S. 662

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
662, a bill to authorize the Secretary of the Interior to conduct a 
study to evaluate resources at the Harriet Beecher Stowe House in 
Brunswick, Maine.
    The Department supports the enactment of this bill. However, the 
Department feels that priority should be given to the 29 previously 
authorized studies for potential units of the National Park System, 
potential new National Heritage Areas, and potential additions to the 
National Trails System and National Wild and Scenic River System that 
have not yet been transmitted to the Congress.
    If enacted, the bill would direct the Secretary to conduct a 
special resource study to evaluate the national significance of the 
Harriet Beecher Stowe House and surrounding land, and to assess the 
suitability and feasibility of including the site as a unit of the 
National Park System. The study, which is to be completed within three 
years after funds are made available for it, will follow the criteria 
for potential new areas contained in section 8(c) of Public Law 91-383 
(16 U.S.C. 1a-5(c)) which require such studies to address four areas: 
significance, suitability, feasibility, and management options.
    The Harriet Beecher Stowe House, located at 63 Federal Street, 
Brunswick, Maine, is a National Historic Landmark whose oldest portion, 
a 2-story wood frame house, dates from 1807. It was the residence from 
1850 to 1852 of Harriet Beecher Stowe, author of the influential 
indictment of slavery, Uncle Tom's Cabin, which was written here. It 
was designated as a National Historic Landmark in 1962, and is listed 
by the National Park Service in its Underground Railroad travel guides 
as a site of interest.
    Harriet Elizabeth Beecher (1811-1896) was born in Connecticut and 
moved with her family to Cincinnati, Ohio in 1832 at the age of 21. 
There she was a teacher and author, and traveled to Kentucky where she 
interviewed fugitive slaves and witnessed the brutality of slavery 
first-hand. In 1836 she married Calvin Ellis Stowe, who later became a 
professor at Bowdoin College, prompting her move to Brunswick, Maine. 
She used her personal experiences to develop Uncle Tom's Cabin, 
published as a serial in 1851 in an antislavery newspaper, and in book 
form the following year. An enormous popular success, its antislavery 
message provoked strong reactions throughout the South. In response to 
criticism, she wrote A Key to Uncle Tom's Cabin, (1853), a collection 
of factual material on slavery intended to justify the charges implied 
in the novel. She continued to lead the life of an active writer, 
publishing a second anti-slavery novel, poetry, and numerous essays and 
fictional works about New England social life.
    The property at 63 Federal Street was operated as an inn for many 
years, and was expanded several times to include an attached barn, 
several ells, and a 54-unit motel. The complex was purchased several 
years ago by Bowdoin College, which rehabilitated the motel for use as 
a student dormitory. The main house is not currently in use or open to 
the public. The college has recently undertaken a study of the historic 
structure, to identify remaining elements that would have been present 
during Stowe's era, and to explore various options for preserving it. 
The college is committed to preserving the building, but is reluctant 
to undertake the financial burdens of restoring and operating it as a 
house museum.
    The property is one of three former Stowe homes listed on the 
National Register of Historic Places. The others are houses at 2950 
Gilbert Avenue, Cincinnati, Ohio and 73 Forest Street, Hartford, 
Connecticut, both of which are open to the public as sites honoring 
Harriet Beecher Stowe. The special resource study would allow National 
Park Service professionals to build upon the historic structure reports 
recently prepared for the Bowdoin College house through a grant from 
the U. S. Department of Housing and Urban Development, and to assist in 
the preparation of options for long-term preservation of the National 
Historic Landmark Harriet Beecher Stowe House.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                                 S. 827

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 827, a bill to establish the Freedom's Way National 
Heritage Area in the Commonwealth of Massachusetts and the State of New 
Hampshire.
    While the Department recognizes the appropriateness of designating 
the Freedom's Way National Heritage Area, we recommend that the 
committee defer action on S. 827 and all other proposed heritage area 
designations until program legislation is enacted that establishes 
guidelines and a process for the designation of national heritage 
areas. In summer 2006, the Administration sent to Congress a 
legislative proposal to establish such guidelines and a process for 
designation. Bills were introduced in the 109th Congress (S. 243, H.R. 
760 and H.R. 6287) that incorporated the majority of the provisions of 
the Administration's proposal, and S. 243 passed the Senate. During the 
110th Congress, a similar heritage area program bill, S. 278, has been 
introduced, and we look forward to continuing to work with Congress on 
this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    The proposed Freedom's Way National Heritage Area includes 37 
Massachusetts and 8 New Hampshire communities northwest of Boston. It 
includes the Minute Man National Historical Park, the Oxbow and Great 
Meadows National Wildlife Refuges, the Concord, Assabet and Sudbury 
Wild and Scenic Rivers, as well as National Historic Landmarks and 
Districts, and many sites listed on the National Register of Historic 
Places.
    This is a region that substantively influenced our democratic forms 
of governance and the development of intellectual traditions that 
underpin the concepts of American freedom, democracy, conservation, 
social justice, and ethnic diversity. Historically prominent leaders in 
literature and intellectual thought found the region to be a source of 
inspiration including Henry David Thoreau, Ralph Waldo Emerson, 
Nathaniel Hawthorne and Louisa May Alcott. It was also the locale for 
expressions of religious freedom and social experimentation with the 
settlements of the Shakers, Millerites and Transcendentalists. Its 
natural and community resources are exceptional examples of the rural 
beauty of the New England landscape. The events that occurred here 
during the American Revolution include the ride of Paul Revere and the 
engagements at Lexington and Concord, which are known to virtually 
every elementary school child in the nation.
    The concept of a Freedom's Way National Heritage Area was defined 
in a feasibility study undertaken by the proposed management entity, 
the Freedom's Way Heritage Association, Inc. Priorities outlined in 
this study speak to linkages through education and preservation of the 
region's nationally distinctive natural and cultural resources through 
partnerships. The region has a strong partnership base among its many 
cultural institutions, businesses, non-profit organizations, local 
governments, and citizens. The governors of both states have endorsed 
the designation of a national heritage area.
    The National Park Service reviewed the national heritage area 
feasibility study undertaken by the proposed management entity in July 
1997. Since it did not fully address the interim national heritage area 
criteria, representatives of our Northeast Region conducted field 
reconnaissance visits in November 2000. Based on the findings of the 
reconnaissance team, the Freedom's Way Heritage Association, Inc. 
submitted an addendum in April 2001 to the 1997 Freedom's Way National 
Heritage Area Feasibility Study entitled ``The Proposed Freedom's Way 
National Heritage Area and Compliance with the National Park Service 
Interim Criteria for National Heritage Area Designation.'' The National 
Park Service evaluated that addendum, as well as the original 
feasibility study, and found that the criteria were fully addressed and 
met.
    Since 2001 when the study was amended, both Massachusetts and New 
Hampshire have enacted legislation establishing state heritage area 
commissions related to Freedom's Way. Although these state laws are 
quite similar to each other, and appear to be consistent with the 
general aims of S. 827, they raise a number of issues. For example, 
each state is authorized to establish a Freedom's Way Heritage Area 
Commission, and among other duties ``prepare and implement a unified 
historic preservation and interpretive plan for the area.'' If S. 827 
is enacted, the Freedom's Way Heritage Association, Inc., a nonprofit 
organization, would be the management entity, and would also be charged 
with developing a comprehensive management plan for the area. It is 
unclear how the heritage area would function with three separate 
management entities charged with similar duties. The Massachusetts law 
states that if a federal heritage area is designated by act of 
Congress, the governor may terminate the commission when a federal 
management entity is appointed, but the New Hampshire law includes no 
such provision.
    It is our understanding that if the heritage area is federally 
designated, then both state commissions would not be established and 
the responsibility to prepare the management plan would be the duty of 
the Freedom's Way Heritage Association, Inc. as the management entity.
    Mr. Chairman, while the proposed Freedom's Way National Heritage 
Area contains significant natural and cultural resources and meets the 
established criteria for congressional designation, we would again 
request that the committee defer action until national heritage area 
program legislation is enacted. However, if the committee chooses to 
move ahead with this bill, the Department would like to work with them 
to make some technical corrections to the bill. In addition, the 
Department would recommend that the bill be amended to include an 
additional requirement for an evaluation to be conducted by the 
Secretary, three years prior to the cessation of federal funding under 
this act. The evaluation would examine the accomplishments of the 
heritage area in meeting the goals of the management plan; analyze the 
leveraging and impact of investments to the heritage area; identify the 
critical components of the management structure and sustainability of 
the heritage area; and recommend what future role, if any, the National 
Park Service should have with respect to the heritage area.
    Mr. Chairman this completes my testimony. I would be happy to 
answer any questions that you or any of the members of the subcommittee 
may have.

                          S. 923 AND H.R. 1528

    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to discuss the views of the Department of the Interior 
on S. 923 and H.R.1528, bills to amend the National Trails System Act 
by designating the New England National Scenic Trail as a component of 
the National Trails System.
    The Department supports enactment of this legislation. At a hearing 
on May 15, 2007 in the House Subcommittee on National Parks, Forests, 
and Public Lands, the Department testified in support of H.R. 1528.
    S. 923 and H.R. 1528 would designate an approximately 220-mile 
trail route from Long Island Sound in the Town of Guilford, Connecticut 
to the New Hampshire-Massachusetts border in the Town of Royalston, 
Massachusetts as the New England National Scenic Trail. The route 
includes portions of the existing Mattabesett, Metacomet, and 
Metacomet-Monadnock trails studied under Public Law 107-338, the 
Metacomet-Monadnock-Mattabesett Trail Study Act of 2002. The proposed 
New England National Scenic Trail would be administered by the 
Secretary of the Interior and managed through partnership agreements 
with the State of Connecticut and the Commonwealth of Massachusetts, 
the Connecticut Forest and Park Association, the Appalachian Mountain 
Club, and other local stakeholders as appropriate. There are no 
existing federal lands associated with the proposed trail route and no 
new federal acquisition of lands is anticipated to be necessary to 
accomplish the purposes of S. 923 and H.R. 1528.
    In spring 2006, the National Park Service produced the draft report 
and environmental assessment for the Metacomet Monadnock Mattabesett 
National Scenic Trail Feasibility Study. The report, which was recently 
transmitted to Congress, concludes that the proposed route meets the 
definition and intent for national scenic trail establishment under the 
National Trails System Act. The characteristics that make the proposed 
route worthy of designation include its scenic mountain landscape, 
historic New England villages, geological resources, and an abundance 
of endangered and natural communities.
    The route traverses the Metacomet, Mt. Tom, and Mt. Holyoke ranges 
offering some of New England's most outstanding scenery and geologic 
features. Over 50 National Register Districts abut the trail. There are 
outstanding views from the trail as well as links to many side trails. 
The trail offers some of the world's best opportunities to view 
volcanic, sedimentary, and glacial geology, including columnar basalt, 
fossils, and dinosaur footprints. Areas along the trail have an 
outstanding richness of habitat types, natural communities, and rare 
and endangered species' habitats. In Connecticut, 132 occurrences of 
rare species or natural communities have been documented within 1,000 
feet of the trail.
    In addition, one of the most important factors identified in the 
National Trails System Act for evaluating potential new components of 
the system is proximity to population centers. Through the Act, 
Congress recognized the need to serve the nation's population centers 
with quality recreational opportunities. As such, the proposed New 
England National Scenic Trail offers a truly extraordinary opportunity, 
with over 2 million people living within 10 miles of the trail system.
    S. 923 and H.R. 1528 would implement the environmentally preferred 
alternative of the study report and environmental assessment. This 
alternative was developed through a collaborative process with key 
trail stakeholders associated with the existing Metacomet Monadnock and 
Mattabesett trails, including the two states, the Appalachian Mountain 
Club, the Connecticut Forest and Park Association, and the 39 abutting 
communities. In addition, GIS mapping was cross-referenced against 
community land ownership data to build for the first time a database of 
more than 1,000 landowners on or near the trail route. These landowners 
and entities were all engaged directly in the study through regular 
mailings and invitations to information meetings and working sessions. 
Input from all of these sources was incorporated into the 
environmentally preferred alternative, which includes the following 
elements:
    First, the ``Blueprint for Management'' included in the report was 
developed through input by a full range of study participants to 
provide the best blueprint for long-term trail viability. The National 
Park Service and Trail Stewardship Council would base trail management, 
administration and protection efforts on this document.
    Second, the report calls for the creation of a Trail Stewardship 
Council that would bring trail partners and stakeholders together on a 
regular basis to discuss trail issues, coordinate management and 
protection of the trail, and generally guide implementation of the 
Management Blueprint. The Council would have advisory powers only, and 
would be non-regulatory in nature.
    Third, the study identified no need for direct federal ownership or 
management of the trail. Thus, the National Park Service's role in 
implementing the proposed national scenic trail designation would be 
one of technical and financial assistance to existing trail partners, 
coordinated through the Trail Stewardship Council.
    Fourth, a new unifying name, the New England National Scenic Trail, 
was suggested for national scenic trail purposes. Traditional trail 
names would continue to be used in guidebooks or on trail signs, as 
appropriate, such as the Mattabesett Trail, part of the New England 
National Scenic Trail.
    Finally, in addition to the proposed extension to Long Island Sound 
in Guilford, Connecticut, a new route for the national scenic trail is 
proposed in the Belchertown-Leverett area of Massachusetts. The new 
route is envisioned to take advantage of substantial state-owned lands 
that can provide a quality, protected trail route, while avoiding a 
segment of the Metacomet-Monadnock trail almost completely devoid of 
protected lands.
    The draft report and environmental assessment for the Metacomet 
Monadnock Mattabesett Trail Study was released for public and agency 
review in August 2006. An executive summary was mailed to all 
identified trail landowners and stakeholders, along with invitations to 
public meetings in Connecticut and Massachusetts. Approximately 60 
written responses were received between August and December 2006. The 
vast majority of these supported the environmentally preferred 
alternative, and only a few comments were received in opposition to 
national scenic trail designation.
    The Department of Justice has advised us that requiring the 
Secretary to manage and administer the trail consistent with the Trail 
Management Blueprint may raise constitutional concerns, and it would 
like to work with the committee on that provision. In addition, the 
Department would like to work with the committee on some technical 
amendments to the Senate version of the bill to reflect the map 
reference contained in the House-passed version of H.R. 1528.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.

                                 S. 956

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 956, a bill to authorize the Secretary of the 
Interior to establish the Land Between the Rivers National Heritage 
Area in the State of Illinois. The Department does not support 
enactment of this bill at this time.
    Before a national heritage area is designated by Congress, a 
comprehensive feasibility study should be completed that evaluates an 
area by applying criteria developed by the Department and Congress. The 
study undertaken by Southern Illinois University provides a good 
beginning in identifying the many stories and variety of resources 
found within the region. However, we believe that S. 956 should not be 
enacted until an adequate feasibility study is completed that yields 
the necessary information to demonstrate that the proposed national 
heritage area meets the criteria for designation. We also believe that 
individual bills proposing to designate new national heritage areas 
should be deferred until program legislation is enacted that 
establishes guidelines and a process for the designation of national 
heritage areas. In summer 2006, the Administration sent to Congress a 
legislative proposal to establish such guidelines and a process for 
designation. Bills were introduced in the 109th Congress (S. 243, H.R. 
760 and H.R. 6287) that incorporated the majority of the provisions of 
the Administration's proposal, and S. 243 passed the Senate. During the 
110th Congress, a similar heritage area program bill, S. 278, was 
introduced, and we look forward to continuing to work with Congress on 
this very important issue.
    S. 956 would establish the Land Between the Rivers National 
Heritage Area, including Kincaid Mound, Fort de Chartres, Kaskaskia, 
Fort Massac, Wilkinsonville Contonment, the Lewis and Clark Sculpture, 
Flat Boat, Cave-in-Rock, the Shawneetown Bank Building, the Iron 
Furnace, the Crenshaw ``Slave House,'' Roots House, the site of the 
Lincoln-Douglas debate, certain sites associated with John A. Logan, 
the Fort Defiance Planning Map, Mound City National Cemetery, and 
Riverlore Mansion, and any other sites within 17 counties in the State 
of Illinois that the management entity determines to be appropriate to 
include. It designates the Southern Illinois University Carbondale as 
the management entity.
    The Department has concerns about the limited scope of the 
legislation. For example, S. 956 does not make the case that this 
region is a cohesive, nationally distinctive landscape, unified around 
one nationally important story that sets it aside from all other areas. 
The boundaries for the proposed area are not defined. While complete 
boundaries that encompass the key contributing components of the 
nationally important story are refined during the development of the 
management plan, the main region is typically stated within the 
legislation as a demonstration of where most of the grassroots efforts 
are taking place.
    Also, S. 956 does not define the role and functions of the 
management entity or direct the management entity to develop and submit 
a management plan for the heritage area. The role and functions of a 
management entity are defined during development of the feasibility 
study as they require concurrence of the residents. Legislative 
language for a management plan includes a description of comprehensive 
policies, goals, strategies, and recommendations for telling the story 
of the area. It specifies existing and potential sources of funding or 
economic development strategies to protect, enhance, and interpret the 
area. The plan also includes a description of actions and commitments 
that governments, private organizations, and citizens will take to 
protect, manage, and develop resources of the heritage area. S. 956 
does not include any standard legislative language for management 
planning. The diversity of perspective and goals of any heritage area 
requires a written agreement on how to proceed. Specific guidelines 
regarding these issues were provided in the proposed legislation for 
heritage areas developed and presented to Congress by the Department in 
2006.
    A final concern is that S. 956 does not authorize any 
appropriations to provide financial assistance in conducting and 
carrying out the activities and functions of the heritage area.
    The Department has consistently taken the position that proposed 
national heritage areas follow the proven path of those achieving 
designation in recent years. We cannot support S. 956 at this time as 
it does not meet the specific criteria for designation demonstrated by 
the completion of an adequate feasibility study. We are, however, fully 
prepared to provide advice or assistance in the completion of a 
feasibility study that meets our professional standards and provides 
Congress with the necessary information and assessment upon which to 
base its decision regarding designation in the future.
    Chairman, this concludes my prepared remarks. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

                                S. 2073

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2073, to amend the National Trails 
System Act relating to the statute of limitations that applies to 
certain claims.
    On July 13, 2006, the Department of the Interior testified on a 
similar bill, H.R. 4581, before the House Resources Subcommittee on 
National Parks. At that time, we were advised by the U.S. Department of 
Justice that they planned to further evaluate the legislation and would 
send a report to the Committee that would include a position on the 
bill. That report was sent to Chairman Devin Nunes in the form of a 
letter dated August 1, 2006. In that letter the Department of Justice 
stated that this legislation `` . . . would unnecessarily displace 
settled, well-reasoned case law, as well as raise other concerns, 
including constitutional ones. We thus note our opposition to the 
bill.'' The Department of Justice advises us that S. 2073 has not 
eliminated these constitutional concerns. The administration therefore 
opposes this bill.
    The National Park Service is aware that there was some confusion 
created by various court rulings on what date would trigger the Statute 
of Limitations for rail-to-trail takings cases. We believe this issue 
was resolved in court rulings issued in 2005 and 2006. In the Caldwell 
v. United States case concerning a railroad right-of-way in the state 
of Georgia, the plaintiffs alleged that they were the fee owners of 
land that was burdened by a railroad easement and that the railbanking 
and interim trail use of this right-of-way under the Trails Act 
constituted a taking of their property. Both the U.S. Court of Federal 
Claims (the trial court) and the U.S. Court of Appeals for the Federal 
Circuit ruled that the statute of limitations for the Caldwell 
plaintiffs' Trails Act takings claim had expired. However, the two 
courts ruled differently for establishing when the statute of 
limitations started to run. The trial court ruled that two events are 
necessary for a Trails Act takings claim to accrue: (1) the Surface 
Transportation Board (STB) must issue its decision (the Notice of 
Interim Trail Use or ``NITU'') authorizing railbanking, and (2) the 
railroad and qualified trail sponsor must reach a trail use agreement 
pursuant to that authorization. The appeals court found the triggering 
event to be when the STB issued the NITU because that decision 
forestalled the abandonment proceedings and precluded any state law 
reversionary interests from taking effect. In 2006, the Federal Circuit 
reaffirmed the appeals court determination in the Caldwell case ruling 
in Barclay v. United States that the issuance of the original NITU 
triggers the running of the statute of limitations. As a result of the 
Caldwell and Barclay decisions, no confusion remains in the law 
regarding accrual of rails-to-trails takings claims.
    S. 2073 would amend Section 8(d) of the National Trails System Act 
to state that the claims for damages shall not begin to accrue before 
the date on which the State, political subdivision, or qualified 
private organization enters into an agreement with the railroad to 
assume full responsibility for the right-of-way and interim use of that 
right-of-way under paragraph (1).
    In 1983, Congress recognized the continuing need to preserve linear 
transportation corridors and the demand for trails by amending the 
National Trails System Act (NTSA) to include a ``railbanking'' clause. 
Railbanking is defined as the preservation of a railroad corridor for 
future rail use. Railbanking is accomplished under the NTSA through 
provisions that allow a railbanked corridor to be used for interim 
trail use purposes through a voluntary agreement reached between a 
railroad and a trail manager. In Section 8(d) of the NTSA, the 
Secretary of the Interior is asked to encourage state and local groups 
to develop trails on railroad rights-of-way in order to protect and 
keep these corridors intact in case they are needed for rail service in 
the future. Section 8(d) also facilitates the development of rail-trail 
corridors that provide both high-quality recreational opportunities and 
serve transportation needs.
    In cities, these rail-trail corridors benefit the citizens by 
serving as transportation corridors, providing safe and easily 
accessible commuting areas for bikers and walkers, helping to mitigate 
our urban traffic problems and pollution. The present use of these 
trails has the additional benefit of attracting tourism dollars to 
communities that have lost income through the disuse of the railroad. 
Rail-trail corridors attract people to these areas, who in turn spend 
money on recreational equipment, food, and lodging as they use these 
trails.
    Rail-trail corridors provide important recreational and energy-
efficient transportation opportunities throughout the United States. 
However, it is important to provide a process that will ensure just 
compensation is provided to private property owners only when 
railbanking and interim trail use authorized under the NTSA results in 
a taking of private property.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.

                                S. 2513

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2513, a bill to modify the boundary of Minute Man National Historical 
Park to include the home and surrounding farmland of Colonel James 
Barrett and the area around the Joshua Brooks House.
    The Department supports the enactment of this bill.
    In December 2006, Congress directed the Secretary of the Interior 
to conduct a study to evaluate the significance of the Colonel James 
Barrett Farm and to assess the suitability and feasibility of including 
the farm in the National Park System as part of the Minute Man National 
Historical Park. The National Park Service consulted affected property 
owners, state and local governments, preservation organizations, and 
the public, and incorporated their views into the findings of the 
study. The boundary study and environmental assessment, transmitted to 
Congress in March 2008, concluded that the expansion of the boundary of 
the park to include the home and surrounding farmland of Colonel James 
Barrett and the area around the Joshua Brooks House, met the criteria 
for boundary expansions and that inclusion within the boundary was 
important to ensure the protection of nationally significant resources 
and values. There is extensive public support for the boundary 
expansion.
    S. 2513 would permit the inclusion of 67 acres of land within the 
boundary of the Minute Man National Historical Park, thus adding 
significant properties to the park that might be cooperatively managed 
or acquired from willing sellers. The potential boundary expansions 
were found to meet all National Park Service criteria including the 
ability to protect significant resources, enhance opportunities for 
public enjoyment, and improve management capabilities.
    The most significant property proposed for inclusion within the 
revised boundary is the Colonel James Barrett Farm, located at 448 
Barrett's Mill Road, Concord, Massachusetts, two miles from the town 
center and from Minute Man National Historical Park. It includes the 
home and surrounding farmland of Colonel James Barrett (1710-1779), 
Revolutionary War patriot and one of the leading figures in the events 
leading up to the British march on Concord in April 1775. The Barrett 
Farmhouse and a total of 10 parcels on 64 acres of land that has been 
farmed continuously since the 18th century would be included in the 
expanded boundary.
    The farm was a major hiding place for the colonists' stores of arms 
and ammunition. British troops headed there on April 19, 1775 but found 
nothing, the residents having been alerted by Paul Revere in time to 
secrete muskets, canons and powder in the fields. The Battles of 
Lexington and Concord occurred later that day, marking the start of the 
Revolutionary War. Minute Man National Historical Park encompasses 967 
acres and includes the North Bridge, site of ``the shot heard round the 
world,'' and the historic Battle Road, where the British both advanced 
and retreated. Barrett's farm was the impetus for the British advance 
and the vigorous work of Colonel Barrett and his militia was a key 
reason for the British retreat.
    Considered for inclusion when Minute Man National Historical Park 
was established in 1959, the farm was then in private ownership and not 
available for acquisition. The farmhouse is now owned by Save Our 
Heritage, Inc. a local nonprofit organization, which seeks to preserve 
it for public use and enjoyment. The group has been working closely 
with the Town of Concord and has expended over $2 million to acquire 
the farmhouse and in addition, has raised $770,000 to provide urgently 
needed stabilization of the building. Much of the surrounding acreage 
is owned by the Town and is managed as agricultural conservation land, 
thus preserving the historic agrarian landscape. Owners of the three 
private parcels have been consulted and have no objection to the 
boundary change.
    The other property included in the proposed boundary expansion 
abuts the historic Joshua Brooks House, which is owned by the National 
Park Service. Located at 37 North Great Road (Battle Road), this 3-acre 
parcel is partially inside the park boundary. Expanding the boundary 
would ensure protection of the viewshed around the Joshua Brooks House, 
a key spot on the Battle Road, by permitting acquisition of the 
property in fee or through a less-than-fee purchase such as a 
conservation easement.
    The estimated increase in annual operations, maintenance and 
interpretation costs resulting from the acquisition of lands authorized 
with this proposed boundary expansion would be approximately $65,000.
    Of the 67 acres authorized in this boundary expansion, the only 
land that is envisioned to be acquired by the National Park Service is 
the 4.5 acres that include the farmhouse and the adjacent farmland. The 
approximate cost to acquire the 4.5 acres would be $2.1 million. 
Funding for these costs would be subject to NPS priorities and 
availability of appropriations. For the remaining 62.5 acres, most of 
the land (55+ acres) within the potential boundary expansion at 
Barrett's Farm is owned by the Town of Concord or the Concord School 
Committee. The park is only authorized to acquire land from a 
government entity by donation. The rest of the acreage could be 
protected through conservation easements or management agreements.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                                S. 2604

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2604, a bill to establish the Baltimore National Heritage Area in the 
State of Maryland.
    We recommend that the committee defer action on S. 2604 and all 
other proposed heritage area designations until program legislation is 
enacted that establishes guidelines and a process for the designation 
of national heritage areas. In summer 2006, the Administration sent to 
Congress a legislative proposal to establish such guidelines and a 
process for designation. The National Heritage Areas Partnership Act, 
S. 278, was introduced during the 110th Congress and it incorporated 
the majority of the provisions of the Administration's proposal. We 
look forward to continuing to work with Congress on this very important 
issue
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    The Baltimore Heritage Area was certified by the Maryland Heritage 
Areas Authority in 2001 as a state heritage area. The Baltimore 
Heritage Area is managed by the Baltimore City Heritage Area 
Association, a 40-member board appointed by the Mayor. The Association 
has a proved track record as a successful coordinating entity among 
diverse partners in the Baltimore area. Over the past seven years, the 
Baltimore Heritage Area has proved to be a successful effort, 
supporting, facilitating, and leveraging interpretive projects, 
historic preservation projects, and education efforts. The heritage 
area has strong support from the public and a myriad of state, local, 
federal, and non-governmental partners throughout the area.
    The National Park Service reviewed both the updated management 
action plan and the feasibility study and concurs that the proposed 
Baltimore National Heritage Area meets required criteria for 
congressional designation. In 2006, the Baltimore City Heritage Area 
Association updated the Baltimore City Heritage Area Management Action 
Plan that serves as a blueprint for protecting historic, cultural and 
natural resources through activities and investments within the 
heritage area. In addition, the Association completed a national 
heritage area feasibility study, based upon the National Park Service 
criteria, to determine whether the area met the criteria for national 
heritage area designation. The study concluded that the region met all 
of the criteria for designation including the existence of significant 
levels of public support and local commitments necessary for successful 
planning and implementation of a heritage area.
    The proposed heritage area comprises a large swath of the city of 
Baltimore, approximately 11,000 acres, and includes 24 National 
Historic Landmarks, 53,000 buildings listed in 52 National Register of 
Historic Places historic districts, 8,000 buildings in 30 local 
historic districts, a system of parks and waterways, five Maryland 
Scenic Byways, and an All-American Road. In addition to Baltimore's 
important cultural, natural and recreational resources, the City 
derives its significance from several key historical events with many 
opportunities to interpret and provide for public understanding and 
appreciation of the City's rich history through heritage programming.
    First and foremost amongst these is the defense of Baltimore 
against the British in 1814 by a populace of largely first-generation 
immigrants and free and enslaved African Americans. The Star-Spangled 
Banner, our national anthem, and a new sense of national identity were 
forged in large part out of this experience. This theme of forging a 
strong, diverse, and complex national identity is very robust in 
Baltimore and includes the period of the War of 1812, the notorious 
domestic slave trade, the earliest organized abolition movement in the 
South, a vital community of free Blacks, and the City's divided 
loyalties during the Civil War. All were part of the City's national 
identity and are still represented in the cityscape, historic 
buildings, and diverse peoples of Baltimore.
    Baltimore was home to Frederick Douglass, Isaac Myers, and Thurgood 
Marshall each of whom, with their individual contributions, helped 
forge the identity of the nation. Douglass declared: ``Going to live at 
Baltimore laid the foundation, and opened the gateway, to all my 
subsequent prosperity . . . '' The Frederick Douglass-Isaac Myers 
Maritime Park commemorates the story of these two men and the first 
African American shipyard. Resources associated with Thurgood Marshall, 
the first African American to serve as a justice on the Supreme Court 
of the United States, include Public School 103, the first school 
Thurgood Marshall attended, and his boyhood home. The Heritage Area has 
already begun to rehabilitate and interpret the public school.
    Other resources representing the theme of national identity include 
the National Road, the Nation's first federally funded interstate 
transportation route, that begun in 1811 in Baltimore and headed 
westward. Themes and resources that are also well-represented in the 
heritage area include maritime history, immigration, and 
industrialization. Baltimore was a major shipbuilding center beginning 
with the famous Baltimore clippers, a major port of entry for new 
immigrants second only to New York, and the starting point and 
industrial center of the first long distance railroad into the American 
frontier.
    Mr. Chairman, while the proposed Baltimore National Heritage Area 
contains nationally distinctive natural and cultural resources and 
meets the established criteria for congressional designation, we would 
again request that the committee defer action until national heritage 
area program legislation is enacted. However, if the committee chooses 
to move ahead with this bill, the Department would recommend that the 
bill be amended to include an additional requirement for an evaluation 
to be conducted by the Secretary, three years prior to the cessation of 
federal funding under this act. The evaluation would examine the 
accomplishments of the heritage area in meeting the goals of the 
management plan; analyze the leveraging and impact of investments to 
the heritage area; identify the critical components of the management 
structure and sustainability of the heritage area; and recommend what 
future role, if any, the National Park Service should have with respect 
to the heritage area.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks and I would be happy to answer any questions that you 
or the members of the committee may have.

                                S. 2804

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 2804, a bill to adjust the boundary of 
Everglades National Park and to authorize the Secretary of the Interior 
to acquire additional property in the Tarpon Basin district.
    The Department supports enactment of this bill, with some technical 
amendments as discussed later in this testimony.
    Congress passed legislation in 1934 authorizing the establishment 
of Everglades National Park through public and private donations of 
land. Thirteen years later, in 1947, President Harry Truman dedicated 
Everglades as the first national park to preserve purely biological--
not geological--resources. In establishing the park, Congress 
recognized that South Florida's climate and the abundant flora and 
fauna present there were unique to the United States and to the world. 
Specifically, Congress noted the importance of protecting the mangrove 
swamp, which ``teems with aquatic and amphibian life'' and provides a 
sanctuary for numerous wading birds. Congress also recognized the 
importance of protecting the hardwood hammocks. Oak, mahogany and 
gumbo-limbo trees grow on these slightly elevated mounds of limestone, 
providing habitat for birds and other wildlife.
    Everglades National Park is located at the interface of a temperate 
and subtropical environment with a great diversity of resources. It is 
recognized by the United Nations as an International Biosphere Reserve 
and as a World Heritage Site. It is also designated a Wetland of 
International Importance by the international Ramsar Convention treaty.
    The purpose of the proposed legislation is to adjust the boundary 
of Everglades National Park and authorize the acquisition of 
approximately 600 acres of land and water surrounding Tarpon Basin for 
inclusion in the park. These changes are relatively minor, as 
Everglades National Park encompasses approximately 1,509,000 acres. 
However, the resources that will be acquired are significant and 
characteristic of those intended by Congress to be protected. The 
approximate acquisition costs would be $983,000 including cleanup, 
appraisals and other associated costs. Anticipated costs for operations 
are estimated to be under $100,000. Funding for these costs will be 
subject to NPS priorities and availability of appropriations.
    The boundary expansion property, located near Key Largo, Florida, 
contains habitat for the wood stork and the West Indian Manatee, each 
of which are listed as endangered under the Endangered Species Act of 
1973. The property also contains habitat for the roseate spoonbill and 
the white-crowned pigeon. Both are categorized by the Florida Fish and 
Wildlife Conservation Commission as threatened species.
    The property is comprised of two parcels abutting the northeast and 
southwest sides of Tarpon Basin. The northeastern parcel, referred to 
as the Dusenbury Creek peninsula, encompasses slightly more than 59 
percent of the total tract and includes predominantly coastal mangrove 
areas, with some 10 acres of hardwood hammock. This parcel has 
approximately 900 feet of frontage along the west side of US Highway 1 
and is bounded by Tarpon Basin on the south and Blackwater Sound on the 
north and west. The southwestern parcel, referred to as the Grouper 
Creek peninsula, consists of approximately 41 percent of the remaining 
total tract as coastal mangrove. A number of small salt water ponds are 
located throughout the two parcels. The largest, Lake Donna, is 
accessible by land. Access to the others is restricted due to dense 
mangrove stands.
    The Dusenbury Creek parcel has a small ``hurricane hole,'' located 
in the northern end of the property, which can be accessed from the 
Intracoastal Waterway and from Tarpon Basin. Historically, this area 
has been used by boaters to moor their sailboats during a hurricane or 
tropical storm. This legislation provides the Secretary of the Interior 
with authority to issue permits to the owners of a sailing vessel who, 
before the date of enactment of this legislation, have used the 
hurricane hole to secure that sailing vessel during a tropical storm or 
hurricane.
    This legislation will have minimal impact on the park's budget, 
other than funding for land acquisition. The park will be able to 
manage any land additions within its existing priorities. No additional 
personnel will be needed to implement the proposal. The boundary 
adjustment and acquisition will require the park's Florida Bay District 
personnel to perform additional water-and land-based patrols. These 
patrol changes are minor, however.
    The department has some technical amendments to S. 2804. First, the 
land acquisition and administration language in sections 4(b) and 4(d) 
is confusing as to its intent. We would like to work with the committee 
to simplify the language in accordance with other park boundary 
adjustment legislation approved by the committee. We would also like to 
suggest a couple of technical changes to the language of section 2 to 
reflect the correct name of the Florida Fish and Wildlife Conservation 
Commission and to section 5 to clarify which sailing vessels are 
eligible for the permits. We will be glad to provide those to the 
committee.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the Subcommittee 
may have.

    Senator Akaka. Thank you very much, Mr. Wenk. I would like 
to begin with a few questions to you on the various National 
Heritage Area proposals.
    First of all, apart from the Park Service's recommendation 
to defer action on all new National Heritage Area bills until 
programmatic legislation is enacted, is it accurate to say that 
the Park Service has no specific objections to the Baltimore 
National Heritage Area, the Freedom's Way National Heritage 
Area and the Santa Cruz Valley National Heritage Area?
    Mr. Wenk. That is correct, Mr. Chairman.
    Senator Akaka. My next question concerns S. 956, which 
would establish a new National Heritage Area in Illinois. Your 
testimony refers to a study that has been prepared by Southern 
Illinois University. Do you know if the Park Service has 
reviewed the study? If so, whether it meets the standards for 
feasibility studies used by the Park Service for other Heritage 
Areas?
    Mr. Wenk. The National Park Service has had the opportunity 
to review the study. We do believe that it currently does not 
meet the criteria standards for a study and that we would be 
happy to assist with any additional work that might be done so 
we could do a full evaluation and bring that back to the 
Congress with our recommendation.
    Senator Akaka. My final question related to National 
Heritage Areas concerns the Muscle Shoals National Heritage 
Area. I understand that the University of Northern Alabama has 
been working on a feasibility study with the National Park 
Service. You mentioned that you expect the study to be 
completed later this year. Has the Park Service reviewed the 
draft study? If so, do you believe there will be significant 
new information in the final version?
    Mr. Wenk. Mr. Chairman, we have reviewed the draft study. 
Yes, we believe there will be information as it relates to the 
environmental assessment and other work that must be done on 
this provision.
    Senator Akaka. My next question concerns H.R. 53, the 
proposed long-term lease of land at Virgin Islands National 
Park. I'm curious about the condition of the property that the 
bill proposes to lease. Does the site have facilities that are 
suitable for a school or would new buildings need to be 
constructed?
    Mr. Wenk. It's my understanding, Mr. Chairman, that there 
are some structures on the land, but for the basic school 
facilities, new facilities would have to be constructed on the 
land.
    Senator Akaka. Are there any other National Parks where the 
Park Service leases park land to a local government for use of 
school or other similar purpose?
    Mr. Wenk. Not that I am aware of. We do have schools that 
are located, I know in three of our National Park areas that I 
can think of off the top of my head, those being Yellowstone, 
Yosemite and Grand Canyon. But those are not under a lease 
arrangement. Those are schools that are operated by the 
National Park Service.
    Senator Akaka. Mr. Wenk, my final question concerns S. 
2073, which addresses property claims related to certain 
trails. I understand that this issue involves Department of 
Justice as well as the Department of the Interior. So I wanted 
to let you know that I will be submitting questions on this 
bill in writing to both agencies.
    At this time let me ask our ranking member for any 
questions he may have for you.
    Senator Burr. Thank you, Mr. Chairman. Mr. Wenk, happy 
birthday.
    Mr. Wenk. Thank you, sir.
    Senator Burr. As it relates to S. 2804 the legislation made 
a reference to the hurricane hole. Specifically who will be 
allowed to use it and how long would they be allowed to use it? 
Are you familiar with this?
    Mr. Wenk. Those are some of the details that we would 
absolutely like to work on with the Committee on in terms of 
clarifying or defining that. But I know in discussions that 
have been held with the Park staff it's been looked at as only 
those individuals who have a demonstrated previous use of the 
area during a hurricane event.
    Senator Burr. So the Park Service's intent would be to 
tighten the legislation so that there's no misunderstanding as 
to who that applies to.
    Mr. Wenk. That is correct, sir.
    Senator Burr. I thank you. Let me move to H.R. 53, if I 
can. I might say to my colleague on the other side, I hope that 
land swap is still a consideration. I think that if we're to 
look for something that works. I'm almost certain that it would 
require something. But it was mentioned that there are several 
pieces of land that may be in the queue to revert over to the 
National Park Service. Do we have the ability or have we talked 
to those landholders to see if in fact this can be done in a 
way that would be as a land swap for some portion of that 
gifted property?
    Mr. Wenk. Sir, I believe that we are always actively 
interested in working with the government of the Virgin Islands 
to try to resolve this issue. I think that, you know, we will 
do our best to try to do that. I can't speak specifically to 
active conversations about individual pieces of land right now. 
I know it's a high priority for us to help if we can, sir.
    Senator Burr. Let me suggest to the Park Service and to the 
representatives that are here for the school, I think it's 
important that we reach out to these people who are attempting 
to give property to the Park Service to see if part of that 
process might be a portion of it to work as a swap. I think we 
certainly, probably have property owners that are conscious of 
the preservation of the Island. Part of preservation is the 
preservation of the community that's there.
    So my hope is that they might see the benefits of some type 
of condition in that gifting that would serve the purposes of a 
swap so that you and I can look at each other and say, you 
know, once again we held to what is an important Park Service 
standard. Because I believe that, quite honestly, if the 
Chairman and I, and we may be in different places, but if we 
agreed to something that set a precedent, I've been here long 
enough to know the trucks people will wait outside to drive 
through that opening when we do it. We will find that we will 
be inundated with the requests here for communities to have 
important community pieces located on a National Park because 
the property just happens to be there. So to eliminate any 
unintended consequences I would aggressively ask both sides to 
look at these individuals who are gifting property to see if 
you can construct something that accommodates both the Park's 
security of their boundary and the community's need for land 
that is suitable for the expansion of a school.
    Let me ask one additional question on H.R. 53, if I can. A 
large portion of the Virgin Islands National Park, as I 
understand, was originally acquired from the Rockefeller 
family. There were certain restrictions regarding the future 
use of that property. Is the property that the Virgin Islands 
is attempting to access for the school part of their original 
Rockefeller parcel? If so, are there any restrictions?
    Mr. Wenk. Actually it is not part of that original 
Rockefeller lands. It was purchased in 1968 as part of the 
Estate Catherineburg and it's not subjected to the reversionary 
clause that governs the Rockefeller land.
    Senator Burr. Ok. Mr. Chairman, my last statement is not a 
question, but it is a statement. I understand it's appropriate 
for the Park Service to come here and say that the issue of 
rails to trails and the clarification that's needed is not a 
National Park Service issue. I can appreciate that.
    I hope you would take back to the individuals at the 
Justice Department that made this determination, that I take 
very seriously of takings. I think that when somebody's land is 
taken there has to be compensation for that. I'm not an expert 
on what statute of limitations we've got currently or what 
triggers the clock starting.
    I have always found regardless of what I look at that the 
Federal Government's clock usually starts well before people on 
the other side. It's only because we get to interpret. They 
have to guess.
    I truly believe that we have people that were engaged in 
what they thought was an honest negotiation. If for some reason 
we found a technical reason to run the clock out, and now the 
position of the Justice is, oops, so sorry. You missed out on 
compensation. That's not the American way.
    So, you might send a message to the Justice Department. I 
would advise finding a way to settle this. If not 
legislatively, we will accommodate the needs of those property 
owners that have not been compensated. I'm sorry to use you on 
your birthday as a telegraph to the Justice Department, but I 
think you can go back and tell the spirit that I gave this to 
you in much more so than I can.
    Mr. Wenk. We'll be happy to convey the message, sir.
    Senator Burr. Thank you. Thank you, Mr. Chairman.
    Senator Akaka. I want to thank you so much for your 
testimony and your responses and wish you well on your 
birthday.
    Mr. Wenk. Thank you, Mr. Chairman.
    Senator Akaka. Yes, thank you. Let me ask our next panel of 
witnesses to come forward at this time. Welcome Bill Pencek, 
the Director of Heritage and Cultural Tourism with the Office 
of Tourism Development from Baltimore, Maryland. Gale Illig, 
from Grantwood Village, Missouri and Lorelei Monsanto, the 
spokesperson for One Campus Group on the Island of St. John in 
the Virgin Islands.
    I'd like to welcome each of you to the subcommittee. We'll 
include your complete written statement in the hearing record. 
So please summarize your testimony. After we have heard all 
your statements we will see if there are any questions for you.
    Will Mr. Pencek, will you please proceed with your 
statement?

 STATEMENT OF WILLIAM J. PENCEK JR., DIRECTOR OF HERITAGE AND 
 CULTURAL TOURISM, OFFICE OF TOURISM DEVELOPMENT, BALTIMORE, MD

    Mr. Pencek. Thank you, Mr. Chairman. Again, I am Bill 
Pencek, Director of Cultural and Heritage Tourism for the State 
of Maryland. I'm here today representing the State and the city 
of Baltimore to urge your favorable consideration of S. 2604.
    I want to thank our colleagues at the Park Service for 
their assistance and favorable consideration of the NHA's 
feasibility study for the Baltimore National Heritage Area. 
Thank you, but wanted to take strong exception to the 
recommendation that designation of Baltimore National Heritage 
Area wait until a National Heritage Area Program is created. 
There are a number of reasons of why we should not wait.
    First, as outlined in our written testimony, the Baltimore 
Heritage Area is a strong, experienced, robust partner for the 
National Park Service, not among proven experiments. Maryland 
is one of the handful of states with a statewide Heritage Area 
Program and the Baltimore Heritage Area was certified by the 
state back in 2001. Tens of millions of dollars have already 
been spent and leveraged by the Baltimore Heritage Area for 
resource identification, conservation development and 
interpretation.
    The second reason why we need to act now, Baltimore's 
National Heritage story framed under the overarching theme of 
portal to American identity. That is the overarching theme 
identified in our feasibility study fill big gaps in the 
American story like the period between the Revolution and the 
Civil War. The significance of Baltimore in the War of 1812 in 
defining our national identity, character and position on the 
world stage.
    How African Americans like Baltimore's Frederick Douglass 
and Thurgood Marshall forged their own freedom, actively 
defended it and served as national leaders in the struggle for 
opportunity for all Americans. Highlighting the forces shaping 
the great wave of immigration of the 19th century and how 
Baltimore created an industry out of greeting immigrants and 
sending them along to destinations across the American 
continent, second only to New York as a port of entry for many 
years.
    Last, celebrating the revitalized urban Chesapeake, the 
continents largest estuary, a magnificent, fertile, natural 
resource which provides Baltimore's natural harbor and the 
setting for the centuries of human activity outlined above. 
Baltimore is the farthest inland, east coast port closest to 
the nation's interior. That explains why the significant 
national events occurred in Baltimore on the shores of the 
Chesapeake creating a unique world port city, the largest in 
the six state Chesapeake region.
    The third and final reason why we need the partnership now 
is because of a number of significant national anniversaries 
staring us in the face coming down on us very quickly. This 
year is the 100th anniversary of the birth of Thurgood 
Marshall, architect of the deconstruction of legalized 
segregation in the United States. Marshall spent his first 26 
years in Baltimore. It's where he went to Baltimore City Public 
Schools and by his own telling learned of the concept of equal 
protection under the law. It is the rehab of his elementary 
school where his first experience in a segregated public school 
system is now underway by the city and state.
    2011, just three short years from now, is the 150th 
anniversary of the first bloodshed of the Civil War on the 
streets of Baltimore, just 1 week after Fort Sumter, a seminal 
event in the city which tells the story of a conflicted nation 
better than any other.
    2012, is the 200th anniversary of Congress and President 
Madison declaring war on England, just 30 years after the close 
of the Revolution. In an extraordinarily high stakes gamble, 
Baltimore gave the Nation an incredible reversal of fortune 
when, against the greatest military power in the world, just 
after the darkest moment in our national history, when 
Washington was laid waste. In the process gave us perhaps our 
most potent national symbol, the flag and an anthem.
    Baltimore has a proud tradition of taking care of itself 
and our nation and of being an attentive steward of our 
national heritage stories and resources. We have more than 
53,000 buildings listed in the National Register of Historic 
Places. That's vastly more, that's at least twice as much more 
than any other city in the country.
    We are blessed with leaders like Fells Point's Barbara 
Mikulski, who hails from the same neighborhood that gave us 
Frederick Douglass and Billy Holiday. The Senator fought in the 
trenches to protect our national and cultural resources from 
destructive interstate highway construction back in the 1960 
and 1970. To quote from the Senator in a standard stump speech 
from that time, ``the British couldn't take Fells Point, the 
termites couldn't take Fells Point and the State Roads 
Commission can't take Fells Point.''
    But we have finally found our voice to ask you for a 
Federal partnership through the National Park Service to help 
us be better stewards of these national resources. We 
respectfully request you to act favorably, now, because we need 
not only the financial partnership that NHA designation 
provides, but the recognition, validation and technical 
assistance from the Park Service that will come. Baltimore's 
extraordinary successes in historic preservation, environmental 
restoration and waterfront and neighborhood revitalization have 
made tourism our third most important industry after health 
care and education.
    It is a competitive tourism world out there as you know, 
Senator. The cities of our leisure travel competitive set, 
Washington, Philadelphia, New York and Boston, have long 
enjoyed deep partnerships and hundreds of millions of dollars 
of Federal financial investment through the Park Service. 
Baltimore has not and the pie chart which is included in our 
written testimony shows that the dramatic disparity. Those 
cities do tell important national heritage stories, but so does 
Baltimore.
    In closing, I'd like to quote Frederick Douglass, the most 
important African American of the 19th century. Douglass was 
born a slave, owned on Maryland's eastern shore. But brought to 
Baltimore to work in a Fells Point household and purchased a 
copy of the Columbian Orator at a Fells Point book store.
    He read and imitated the rhetorical strategies of speeches 
of such figures as Plato and Socrates, Napoleon and George 
Washington. Literacy was for Douglass a new and special 
revelation. From the moment he learned to read, he understood 
the pathway from slavery to freedom.
    In his 1845 narrative of the life of Frederick Douglass, an 
American Slave, he wrote, ``I look upon my departure from 
Colonel Lloyd's plantation as one of the most interesting 
events of my life. It is possible and even quite probable that 
but for the mere circumstance of being removed from that 
plantation to Baltimore, I should have today, instead of being 
here seated by my own table in the enjoyment of freedom and 
happiness of home, writing this narrative than confined in the 
galling chains of slavery. Going to live in Baltimore laid the 
foundation and opened a gateway to all my subsequent 
prosperity.''
    Thank you for the opportunity to present our testimony on 
why the Baltimore merits NHA designation as soon as possible. I 
just want to acknowledge the Director of the Baltimore Heritage 
Area, Jeff Buchheit and one of his workers, Katie Callahan 
Durkin who are here today. I'd be happy to answer any 
questions. Thank you.
    [The prepared statement of Mr. Pencek follows:]

Prepared Statement of William J. Pencek, Jr., Director of Heritage and 
     Cultural Tourism, Office of Tourism Development, Baltimore, MD

    Mr. Chairman and members of the committee, I am Bill Pencek, 
Director of Cultural and Heritage Tourism for the State of Maryland. 
Prior to joining the State in 2007, I was Director of the Baltimore 
Heritage Area, a state-certified heritage area, in the office of Mayor 
Sheila Dixon, and coordinated efforts to secure National Heritage Area 
(NHA) designation. I am here today representing the City of Baltimore, 
the State of Maryland, and the hundreds of partners in Baltimore and 
Maryland working to recognize, protect, develop and interpret 
Baltimore's many significant national heritage stories.
    You have heard from the National Park Service (NPS) about the 
extensive effort that has gone into Baltimore's self-funded NHA 
Feasibility Study, and the August 2007 finding by NPS that the 
Baltimore Heritage Area meets the ten interim criteria outlined in the 
2003 Draft Feasibility Study Guidelines. We are very pleased at the NPS 
finding after the six years of work that has gone in to articulating 
our case. But we hope that you will not agree with the NPS 
recommendation that the designation of a Baltimore NHA wait until NHA 
Program legislation passes. The time to create the Baltimore NHA is 
now, not only because of the demonstrated national significance of the 
resource set, and the strength of the partnerships and investment in 
the Baltimore NHA, but because of a series of very significant American 
anniversaries that are upon us, as outlined below.
    I would like to focus my comments in two areas--1) to summarize the 
national significance of the historical, cultural, natural and 
recreational resources of the proposed Baltimore NHA and the importance 
of these resources to our lives as Americans, and 2) to give a sense of 
depth of the commitment of state and local government, and other 
partners, to the resources of the proposed NHA, and how important this 
designation is to us.

                WHY A BALTIMORE NATIONAL HERITAGE AREA?

    Baltimore evidences exemplary national heritage themes with intact 
historic, cultural and natural resources. With 24 National Historic 
Landmarks, 53,000 buildings listed in the National Register (vastly 
more than any other American city), and 12 Chesapeake Bay Gateways, 
nestled in an unparalleled system of parks and waterways, and connected 
by five Maryland Scenic Byways, and an All-American Road, the aggregate 
resource set is an NHA.
    The cityscape of Baltimore was the stage for pivotal conflicts that 
forged our national identity. Foremost were the actions of a brave 
citizenry, comprised largely of first-generation immigrants and free 
and enslaved African Americans, who defeated the British in 1814 in 
America's ``second war for independence.'' The defense of the nation by 
the diverse people of Baltimore, against the greatest military power in 
the world, gave the nation our iconic flag, the Star-Spangled Banner, 
our national anthem, and a new sense of identity and destiny. The 
National Historic Landmark Star-Spangled Banner Flag House, where widow 
Mary Pickersgill and her household of free and enslaved women sewed the 
flag in August 1813, is a tangible reminder of that story. Francis 
Scott Key jubilantly celebrated the sighting of that flag, flying over 
Fort McHenry National Monument and Historic Shrine, foremost of the 
many sites in the proposed NHA that bring the story to life. The 
nation's divided loyalties during the Civil War were evidenced no more 
intensely than in Baltimore, which witnessed the horrific first 
bloodshed of the War in the Pratt Street Riots, outside President 
Street Station. The oldest surviving big city train station in the 
country, the Station has housed the Baltimore Civil War Museum to tell 
this national story.
    Antebellum Baltimore was a notorious center of the domestic slave 
trade. Yet the city also produced the earliest organized abolition 
movement in the South. Although a conflicted city, Baltimore offered 
greater opportunities to African Americans, enslaved, like Frederick 
Douglass, or free, than any other in America before the Civil War. 
After Emancipation, Baltimore nurtured giants of the civil rights 
movement, like Thurgood Marshall. The life of Douglass in Baltimore, 
and how he came to declare ``Going to live at Baltimore laid the 
foundation, and opened the gateway, to all my subsequent prosperity,'' 
is told at the Frederick Douglass-Isaac Myers Maritime Park, and on the 
Frederick Douglass Freedom and Heritage Trail, designated National 
Underground Railroad: Network to Freedom sites. The segregated 
elementary school attended by Marshall, a landmark in the Old West 
Baltimore National Register Historic District, is being rehabilitated 
to tell the story of the architect of the desegregation of America's 
public schools, and of the nation itself. Baltimore's African Americans 
forged their own freedom and actively defended it, and served as 
national leaders in the struggle for opportunity for all Americans.
    As a major port of entry, Baltimore developed an industry out of 
greeting immigrants and sending them on to destinations across America. 
The National Road, the nation's first federally-funded interstate 
transportation route begun in 1811, now a designated All-American Road, 
began its way west in Baltimore. Between 1830 and 1917 roughly two 
million immigrants landed in Baltimore, second only to New York as a 
port of entry for many years. The Baltimore Immigration Heritage Park 
is being constructed to tell those stories. Many chose to settle in 
Baltimore. They built the world's first long distance railroad into the 
American frontier, and a massive industrial and manufacturing base that 
propelled the settlement of the continent. World-class institutions, 
like the Smithsonian-affiliate B&O Railroad Museum, and the Baltimore 
Museum of Industry, tell the story of the birthplace of American 
railroading, industry, and the settlement of the continent.
    The waves of explorers, entrepreneurs, inventors, and artists drawn 
to Baltimore's shores have swelled since John Smith sailed into the 
Inner Harbor in 1608. Baltimore is the farthest inland east coast port, 
closest to the nation's interior. The Chesapeake, the continent's 
largest estuary, is a magnificent, fertile, natural resource. This 
special mix gave rise to the largest city in the six-state Chesapeake 
region, with a cultural landscape unique among world port cities. 
Extraordinary inventions like the National Register-listed Johns 
Hopkins Hospital, the Mount Vernon Place National Historic Landmark 
District, waterfront Fells Point, the nation's second National Register 
Historic District, and a remarkable (largely National Register listed) 
public park system that includes Leakin Park, one of the largest urban 
wilderness parks remaining on the East Coast, represent some of the 
Heritage Area's most distinctive and important creations. From clipper 
ships, to rowhouse ground rents, from cast-iron architecture to urban 
waterfront revitalization, the unique cultural landscape of Baltimore 
and its contributions to the nation and the world rise from the 
Chesapeake.
    This is just a sample of the resources and stories thoroughly 
inventoried in the Baltimore NHA Feasibility Study, which documents a 
distinctive cultural landscape and unique national heritage stories 
which can best be experienced in a Baltimore NHA and nowhere else. A 
Baltimore NHA is compatible with and complements other current and 
pending NPS units, initiatives and designations. These include, but are 
not limited to, the Captain John Smith Chesapeake National Historic 
Trail, the Chesapeake Bay Gateways Network, the proposed Star-Spangled 
Banner National Historic Trail, and the National Underground Railroad: 
Network to Freedom. Portions of many large American cities are included 
in NHA's (e.g. Chicago, Cleveland, Detroit, Philadelphia, Pittsburgh, 
etc.). A number of urbanized NHA's are of limited geographic size (e.g. 
Augusta Canal NHA, Wheeling NHA, Essex NHA). Some urbanized areas 
within the Chesapeake Bay Gateways Network region are also within NHA's 
(e.g. Scranton-Wilkes Barre, Lackawanna Heritage Valley NHA). Several 
NHA's are crossed by National Trails (e.g. Appalachian National Scenic 
Trail crosses Delaware and Lehigh Canal and Shenandoah Valley NHA's; 
Natchez Trace Parkway and National Scenic Trail cross the Tennessee 
Civil War NHA).
    Designation of a Baltimore NHA would celebrate the unique role of 
the Chesapeake and Baltimore as natural and historic gateways to the 
North American continent, and as the unique intersection point of at 
least four major national heritage stories in the Chesapeake landscape. 
Two of these significant national themes already intersect in Baltimore 
through NPS programs and activities--the Star-Spangled Banner National 
Historic Trail and the Chesapeake Bay Gateways Network. Baltimore has a 
denser geographic (and thus more readily accessible) concentration of 
sites on the proposed Star-Spangled Banner Trail and in the Chesapeake 
Bay Gateway Network than any other jurisdiction. With the presence of 
such significant anchor attractions as the Reginald F. Lewis Museum 
(the largest museum of African American cultural heritage on the East 
Coast and a National Underground Railroad: Network to Freedom site) and 
the Baltimore and Ohio Railroad Museum (a Smithsonian Affiliate), a 
Baltimore NHA would also tell national stories of the African American 
experience and immigration, industrialization, and westward expansion 
better than anywhere. Set in the context of the Chesapeake's largest 
city, where more than 53,000 buildings are listed in the National 
Register of Historic Places, the proposed Baltimore NHA is a remarkable 
national treasure.

         LOCAL COMMITMENT AND THE IMPORTANCE OF NHA DESIGNATION

    Tourism is the third largest employer in Baltimore, and growing. 
Among the key sectors for significant growth potential is cultural 
heritage leisure travel, which generates markedly greater economic and 
community revitalization benefits in the historic neighborhoods beyond 
the Inner Harbor, the locus of Baltimore's tourism industry.
    Baltimore will continue to suffer an extreme competitive 
disadvantage in the cultural heritage tourism marketplace, especially 
when measured against its leisure travel competitive set--Washington, 
Philadelphia, New York and Boston--unless deeper partnerships with the 
NPS are established. Chief among the reasons why those cities are 
perceived by residents and leisure travelers as offering more 
opportunities than Baltimore to experience authentic cultural 
landscapes and heritage of national significance is the decades of 
investment made within them by the NPS. The pie chart* below provides a 
window to the disproportionate under-investment in our national 
cultural and natural heritage assets in Baltimore. Baltimore does 
possess a distinctively unique cultural landscape and national heritage 
stories, but until now has neither asked nor sought to make its case 
for broader partnership with and matching investment by NPS.
---------------------------------------------------------------------------
    * Graph has been retained in subcommittee files.
---------------------------------------------------------------------------
    NHA designation provides Baltimore's best current opportunity for 
deeper partnership with NPS. The creation of new or expanded units of 
the National Park System in Baltimore is not currently feasible. NHA 
designation could provide up to $1 million per year to support 
activities Baltimore needs to protect, develop and interpret natural 
and cultural heritage resources which tell important national stories. 
It could assist Baltimore prepare for the national observance of the 
bicentennial of the War of 1812, the Battle of Baltimore, and the 
writing of the Star-Spangled Banner--just a few years away. The actions 
of a brave citizenry, comprised largely of first-generation immigrants 
and free and enslaved African Americans, defeated the greatest military 
power in the world. In the process, they gave the nation our iconic 
flag, the Star-Spangled Banner--the most revered object in the 
collection of the Smithsonian National Museum of American History--our 
national anthem, and a new sense of identity and destiny. In addition 
to this anniversary, there is a confluence of anniversaries of 
significant national heritage stories told best in the proposed NHA, 
beginning in 2008, some of which are outlined below:

2008
    <bullet> Thurgood Marshall, architect of the deconstruction of 
        legalized segregation in America, was born (1908, 100th)
    <bullet> Captain John Smith explores the Middle Branch of the 
        Patapsco and the Inner Harbor (1608, 400th)
2011
    <bullet> The first bloodshed of the Civil War occurs during the 
        Pratt Street Riots one week after the firing on Fort Sumter 
        (1861, 150th)
    <bullet> Construction begun on the Congressionally authorized 
        National Road (1811, 200th).
2012
    <bullet> The U.S. declares war against Great Britain (2012, 200th).
2013
    <bullet> The enslaved Frederick Douglass escapes to freedom (1838, 
        175th).
2014
    <bullet> Victory against the British at the Battle of Baltimore 
        inspires the writing of the Star-Spangled Banner (1814, 200th).

    Perhaps most important, designation of a Baltimore NHA will provide 
the seal of approval that partnership with NPS and the use of its logo 
(one of the most recognized brands in the U.S.) will convey in the 
cultural heritage tourism marketplace, communicating that Baltimore is 
a destination of national significance and substance.
    Now I would like to focus a bit on the enthusiasm and commitment of 
the some of the non-federal partners that are dedicated to the 
stewardship, development and investment in the cultural and natural 
resources of the proposed Baltimore NHA. Foremost among these is the 
state-certified Baltimore Heritage Area (BHA), and its management 
entity the BHA Association, a unit of Baltimore city government. Since 
certified by the state of Maryland in 2001, the BHA Association has 
invested more than $10 million in Baltimore's national heritage 
stories. Of this amount, more than $2 million has come from the State 
of Maryland's Maryland Heritage Area Authority (MHAA) Financing Fund, 
to support operations and projects. More than 30 organizations are 
represented on the BHA Association, the management entity proposed for 
the Baltimore NHA, which with the City of Baltimore has a remarkable 
record of investment in Baltimore NHA resources as follows:

  <bullet> Secured more than $2 million in grants from the MHAA for 
        projects throughout the BCHA. Each $1 of MHAA funds invested in 
        the BCHA leverages $27.35 in annual, ongoing state and local 
        tax revenues\1\.
---------------------------------------------------------------------------
    \1\ Investing in Our Communities: Maryland's Heritage Areas 
Program, Maryland Department of Housing and Community Development, 
November 2003.
---------------------------------------------------------------------------
  <bullet> Awarded $550,000 in grants from the BCHA Small Cap Grant 
        Fund to 43 projects throughout the BCHA, leveraging more than 
        $7 million in non-city investments.
  <bullet> Completed design and secured over $1,000,000 in Federal, 
        State, City and private funds for construction and operation of 
        the Star-Spangled Trails, and the Inner Harbor Trailhead, to 
        encourage exploration of Baltimore in the Inner Harbor and 
        beyond. Recruited and trained Urban Park Rangers to lead guided 
        tours on Heritage Walk (www.heritagewalk.org), Mount Vernon 
        Cultural Walk, and the Pennsylvania Avenue Heritage Trail.
  <bullet> Secured more than $120,000 in foundation and other grants to 
        complete the feasibility study for the creation of a Baltimore 
        National Heritage Area, to access Federal financial and 
        technical assistance for cultural heritage resource research, 
        protection, development, and interpretation.
  <bullet> Created a mini-grant program to assist less well-resourced 
        organizations develop cultural heritage projects.
  <bullet> Launched Authentic Baltimore, www.authenticbaltimore.org, a 
        program to certify the sites, services and events that 
        authentically convey the heritage of Baltimore to residents and 
        visitors.
  <bullet> Conducted numerous workshops, the most recent of which was 
        co-sponsored with the Alliance of National Heritage Areas, 
        which attracted more than 75 NHA representatives from around 
        the nation.
  <bullet> Supported a full-time Heritage Education and Outreach 
        Administrator who coordinated and expanded the activities of 
        the Greater Baltimore History Alliance, a consortium of 50 
        Baltimore-area history museums, and doubled their membership.
  <bullet> Completed the successful K-12 pilot initiative, ``Defense of 
        a Nation: Baltimoreans and Their Role in the War of 1812,'' 
        involving 50 teachers and 1,400 public school students, and 
        sustained its subsequent annual operation.
  <bullet> Partnered with the Baltimore City Public School System to 
        design and implement activities funded by Teaching American 
        History, a program of the U.S. Department of Education, to 
        teach American history at Baltimore's history museums, and 
        secured more than $1 million in grant funds to implement the 
        program.
  <bullet> Secured $130,000 in Federal Highway funding to complete a 
        BHA/Charles Street Scenic Byway interpretive plan.
  <bullet> Lead efforts to assist development of the Arabber Center 
        (Upton Cultural Visitor Center) using $400,000 in funds in the 
        City's FY '09 capital budget.
  <bullet> Lead efforts to rehabilitate PS 103 and create a Thurgood 
        Marshall/Baltimore civil rights interpretive center, using 
        $250,000 in Baltimore's FY 2008 capital budget and a $100,000 
        Preserve America grant.
  <bullet> Coordinated securing a $2 million bequest for the city-owned 
        H. L. Mencken House and completion of lease agreement for the 
        house with the Society for the Preservation of H.L. Mencken's 
        Legacy.
  <bullet> Secured funds to hire staff/consultant to coordinate 
        planning for the national observance of the War of 1812 
        Bicentennial in Baltimore.
  <bullet> Coordinated the City of Baltimore's $1.4 million 
        contribution to the planning and construction of the new Fort 
        McHenry Visitor Center, an amount matched by the State.

    This brief recounting of the contributions and commitment of the 
City of Baltimore and the State of Maryland to stewardship, development 
and interpretation of course leaves out the even larger contributions 
made by the many non-governmental organizations involved with the 
resources of the proposed NHA--which collectively exceed those of the 
City of Baltimore and the State of Maryland.
    In closing, the merits of a Baltimore NHA are clear. NHA 
designation would bring significant added value to our collective 
efforts. Recognition and validation of the significance of Baltimore's 
national heritage stories by the NHA program would be of great benefit. 
Designation will bring focus and leadership to new partnerships and 
collaborations that would otherwise not take place. New and exciting 
investments and techniques in stewardship, development, and 
interpretation will result. At the same time, NPS will receive 
extraordinary leverage for its investment in a Baltimore NHA, that it 
does not currently enjoy, by partnering with a high-performing state-
certified heritage area--whose history and resource set deeply enrich 
and complement the offerings of our National Heritage Areas. The 
approaching anniversary period 2008-2014 brings with it the momentum of 
opportunity for maximum benefit to residents and visitors, and the 
likelihood of the greatest impact from our investments.

    Senator Akaka. Thank you very much, Mr. Pencek.
    Gale Illig, we'll hear from you now.

         STATEMENT OF GALE ILLIG, GRANTWOOD VILLAGE, MO

    Mr. Illig. Mr. Chairman, thank you for inviting me to 
testify before you this afternoon. I speak for myself and more 
than 100 of my neighbors. My name is Gale Illig. I live with my 
wife, Sarah in Grantwood Village, Missouri, which is a small 
suburb of St. Louis County.
    Sarah and I have a small commercial holiday decorating 
business that we operate out of our home. After a number of 
years of saving in 1984, we bought our home in Grantwood 
Village. It is a modest three bedroom home, but one that we 
love and have worked hard to care for and improve over the 
years. This home is where we raised our family and now spend 
our retirement years.
    We are not a family of great wealth and the equity in our 
home represents our most significant asset. When we bought our 
home we especially liked the quiet and secluded community. A 
screened-in sun porch in the south side of our home is one of 
our favorite rooms. Outside the sun porch and further to the 
south is a now abandoned Missouri Pacific Railroad right of 
way.
    We own the land over which the abandoned rail line once 
ran. The tracks themselves were just a single line and they 
were infrequently used. Between the tracks and our home was a 
large attractive hedge which gave us privacy.
    In 1992, MoPac abandoned the railroad right of way. Because 
of the Trails Act, the Federal Government gave a trail group 
this land. This was now--there are now hundreds of people 
biking and walking through our land where we previously enjoyed 
a quiet and secluded home.
    Now I want to be very clear that we do not oppose trails, 
paths or recreation trails. To the contrary, we think parks and 
trails are an important part of our community. It's just that 
when the Federal Government runs a trail through our private 
property throughout our--without our consent and we believe 
that we should be fairly compensated for this taking of our 
property.
    This public trail now runs just several feet from our sun 
room. We have always understood that the fifth amendment 
provides a guarantee that if our property were to be taken by 
the government we would be compensated. The government took our 
land more than 15 years ago. We spent more than 6 years in a 
lawsuit with the government seeking to be compensated for the 
government's taking of our land.
    In that lawsuit the Justice Department agreed that the 
Federal Government had taken 72,000 in value from our home from 
us. This is a significant portion of the equity in our home 
which was appraised at having a value of less than 300,000. The 
Justice Department agreed that they should pay us money and 
that they were responsible to make this payment a just 
compensation under the fifth amendment. The Justice Department 
also agreed to pay us interest because it was now 15 years 
since our land was taken.
    As we get older we face the realistic understanding that we 
will not be able to live in our home forever. The value that 
Sarah and I have built up in our home is an asset that we look 
to provide for our needs when we reach a point where we no 
longer can care for this home and need to move into other 
living arrangements. For this reason the 72,000, which may not 
be much money to the Federal Government is quite literally huge 
to us.
    This is why we are so pleased the case was settled in 
December 2004. Two days before the hearing to approve this 
settlement authorizing payment for compensation to us the Court 
of Appeals decided a Georgia Trails Act case, Caldwell vs. the 
United States. The government claimed the Caldwell case 
retroactively changed the law and meant that now the Federal 
Government no longer had to pay us what they had agreed to pay 
us for the taking of our land.
    Understand that this is not because the government did not 
take our land. Everyone agrees that the government took our 
land. Now the Justice Department, because of the Caldwell 
decision claims they took our land 9 months earlier and 
therefore should not have to pay us. We received no 
compensation. The government, of course, gets to keep our land.
    A very simple principle is involved. The government has 
taken our land. The government agreed that they had taken our 
land. The government agrees how much they owe us for the taking 
of our land. Including interest and the government is required 
by the United States Constitution to pay us this just 
compensation for taking our land.
    Then, at literally the last minute, they claimed the law 
has changed retroactively because the Caldwell case. So they no 
longer have to pay us. This is just flat wrong. Our neighbors 
that own land on the same trail run and two miles to the north 
were paid when the trail was extended over their land, but we 
have not been paid.
    We understand from the dissenting judge in the Caldwell 
case that the court issued a decision that is contrary to 
Congress' intentions of how the Federal Trails Act was intended 
to work. The Caldwell decision means that the government must 
give property owners when it merely authorizes negotiations 
that made possibly lead to a trail and not when property is 
actually taken for a trail. This makes no sense.
    Sarah and I have always worked hard, saved our money and 
paid our taxes. We expected the Federal Government should treat 
us in the same fair and just manner. We must tell you that we 
see this effort by the Justice Department to now escape the 
Federal Government's clear Constitutional obligation to pay us 
the very fundamental and very substantial injustice. For that 
reason I am and the other property owners in St. Louis County 
are extremely grateful toward Senators McCaskill and Bond and 
Congressman Carnahan, Akin, Clay, Emerson and Graves' efforts 
to correct this injustice. We are very grateful for this 
Committee providing this opportunity to hear this important 
legislation.
    S. 2073, the Trails Act Technical Correction Act is 
narrowly drafted to strengthen the Trails Act, save taxpayers 
money and make sure that those landowners, such as myself are 
fairly treated. Mr. Chairman, Sarah and I thank you. We thank 
Senators McCaskill and Bond, the members of this committee and 
their staff for your work on this important piece of 
legislation.
    Thank you again for the great honor and privilege of 
appearing before you today. Thank you.
    [The prepared statement of Mr. Illig follows:]

        Prepared Statement of Gale Illig, Grantwood Village, MO

                                S. 2073

    My name is Gale Illig. I live with my wife Sarah in Grantwood 
Village, Missouri which is a small suburb in St. Louis County. Sarah 
and I have a small commercial holiday decorating business that we 
operate out of our home.
    After a number of years of saving, in 1984 we bought our home in 
Grantwood Village. It is a modest three bedroom, two bathroom, slightly 
more than 2,000 square foot home but one that we love and have worked 
hard to care for and improve over the years. This home is where we have 
raised our family and now spend our retirement years. We are not a 
family of great wealth and the equity in our home represents our most 
significant asset.
    When we bought our home in 1984, one of the features that appealed 
to us was the quiet and secluded community and location. A screened-in 
sun porch on the south side of our home is one of our favorite rooms. 
Outside the sun porch and further to the south is the now abandoned 
Missouri Pacific Railroad right-of-way. We own the property over which 
the MoPac held an easement for this now abandoned rail line. The tracks 
themselves were just a single line and they were infrequently used. 
Between the tracks and our home was a large, attractive hedge which 
gave us privacy.
    In 1992 a not-for-profit organization negotiated with MoPac to 
acquire this abandoned railroad right-of-way. The federal government 
gave the trail group the authority to acquire this abandoned railroad 
right-of-way property and to prevent us from using our property. We 
understand that the federal Trails Act gave them this ability to take 
our property even though under Missouri law we owned this land and had 
the right to use and occupy our land once it was abandoned by MoPac. 
While the railroad had a full 100 foot wide easement, they only used a 
very narrow 12 feet that was occupied by the train tracks and, as I 
mentioned, it was used infrequently before it was abandoned.
    The private trail group transferred this trail easement to the St. 
Louis County Parks Department. The County now claims the legal right to 
use the full 100 foot width of the original railroad easement, 
including the right to cut and remove all of the trees and other 
landscaping on this part of our land. There are now hundreds of people 
biking and walking through our property where we previously enjoyed a 
quiet and secluded home. The Trails Act did not just create a trail 
across our land but also created a new easement across our yard for a 
railroad or light rail to possibly be built over our property in the 
future. Under Missouri law we owned this land free of any easement for 
either a public access trail or a railroad
    Now, I want to be very clear that we do not oppose the Trails Act 
or recreational hiking and biking trails. To the contrary, we think 
parks and recreational trails are an important part of our community. 
We support public recreational trails in our community. It is just that 
when, as in our situation, the federal government runs the trail 
through our private property without our consent we believe that we 
should be fairly compensated for this taking of our property. This 
public access trail now runs just several feet from our sunroom which 
was our favorite place to relax in our home.
    We have always understood that the Fifth Amendment to the U.S. 
Constitution provided us the guarantee that if our property were to be 
taken by the government we would be compensated. I mentioned that we 
are a family of modest means and this is true. This causes us to feel 
even more painfully the effect that this taking of our property has had 
upon our own home value.
    The government took our property more than 15 years ago. We (and 
our neighbors) spent more than 6 years in a lawsuit with the government 
seeking to be compensated for the government's taking of our land. In 
that lawsuit, the Justice Department agreed that the federal government 
had taken $72,065 in the value or our home from us. This is a 
significant portion of the equity in our home which was appraised as 
having a value of less than $300,000. This amount was determined by not 
one but two separate appraisers, one of which was hired by the Justice 
Department. The Justice Department also agreed that they would pay us 
this money and that they were responsible to make this payment of 
``just compensation'' under the Fifth Amendment of the U.S. 
Constitution. The Justice Department also agreed to pay us interest on 
this because it has now been 15 years since our land was taken. The 
Justice Department's agreement that they would pay us was long overdue 
but was very welcome.
    As we get older we face the realistic understanding that we will 
not be able to live in our home forever. During the fifteen years since 
the trail was created, I have suffered both cancer and a multiple heart 
valve replacement. The value that Sarah and I have built up in our home 
is an asset that we look to provide for our needs when we reach a point 
where we can no longer care for this home and need to move into other 
living arrangements. For this reason the $72,065 plus interest since 
1992, while maybe not much money to the federal government, is quite 
literally huge to us. This is why we were so pleased when the case was 
settled in December, 2004.
    Sarah and I are not alone. There are almost 100 other land owners 
that the Justice Department agreed to pay for the taking of their 
property before the Caldwell decision was issued. (I have included 
copies of a few of my neighbor's letters with this testimony.)* The 
total amount due all these property owners for the value of their land 
was agreed by the Justice Department to be $2.3 Million. Again, I 
understand that this is not a lot of money to the federal government 
and--if the Caldwell decision is not corrected by this legislation--the 
federal government will be required to unnecessarily pay many times 
more money for claims where no property is ever converted to a trail 
and for interest before the property is ever taken.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Two point three million dollars is, however, a lot of money to the 
almost 100 homeowners whose home equity was taken. Some of these 
homeowners have homes less than 1,000 square feet on lots less than one 
fifth acre worth $70,000. Yet all of these property owners are families 
that have worked hard to pay for their home and care about their 
property and community. All of these families-according to the property 
values agreed to by the Justice Department--had a significant portion 
of their home equity taken. For some the property taken had a value of 
only $1,900 but this is a significant amount of money for these 
families. Other homeowners have since sold their homes and now live in 
assisted care facilities. These homeowners are still looking to this 
(much delayed) compensation for the taking of their home equity that 
they depend on for their living expenses.
    Two days before the hearing with the federal Judge to approve the 
settlement authorizing payment of compensation to us, the Court of 
Appeals for the Federal Circuit decided a Georgia Trails Act case--
Caldwell v. United States. The government claimed this case changed the 
law and meant that now the federal government no longer had to pay us 
what the Justice Department had agreed to pay for the taking of our 
land. Understand that this was not because the government did not take 
our property. Everyone agrees that the government took our property. 
Now the Justice Department--because of the Caldwell decision--claims 
that they took our property nine months earlier and therefore should 
not have to pay us. The government, of course, gets to keep our land.
    I am not a lawyer so maybe that is why I cannot understand the 
nuance of this, but, to us, a very simple principle is involved. The 
government has taken our land, the government agreed that they have 
taken our land, the government agrees how much they owe us for taking 
our land, including interest, and the government is required by the 
U.S. Constitution to pay us this ``just compensation'' for taking our 
land. Then, at literally the last minute, they claim the ``law has 
changed'' retroactively because of the Caldwell case so they no longer 
have to pay us. This is just flat wrong! And, no amount of legal nuance 
can make it right.
    Our neighbors that owned the land on the section of the same trail 
running two miles to the north were paid when the trail was extended 
over their land. But, we have not been paid.
    We understand from the dissenting judge in the Caldwell case and 
from our own attorneys that the two-judge majority in Caldwell issued a 
decision that is also contrary to Congress' intention of how the 
federal Trails Act was intended to work. In addition, the Caldwell 
decision means that--while we do not get paid for the taking of our 
property--the government must pay much more for property in the future 
when negotiations for a possible trail are authorized, even when no 
trail is ever created. The government must also pay interest for time 
during these negotiations for a possible trail, even before any 
property is converted to a trail.
    Since the Caldwell decision means that the government must pay 
property owners when it merely authorizes negotiations that may 
possibly, ultimately lead to a trail and not when property is actually 
taken, the government would end up paying a property owner even if that 
person ultimately does not have a trail and railroad easement imposed 
on their property. Also, because the date of taking is earlier, the 
government, in every case, will be obligated to pay more in interest. 
This makes no sense.
    Sarah and I have always worked hard, saved our money, and paid our 
taxes and we expected that the federal government would treat us in a 
fair and just manner. We must tell you that we see this effort by the 
government to now escape their clear constitutional obligation to pay 
us (and the other one hundred property owners from whom they admit 
taking property) as a very fundamental and very substantial injustice.
    For that reason, I and these other property owners in St. Louis 
County are extremely grateful for Senators McCaskill and Bond and 
Congressmen Canaan, Akin, Clay, Emerson and Graves's effort to correct 
this injustice. We are very grateful for this Committee providing this 
opportunity to hear this important legislation. Senators McCaskill and 
Bond have shown admirable bi-partisan leadership in crafting S. 2073 to 
make sure that Sarah and I and our neighbors will receive compensation 
for the government taking our property while at the same time saving 
the federal government money by making the Trails Act work as 
originally written by Congress at less cost to taxpayers.
    S. 2073--The Trails Act Technical Correction Act--is narrowly 
drafted to strengthen the Trails Act, save taxpayers money and make 
sure that those land owners such as myself are fairly treated. This is 
a good law, and one for which I am proud of both of my Senators for 
sponsoring.
    Mr. Chairman, Sarah and I thank you. We thank Senators McCaskill 
and Bond, the members of this Committee and your staff, for your work 
on this important piece of legislation. Especially in an election year 
we hear a lot about partisan division in Congress. Well, Senators Bond 
and McCaskill's support of this legislation and the similar bi-partisan 
support this bill enjoys in the House of Representatives is a very 
gratifying experience. It is very encouraging to me to see that when 
the United States Senate recognizes that citizens have suffered an 
injustice at the hands of their federal government, this Committee and 
the United States Senate will work to correct that injustice.
    Thank you again for the great honor and privilege of appearing 
before you today.

    Note: See Appendix II for supplemental statement submitted by Gale 
Illig.

    Senator Akaka. Thank you very much, Mr. Illig.
    Mr. Illig. Thank you.
    Senator Akaka. Now we'll hear from Lorelei Monsanto.

STATEMENT OF LORELEI MONSANTO, SPOKESPERSON, ONE CAMPUS GROUP, 
                          ST. JOHN, VI

    Ms. Monsanto. Good afternoon.
    Senator Akaka. Good afternoon.
    Ms. Monsanto. Thank you, Senator Akaka for having this 
meeting today. My name is Lorelei Monsanto. I know in Hawaiian 
you say ``Lee'', but it's Lorelei.
    I represent a group called One Campus. Mr. Chairman, on the 
onset I would like to express my appreciation to this committee 
on two counts. Firstly, for affording me the privilege to 
appear before you today to give testimony on H.R. 53 and second 
for the committee's foresight in going directly to the people 
of St. John to hear what we have to say on matters of vital 
concern to us, thereby giving us a real sense of participating 
in the affairs of the Island.
    One Campus has walked alongside our delegate, Donna 
Christensen, to create a much needed partnership with the local 
government and the National Park System in regards to 
education. Our dream is to create a full body environment for 
the children, residents, visitors and the Virgin Islands 
National Park. One Campus motto is ``educate the whole child 
through math, science, reading and hands-on expression through 
the environment in which they live and die.''
    I am here before you to request your support on bill H.R. 
53. All of you have the children of the Island of St. John on 
your shoulders. The decision made here today will affect us 
with the partnership between the management agency of the 
Virgin Islands, the Department of the Interior and the 
residents of the Virgin Islands.
    The residents on St. John do not support a swap of any 
kind. With the rumor of swapping lands on St. Croix for one in 
St. John is like asking Texas to give land to Vermont. The 
Virgin Islands has limited land mass and no comparison to 
support a land swap is warranted. In fact, we need to develop 
our own land banks to support our needs.
    St. John is only eight miles long and comprised of 12,322 
acres of land mass. Of that 7,400 acres, plus or minus, belongs 
to the National Park. 50, plus or minus acres belongs to the 
local government which is being used. The balance is owned by 
hotels, businesses and residents alike. So you can see from the 
basic map all of these sources are limited.
    Another aspect you need to consider is that the Virgin 
Islands are a territory and you can adjust territories needs 
differently. The National Park of the Virgin Islands is like no 
other park in the United States. Can you please show me any 
island that is owned three-fourths by the Federal Government 
and not by the people it serves?
    The park has always been an aloof neighbor. But now it 
needs to be a viable partner who will support and work together 
to achieve new standards with community and park. The park has 
changed our lives both for the good and the bad from affecting 
our property taxes to promoting tourism, not living up to its 
own mandates to employ from the local base and not even knowing 
its own boundaries. These items and more have brought us here 
today.
    H.R. 53 requests a lease on a parcel of land known as the 
Bishop property consisting of 55 acres. This Bishop left a 
reversionary clause for the land for the purpose we are now 
seeking, an educational complex, grades K-12. She was a 
visionary that wished the land be utilized with a partnership 
of the National Park.
    We would also like a mid-Island visitor center, a science 
center, including marine and botany studies. An expansion of a 
local job corps to educate the local base to work within the 
park as plumbers, electricians, rangers, interpreters and 
managers of the National Park which surrounds them. Imagine a 
National Park that works truly with the community in which it 
surrounds. Guests from all over the world can come to St. John 
and marvel how the National Park Service and the local 
government educated a future generations with a global 
partnership.
    The environmentalists may say this cannot happen and must 
not happen. But the question is not, excuse me, why, but how 
can we make it happen. The friends of the National Park say 
that they will support whatever action the Congress recommends. 
They know there is truly a need for an educational complex.
    Other groups such as the Sierra Club stresses that and I 
quote, ``ecology is not a fad.'' I agree. To let us help the 
very children of the Virgin Islands learn about the environment 
in a hands-on approach. The VI National Park and us needs the 
Sierra Student Coalition.
    We all have to work on this partnership. The National Park 
Conservation Association motto is ``protecting our National 
Park for future generations.'' What does it truly mean?
    On an island that is eight miles long the mass of the 
children are unaware of the very existence of a National Park. 
We need the NPCA to show us how they can assist in helping the 
future to refer about sciences and special resources we have. 
There is also the Land for Public Trust. Their motto, 
``conserving land for the people.'' This group works with 
Congress to garner support for Federal funding to purchase 
land.
    The question remains who are these people conserving for? 
The recently purchased over 400 acres known as Maho Bay. They 
could have easily used some of that land to assist in a swap to 
assist the children's needs for a complex. However it appears 
they had no such interest.
    Residents who were against this lease gave One Campus the 
biggest gift ever. They hired a local appraiser to locate land 
for a school because they did not want it ``in their back 
yard.'' I have attached a copy of the document for your review 
where you can the land values are unaffordable for the local 
government who will have to build the school. Also the lands 
noted are not conducive for an educational facility.
    One Campus has met these same residents who were against 
the lease and have positively engaged with us and now we have a 
new organization called Kid's First by these very residents. So 
this proves partnerships and bridges can and will be built. 
Attached is their press release* on this wonderful engagement.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    The residents of St. John have been down this road less 
traveled before. Congress met to condemn the Island in the 
1960s. Here we are now to request land for an educational 
facility and partnerships with the National Park and 
environmentalists.
    St. John is my home. My children and the children of St. 
John will know that they have all the enabling rights given to 
them to learn, to become one with the environment in which they 
live. I have faith and belief that this congressional committee 
will allow the lease for an educational complex with 
restrictions to ensure the protection of a National Park, 
residents of St. John and the Island of St. John.
    In closing, I thank you. One Campus and the children thank 
you for the opportunity afforded us.
    [The prepared statement of Ms. Monsanto follows:]

   Prepared Statement of Lorelei Monsanto, Spokesperson, St. John, VI

    Good Afternoon Chairman Bingaman and other members of the Committee 
on Energy and Natural Resources. My name is Lorelei Monsanto and I 
represent the group called One Campus. Mr. Chairman and members, at the 
outset I would like to express my appreciation to this committee on two 
counts; firstly for affording me the privilege of appearing before you 
today to give testimony on HR 53 and secondly for the committee 
foresight in going directly to the people of St. John to hear what we 
have to say, on matters of vital concern to us. Thereby, giving us a 
real scents of participating in the affairs of the island.
    One Campus has worked along side our Delegate, Donna Christiansen 
to create a much needed partnership with the local government and the 
NPS in regards to education. Our dream is to create a full-bodied 
environment for the children, residents, visitors and the VI National 
Park.
    One Campus motto is ``Educated the whole child through math, 
science, reading and hands on expression through the environment in 
which they live and thrive.''
    I am here before you to request your support on bill HR 53. All of 
you have the children, of the island of St. John on your shoulders. The 
decision made today will affect us with the partnership between the 
Management agency of the VI and the residents of the Virgin Islands.
    The residents on St. John do not support a swap of any kind. With 
the rumor of swapping land on St. Croix for land on St. John is liken 
to asking Texas to give up land for Vermont. The Virgin Islands has 
limited land mass and no comparison to support a swap is warranted. In 
fact, we need to develop our own land bank to support our own needs.
    St. John is only eight miles long and comprised of 12,322+-acres is 
land mass. Of that 7,400+-acres belongs to the National Park, 50+-acres 
belongs and is being used by the local Government and the balance owned 
by hotels, businesses and residents alike. So, you see our resources 
are limited.
    Another, aspect you need to consider is that the U.S. Virgin 
Islands are a territory and you can address territories needs 
differently. The National Park of the Virgin Islands is like no other 
park in the UNITED STATES-it owns more than \3/4\ s of the island and 
still growing.
    The Park has always been a aloof neighbor, but now needs to be a 
viable partner who will support and work together to achieve new 
standards with Community and Park. The Park has changed our lives both 
for the good and the bad. From affecting our property taxes, to 
promoting tourism, not living up to its own mandate to employ from the 
local base as well as not knowing the Parks own boundaries. These items 
and more have brought us here today.
    H.R. 53 requests a lease on a parcel of land known as the Bishop 
property consisting of 55 acres. Ms, Bishop left a reversionary clause 
for this land for the purpose we are seeking--A EDUCATIONAL COMPLEX, 
grades K-12. She was a visionary that wished this land by utilized with 
the partnership of the NPS (see attached deed of conveyance). We also 
would like a mid island visitors center, science center including 
marine and botany studies. An expansion of a local job corps to 
educated the local base to work in the park, as plumbers, electrician, 
rangers, interpreters and managers of the NPS that surrounds them.
    Imagine a NPS that works truly with the Community in which it 
surrounds. Guest from all over the world can come to St. John and 
marvel of how a NPS and local Government educated the future 
generations with a global partnership.
    The Environmentalist may say no this can not happen and must not 
happen, but the question is why not and how can we make it happen!
    The Friends of the Virgin Islands National Park have stated they 
will support whatever action the Congress Recommends. They know there 
is truly a need for this Educational Complex (see attached letter).* 
Other groups such as the Sierra Club's stresses that the ``ecology is 
not a fad'' and I agree, so let us help the very children of the VI 
learn about the environment in a hands on approach. The VI needs the 
Sierra Student Coalition. We all have to work on this partnerships. The 
National Parks Conservation Association's motto is ``Protecting our 
National Park for Future Generation''. What does this really mean? On a 
island that is 8 miles long the mass of the children are unaware of the 
National Park. We need the NPCA to see how they can assist in helping 
the Future they refer to, (Virgin Island Children), about the sciences 
and precious resources we have. There is also the Land for Public 
Trust. Motto-''Conserving land for People''. This group works with 
Congress to garner support for federal funding to purchase lands. The 
question remains who are the people they are conserving for? They 
recently purchased over 400 acres known as MAHO Bay and could have 
easily used some of that land to assist in a swap to assist the 
children's need for a complex; however it appears they had so such 
interest.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Residents, who were against this lease, give One Campus the biggest 
gift ever. They hired a local appraiser to locate land for a school 
because they do not want it in ``their back yard''. I have attached the 
document for your review you can see the land values are unaffordable 
for the local Government who will still have to build the school. Also, 
the lands noted are not conducive for a Educational facility. One 
Campus has met with some on the Residents who were against the lease 
and have positively engaged them and now we have an new organization 
call Kid's First by these very residents. So this proves partnerships 
and bridges can and will be built. Attached is their press release on 
this wonderful engagement.
    The Residents of St. John have been down this road less traveled 
before. Congress met to condemn the island in the 60's and here we are 
now with a request for land for an educational facility and partnership 
with the NPS and the environmentalist St. John is my home, my children 
and the children of St. John will know that they will have all the 
enabling rights giving to them as they learn to become one with the 
Environment in which they live.
    I have the faith and believe that this congressional committee will 
allow the lease for a educational complex with restrictions to ensure 
the protection on the NPS, residents of St. John and the Island of St. 
John.

    Senator Akaka. Thank you very much, Lorelei. Mr. Pencek, it 
sounds like you've done all of your homework on your proposed 
heritage area. The Park Service doesn't appear to have any 
specific issues with the bill. So I'm not aware of any 
outstanding issues that you have. But I want to thank you for 
coming and getting on the record your thoughts about what has 
happened. We really do appreciate that.
    Mr. Pencek. Thank you, Senator, for the opportunity.
    Senator Akaka. Mr. Illig, I think you've very clearly laid 
out the issue from your perspective. So I don't have any 
specific questions for you at this time. As I mentioned to the 
National Park Service witness earlier, I may send written 
questions to the Department of Justice. If we need to clarify 
any issues based on their response I may submit additional 
questions to you as well.
    But at this point in time I do not have any questions for 
you.
    Mr. Illig. Thank you, Senator.
    Senator Akaka. Thank you very much for testifying for this 
committee.
    Mr. Illig. Thank you, sir, appreciate it.
    Senator Akaka. Ms. Lorelei Monsanto, as you know the 
Administration is opposing this bill, 53. The lease of the 
National Park land is likely to be controversial in the Senate. 
In your opinion is any form of land exchange a possible 
alternative or do you believe that the lease is the only 
option?
    Ms. Monsanto. Sir, we have done our research. We did 
investigations. We found where there was approximately 500 plus 
acres that was earmarked by the Jackson Hole Preserve as the 
delegate testified that land went into private hands. We have 
exhausted all our resources in looking for alternatives. So we 
feel the lease would be the better interest.
    The land will still be owned by the National Park. They 
will still have control of the land. We're not asking them to 
give us an outright conveyance.
    We're trying to work as a partnership. We have an Island 
that is, as we testified, surrounded by a National Park. The 
kids are unaware of what's happening with the National Park.
    There's something also. Rockefeller got this land from 
local people. They thought they were giving this land for the 
needs of their children and their children to come, for 
generations to come. And here we are at this crossroad just 
because the name Rockefeller was attached. We're forgetting 
where Rockefeller got the land from. So I think we really need 
to look at the bigger picture.
    Senator Akaka. I thank you very much for your testimony 
today. My counterpart here, the ranking member mentioned that I 
ask about another way of maybe looking at it in a land 
exchange. I think we still need to look at it. As we know now 
that the National Park has opposed the bill and will continue 
to look at this. Thank you so much for being here today.
    I want to thank each of you for testifying this afternoon. 
Your testimony will help us better understand the issues that 
you have and we face now. The bills that Mr. Illig and Ms. 
Monsanto have testified on raises more complex, legal policy 
issues. We will continue to work with the sponsors of those 
bills to see if we can work out a workable solution.
    Before we close today I want to let you know that some 
members of the committee were not able to be here this 
afternoon may submit additional questions in writing. If we 
receive any questions we will forward them to you and ask you 
to respond to them so that we may include both the questions 
and answers in the official hearing record.
    Senator Akaka. Again I want to thank you for your 
testimonies. The committee is adjourned.
    [Whereupon, at 4:05 p.m. the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Daniel N. Wenk to Questions From Senator Akaka

                                 S. 662

    Question 1a. What is the status of the Harriet Beecher Stowe home 
in Maine? For example, is it privately owned, is it listed in the 
National Register, and is it in good condition?
    Answer. The house is currently owned by Bowdoin College and is not 
open to the public. It is listed on the National Register of Historic 
Places and is also a National Historic Landmark. Recently Bowdoin 
College commissioned historic structure reports on the house. The 
reports found that the building has been extensively modified and that 
little remains of the interior from 1850-1852 when Stowe was in 
residence, although the basic structure is in reasonably good condition 
and the exterior appearance of the house has not been altered as much 
as the interior. The house was used as a commercial inn and restaurant 
for many years and renovations for those purposes remain.
    Question 1b. Harriet Beecher Stowe also owned a home in Hartford, 
Connecticut. What is the status of the home in Hartford and will that 
property be included in the study authorized by S. 662?
    Answer. We know of at least two other houses associated with 
Harriet Beecher Stowe, one in Cincinnati, Ohio and one in Hartford, 
Connecticut. Both houses are open to the public. As part of the special 
resource study, these two sites, which commemorate Harriet Beecher 
Stowe's life, will be reviewed.

                                 S. 827

    Question 2a. Has the National Park Service or anyone else conducted 
a study to determine the feasibility of establishing the Freedom's Way 
National Heritage Area?
    Answer. The study for a potential Freedom's Way National Heritage 
Area was conducted in 1997 by the proposed management entity, the 
Freedom's Way Heritage Association, Inc., and the Massachusetts Dept. 
of Environmental Management. The National Park Service (NPS) reviewed 
the feasibility study and found that it did not fully address the 
interim national heritage area criteria. Representatives of the NPS 
Northeast Region conducted field reconnaissance visits in November 
2000. Based on the findings of the reconnaissance team, the Freedom's 
Way Heritage Association, Inc. submitted an addendum in April 2001. The 
NPS evaluated that addendum, as well as the original feasibility study, 
and found that the criteria were fully addressed and met. While the 
proposed Freedom's Way National Heritage Area contains significant 
natural and cultural resources and meets the established criteria for 
congressional designation, we would again request that the committee 
defer action on S.827 until national heritage area program legislation 
is enacted.
    Question 2b. How many other National Heritage Areas are there in 
Massachusetts and New Hampshire and what is it that makes Freedom's Way 
unique?
    Answer. There are no national heritage areas in New Hampshire. 
There are 4 heritage areas that include part of Massachusetts within 
its boundaries:

  <bullet> John H. Chafee Blackstone River Valley NHC (MA/RI)
  <bullet> Quinebaug & Shetucket Rivers Valley NHC (CT/MA)
  <bullet> Essex NHA (MA)
  <bullet> Upper Housatonic Valley NHA (CT/MA)

    In terms of what makes the Freedom's Way National Heritage Area 
unique, this is a region that substantively influenced our democratic 
forms of governance and the development of intellectual traditions that 
underpin the concepts of American freedom, democracy, conservation, 
social justice, and ethnic diversity. Historically prominent leaders in 
literature and intellectual thought found the region to be a source of 
inspiration including Henry David Thoreau and Louisa May Alcott. It was 
also the locale for expressions of religious freedom and social 
experimentation with the settlements of such groups as the Shakers. The 
events that occurred here during the American Revolution include the 
ride of Paul Revere and the engagements at Lexington and Concord.

                            S. 923/H.R. 1528

    Question 3a. Is the New England National Scenic Trail a hiking 
trail?
    Answer. The trail is a combination of existing trails that wind 
through Massachusetts and Connecticut and that are primarily devoted to 
hiking. Some sections support additional uses such as horseback riding 
and mountain biking.
    Question 3b. How much of the land associated with the trail would 
be owned by the National Park Service?
    Answer. There is no existing federal land associated with the 
proposed trail route. The study concluded that at this time, there is 
no need for federal acquisition by the NPS. However, both bills provide 
the ability to purchase land from willing sellers if that is deemed 
advisable in the future.
    Question 3c. How much of the trail is in private ownership and does 
the National Park Service plan on someday owning the entire trail in 
fee?
    Answer. The ownership of land across the two states varies. Some of 
it is state-owned, some privately owned, some of it is owned by 
corporations, some by municipalities, and some by non-profits. Part of 
the trail crosses public roads and public water utilities. None of it 
is owned by the federal government. The NPS does not plan on owning any 
of the trail in fee.

                                 S. 956

    Question 4a. Will this designation as a National Heritage Area 
place any new restrictions on property owners' regarding use or 
development of their property?
    Answer. This legislation places no restrictions on owners of 
private property including zoning and land use regulations. The 
legislation also provides protection for private property rights 
tailored to the specific needs of the region.
    Question 4b. Have National Heritage Area designations in any state 
had any adverse impact on private property?
    Answer. As of 2007, there were over 61 million people who live in 
the 37 designated national heritage areas and to date, we have found no 
examples of private property complaints stemming from a NHA 
designation. The March 2004 GAO-04-593T report documents that the 
heritage area program has had no adverse impact on rights of private 
property owners.

                                S. 2073

    Question 5. The rails-to-trails program is not administered by the 
NPS. Please direct these questions to the appropriate office in the 
Administration.
    Answer. You are correct that the NPS generally is not involved in 
the rails-to-trails cases that arise under the National Trails System 
Act (the ``Act''). The Surface Transportation Board (STB) of the 
Department of Transportation has authority over the construction, 
operation and abandonment of most of the nation's rail lines. The STB 
also has authority to issue a Notice of Interim Trail Use (``NITU'') 
under Section 8(d) of the Act, 12 U.S.C. Sec. 1247(d), when the 
conditions for such a notice are met.
    The NPS referred Question 5 regarding the Act to the Department of 
Justice (DOJ), which handles, on behalf of the United States, the cases 
that these questions concern. S. 2073 would amend the National Trails 
System Act by establishing an accrual date for Fifth Amendment takings 
claims brought in connection with the implementation of that Act. The 
accrual date established by S. 2073 is different from the accrual date 
determined for such claims by the United States Court of Appeals for 
the Federal Circuit in Caldwell v. United States, Renewal Bodyworks v. 
United States, and Barclay v. United States. In these cases, the 
Federal Circuit determined that the issuance of an original NITU 
triggers the running of the statute of limitations. S. 2073 would amend 
Section 8(d) of the Act to state that claims for damages shall not 
begin to accrue before the date on which a State, political 
subdivision, or qualified private organization enters into an agreement 
with the railroad to assume full responsibility for the right-of-way 
and interim use of that right-of-way.
    DOJ also informs us that it previously raised a number of concerns, 
including constitutional concerns, regarding a similar bill, H.R. 4581, 
by letter dated August 1, 2006. A copy of that letter is attached. DOJ 
advises us that the concerns expressed in that letter, including the 
constitutional concerns, apply equally with respect to S. 2073.
    Question 5a. How many property owners are involved in the Missouri 
dispute and how much will it cost the Federal government to resolve the 
case if this legislation is enacted?
    Answer. The case of Gale and Sarah Illig v. United States is a 
class action consisting of approximately 140 plaintiffs with claims 
involving 99 parcels of property along a 6.2-mile railroad right-of-way 
in St. Louis, Missouri. In December 2004, prior to the decision in 
Caldwell v. United States, the parties had filed with the court a 
proposal to settle the class action for approximately $5.2 million, 
which included the fair market value of the easements taken ($2.36 
million), interest calculated under the Declaration of Takings Act, 40 
U.S.C. Sec.  258e-1 ($1.55 million), and statutory attorney's fees and 
costs under the Uniform Relocation Assistance and Real Property Act, 42 
U.S.C. Sec. 4654(c) ($1.26 million), although we understand that 
plaintiffs' counsel would actually receive one-third of any settlement 
or court award, plus expenses, pursuant to a contingent fee agreement. 
The proposed settlement was never entered because the district court 
dismissed the Illig plaintiffs' claims in the wake of Caldwell. 
Approximately 70 of the Illig plaintiffs then appealed, and the United 
States Court of Appeals for the Federal Circuit resolved those appeals 
in favor of the United States on April 7, 2008. For the reasons set 
forth in its August 1, 2006, letter, DOJ believes that the provision of 
S. 2073 that would allow parties to reopen final court judgments raises 
serious constitutional concerns. Nonetheless, in answer to the 
question, the exact amount it would cost the Federal government to 
resolve this case if S. 2073 is enacted is unknown because we do not 
know how many of the Illig plaintiffs would be permitted to proceed 
with their claims or the amount of additional interest and attorney's 
fees that plaintiffs would seek in connection with the appeal of some 
of their claims.
    Question 5b. I understand that similar issues may exist in Kansas 
and California. How many cases exist in each of those states and what 
is the anticipated cost of settlement if this law is enacted?
    Answer. There are no pending cases in Kansas or in California that 
present similar issues. However, the takings claims brought in Barclay 
v. United States, which involved Kansas properties, and Renewal Body 
Works v. United States, which involved a California property, were 
dismissed as time-barred under the claim accrual rule set forth in 
Caldwell v. United States. The judgments in those cases became final on 
September 12, 2006. By its terms, Section 2(c) of the proposed law 
would permit the claimant in Renewal Body Works and some of the 
claimants in Barclay to seek review of the merits of their claims. (See 
also discussion above in response to (5(a.)) Since the merits of these 
claims were never addressed prior to the dismissal of the claims as 
time-barred, the costs of settlement are unknown at this time. The 
demand in Renewal Body Works was for $1,242,000, plus interest from the 
alleged date of taking, attorneys' fees, and costs; in Barclay, there 
were 25 claims, with the total amount claimed $250,000, plus interest 
from the alleged date of taking, attorneys' fees, and costs.
    Question 5c. Is S. 2073 retroactive and if so, how many other cases 
are out there that may be resurrected for settlement?
    Answer. S. 2073, as written, is retroactive and would resurrect 
claims that have been dismissed by the courts as time-barred under the 
applicable six-year statute of limitations. (See also discussion above 
in response to (5(a.)) Other than the cases identified above, we are 
unaware of any other rails-to-trails cases previously dismissed as 
time-barred that would be resurrected by this proposed legislation.
    Question 5d. Are you aware of any states other than Missouri, 
Kansas, and California that have rails-to-trails issues affected by 
this legislation?
    Answer. To date, the Department of Justice has defended several 
thousand rails-to-trails takings claims in approximately 40 cases 
involving property in 18 different states. With the exception of the 
three cases noted above (Illig v. United States, Barclay v. United 
States, and Renewal Body Works v. United States), we are not aware of 
any previously dismissed rails-to-trails actions that could be 
resurrected by this proposed legislation. The only pending case with 
time-barred claims that would be affected by the proposed legislation 
is Schneider v. United States, a state-wide class action involving over 
2,000 claims in Nebraska, some of which are subject to dismissal under 
the claim accrual rule set forth in Caldwell v. United States, but 
would not be subject to dismissal under the proposed legislation.
    There are however a number of pending rails-to-trails class actions 
that would be affected by this proposed legislation in other ways. In 
each of these cases, the parties have transmitted notices to potential 
class members that utilize the claim accrual date established in 
Caldwell v. United States. If S. 2073 is enacted, the parties would be 
required to issue an amended notice to potential class members, reopen 
the time period for potential class members to opt-in or opt-out of the 
pending class actions, and reassess any previously completed appraisal 
or valuation work. The proposed legislation would also adversely affect 
the pending claims of some plaintiffs and class members. For example, 
if the claim accrual date is changed with respect to pending cases, 
there will be current plaintiffs and class members who are presently 
eligible to receive just compensation for the taking of their property 
whose overall compensation will be reduced, or who will become 
ineligible for any such compensation, due to the change in the claim 
accrual date. Further, a change in the claim accrual date will result 
in the dismissal of some pending claims that are timely under the claim 
accrual date established in Caldwell, but would not be ripe for review 
under the claim accrual date that would be established by S. 2073.

                                S. 2513

    Question 6a. How is the land proposed for acquisition by this 
legislation currently being used?
    Answer. The bill would expand the park by 67 acres in two, non-
contiguous parcels. The Colonel Barrett House and surrounding farmland 
(Barrett Farm) property includes 64 acres. The Joshua Brooks House 
property, in Lincoln, includes 3 acres of natural land with a single-
family home on the back portion of the property that is currently 
occupied.
    The Barrett House and immediately adjacent farmland is now owned by 
Save Our Heritage, Inc. a local nonprofit organization, which seeks to 
preserve it for public use and enjoyment. It is currently being 
rehabilitated and is open to the public for interpretation a few days a 
year. Most of the remaining farmland is owned by the Town of Concord 
and preserved as conservation land.
    The only other property actively considered for acquisition or a 
conservation easement at this time is the 3-acre parcel adjacent to the 
Joshua Brooks House. It contains a single-family home on the rear 
portion of the parcel and wetlands on the front portion including part 
of Elm Brook. The parcel could be acquired in fee or through a 
conservation easement by NPS.
    Question 6b. Does the land proposed for acquisition at Minuteman 
National Historical Park have any specific interpretive value or is it 
needed to protect the park from encroachment?
    Answer. Yes the Barrett Farm has significant interpretive value and 
is a key resource in the park's story of the events of 1775 that 
started the American Revolution. The property at the Joshua Brooks 
House is part of the original farm properties and its acquisition will 
help protect the House and its viewshed from imminent inappropriate 
development.
    Question 6c. How will the National Park Service use the property 
that is proposed for acquisition?
    Answer. The Barrett Farm will be used primarily for interpretation; 
along with formal programs, living history demonstrations will be a 
central component. There is a remarkable degree of integrity to the 
Barrett House so Save Our Heritage, Inc. is expected to be involved in 
the long-term fundraising efforts to complete interior restoration and 
furnishing of the house. The landscape will be restored as well since 
farming is a key element of the historic landscape. For the parcel at 
Joshua Brooks House, the land will protect the viewshed and will also 
protect a section of Elm Brook, the remainder of which is within the 
park boundary.

                                S. 2604

    Question 7. What makes the Baltimore National Heritage Area unique 
and worthy of national designation?
    Answer. The foremost reason the area is unique is its role in the 
defense of Baltimore against the British in 1814 by a populace of 
largely first-generation immigrants and free and enslaved African 
Americans. The Star-Spangled Banner, our national anthem, and a new 
sense of national identity were forged in large part out of this 
experience. Other resources representing the theme of national identity 
include the National Road, the Nation's first federally funded 
interstate transportation route, that begun in 1811 in Baltimore and 
headed westward. Additionally, Baltimore was a major shipbuilding 
center beginning with the famous Baltimore clippers, a major port of 
entry for new immigrants second only to New York, and the starting 
point and industrial center of the first long-distance railroad into 
the American frontier.

                                S. 2804

    Question 8a. What is the estimated value of the land identified for 
addition to the Everglades National Park?
    Answer. The Nature Conservancy purchased the land, proposed to be 
added to Everglades National Park by this bill, for approximately 
$500,000 in 2003. Applying an escalation amount of six percent overall 
per year brings the current value to $650,000. The NPS would still need 
to do an appraisal of the land's current value, as the Department does 
not pay carrying costs based on escalation.
    Question 8b. What is the ``Hurricane Hole'' mentioned in the 
legislation, who will be allowed to use it, and how long will they be 
allowed to use it (that is, for the rest of their life or that of their 
heirs)?
    Answer. The Hurricane Hole is a small body of water, located on the 
northeastern section of the property, where boat owners have 
traditionally moored their sailing vessels during tropical storms and 
hurricanes.
    It was the original intent of NPS staff to permit only sailboat 
owners who had previously demonstrated use of the Hurricane Hole to be 
allowed to secure their vessels there during storms. However, 
subsequent discussions within NPS determined that the permit system 
would be difficult to enforce and may run contrary to maritime law. The 
Department worked with committee staff to clarify the language in the 
bill relating to the Hurricane Hole. The bill, as reported out of 
committee, states that the Secretary ``may allow use of Hurricane Hole 
by sailing vessels during emergencies, subject to such terms and 
conditions as the Secretary determines to be necessary.''

                                H.R. 53

    Question 9a. How many schools currently operate within the 
boundaries of a national park unit?
    Answer. There are eight schools that operate within the boundaries 
of a national park:

  <bullet> Three schools in Yosemite National Park, all operated by a 
        local school district;
  <bullet> One school in Death Valley National Park, operated by a 
        local school district;
  <bullet> One school in Yellowstone National Park, operated by NPS, 
        which is closing at the end of the 2007-2008 school year;
  <bullet> One school in Grand Canyon National Park, operated by the 
        state;
  <bullet> One school in Valley Forge National Historical Park, 
        operated by a private concern in a leased space; and
  <bullet> One school in Big Bend National Park, operated by the San 
        Vicente Independent School District.

    There are six elementary schools, six junior or senior high schools 
and two colleges/ universities operating within the boundary of Santa 
Monica Mountains National Recreation Area. None of these schools are 
located on National Park Service-owned land.
    Question 9b. What if any national park units currently lease land 
or real property to a government or private entity and what is the 
primary use of the leased property?
    Answer. Attached is a listing of all current leases within the 
National Park Service, as reported to the seven NPS regional offices.
    Question 9c. The NPS witness mentioned at the hearing on April 23, 
2008, that Virgin Islands National Park expects to receive various 
parcels of land in the near future. What are the specific parcels that 
are due to be received by NPS (please provide a map that illustrates 
their location) and is there any opportunity to work with the current 
land owner and the Virgin Islands Government to treat the acquisition 
as an exchange for the 10-acre site?
    Answer. The Trust for Public Land has purchased more than 400 acres 
on the island of St. John. These lands, part of the once-private Estate 
Maho Bay and located in the area highlighted in the attached map,* will 
be acquired by NPS in the near future. However, park staff knows of no 
other parcels that are slated to be purchased by or transferred to the 
National Park Service.
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    The National Park Service remains engaged with the territorial 
government on finding solutions to the school issue.
    Question 9d. A large portion of Virgin Islands National Park was 
originally acquired form the Rockefellers with restrictions regarding 
future use. Is the land proposed for lease a part of the land acquired 
from the Rockefellers?
    Answer. The land proposed for the long-term lease is not part of 
the original 1958 land grant from Laurance Rockefeller. It was 
purchased in 1968 as part of the Estate Catherineberg parcel and is not 
subjected to the reversionary clause that governs the Rockefeller 
lands.

                               H.R. 1483

    Question 10a. Have any National Heritage Areas reached the end of 
their initial authorization without being reauthorized?
    Answer. The Illinois and Michigan National Heritage Corridor 
reached the end of its authorization for federal funds in 2004. 
However, in 2006 Congress reauthorized its funding for an additional 15 
years. In addition, the authority for federal funding for Cache la 
Poudre National Heritage Area has expired. But in general, most 
national heritage areas that reached the end of their initial 
authorization were reauthorized for additional funding. We hope by 
requiring an evaluation three years before the cessation of federal 
funds, the heritage area will plan for how to secure funding through 
non-NPS sources, thus working towards self-sufficiency.
    Question 10b. What type of relationship would the National Park 
Service maintain with a National Heritage Area if it was not 
reauthorized by Congress?
    Answer. While the designation of a national heritage area continues 
indefinitely, federal funding normally expires after a 15-year period. 
When federal funding to a heritage area expires, the NPS is still 
authorized to provide technical assistance to a heritage area. Because 
many heritage areas contain one or more park units, the partnership 
between the heritage area and the NPS remains an important part of 
carrying out the area's management plan and protecting and interpreting 
resources associated with nationally important stories on a larger 
scale.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Responses of William J. Pencek, Jr., to Questions From Senator Burr

                                S. 2604

    Question 1. What do you see as the benefits of national designation 
as a heritage area?
    Answer. There are several major benefits that would result from 
designation as a national heritage area. The most significant of these 
include:

  <bullet> Benefits to the public (resident, and regional, national and 
        international visitors)

    --Filling big cultural heritage gaps.--There are big gaps in 
            understanding the diversity and complexity of our nation's 
            cultural heritage, particularly the formative years of the 
            new republic between the American Revolution and the Civil 
            War. The Baltimore National Heritage Area (BNHA) will have 
            a distinct (but non-exclusive) focus on the historic, 
            cultural, natural, recreational and scenic resources of 
            national significance which illuminate that seminal period. 
            The over-arching interpretive theme for the BNHA, as 
            identified in the feasibility study, is ``Portal to 
            American Identity.'' As outlined in the study, among the 
            four biggest national heritage stories that will be 
            highlighted are:

      <bullet> the impact and outcomes of the War of 1812
      <bullet> the African American push for equality and opportunity
      <bullet> immigration, industrialization and westward expansion
      <bullet> the unique cultural expressions of the largest city on 
        the Chesapeake, the continent's largest estuary.

      The resource set in the BNHA illustrating these stories is as 
            rich as, and may be richer than, any other.

    --Improving the visitor experience.--The financial and technical 
            resources made available through designation will 
            significantly enhance the ability of the BHNA to implement 
            the recommendations of its interpretive plan, now underway. 
            The interpretive plan will provide a blueprint for the 
            investments needed to speak to residents and visitors using 
            the most engaging and rewarding methods and techniques.
  <bullet> Benefits to local and state BNHA stakeholders
    --Increased financial and technical resources.--The Baltimore 
            Heritage Area Association, the proposed management entity 
            for the BNHA, will be eligible for up to $1 million 
            annually over 15 years ($10 million maximum). This will 
            boost the Association's ability to leverage significant 
            public and private funds. The organization has 
            demonstrated, since 2002, that it is highly capable of 
            raising substantial funds for operations, programming and 
            capital and non-capital projects. A portion of any federal 
            funds appropriated and awarded for the BNHA will go for 
            direct expenditures by the Association, but as outlined in 
            #3 below, the largest portion of the funding is anticipated 
            to be re-granted through cooperative agreements with 
            partner organizations for priority projects indentified in 
            the management plan. Similarly, the invaluable technical 
            assistance of the National Park Service (NPS) will benefit 
            the Association directly, but is expected to be of even 
            greater benefit to partner organizations within the BNHA.
    --Recognition in the cultural heritage tourism marketplace.--As 
            outlined in the written testimony provided to the 
            Subcommittee, Baltimore is at an extreme competitive 
            disadvantage in the important cultural heritage tourism 
            marketplace, relative to the cities in its leisure travel 
            competitive set: Washington, Philadelphia, New York and 
            Boston. This is not because the resources or national 
            heritage stories of the BNHA are less significant, 
            plentiful or well-conserved or -interpreted. This is in 
            significant part because of the financial, technical and 
            marketing assistance from NPS which those cities have 
            enjoyed for decades, as well as the ``seal of approval'' 
            that the NPS logo and brand represent in the marketplace. 
            BNHA, the Association and its partners will proudly 
            leverage the brand recognition and respect that comes with 
            the NPS arrowhead, and the opportunities for reaching the 
            public in new ways.
    --Assistance in exploring the feasibility of new or expanded 
            national park units.--In two instances, the feasibility 
            study outlines the need for examination of the feasibility 
            of new or expanded national park units--the possible 
            expansion of the Fort McHenry National Monument and 
            Historic Shrine to include other significant War of 1812-
            related resources in the BNHA, and the creation of a new 
            unit related to Thurgood Marshall including his home, 
            elementary school and other resources. Designation of the 
            BNHA will assist in sustaining the momentum to ensure these 
            examinations take place as soon as possible.
  <bullet> Benefits to NPS, U.S. Department of the Interior
    --Filling big cultural heritage gaps.--As outlined above, the 
            resource set and the national heritage stories in which the 
            BNHA is strong happen to be areas where NPS can benefit 
            substantially. These are resources and stories from a 
            period which can and should be much better represented in 
            NPS park units and in the national heritage areas.
    --A robust partner.--The BNHA and the Association, certified by the 
            state of Maryland in 2002, have an extraordinary record of 
            accomplishment, and bring to the table many innovative best 
            practices to benefit NPS and the network of national 
            heritage areas. Among its most significant accomplishments:

      <bullet> Secured over $2 million in grants from the Maryland 
        Heritage Areas Authority (MHAA) for projects throughout the 
        state-certified Baltimore Heritage Area (BHA). Each $1 of MHAA 
        funds invested in the BHA leverages $27.35 in annual, ongoing 
        state and local tax revenues\1\.
---------------------------------------------------------------------------
    \1\ Investing in Our Communities: Maryland's Heritage Areas 
Program, Maryland Department of Housing and Community Development, 
November 2003.
---------------------------------------------------------------------------
      <bullet> Awarded $550,000 in grants from the city-funded BHA 
        Small Cap Grant Fund to 43 projects throughout the BHA, 
        leveraging more than $7 million in non-city investments.
      <bullet> Completed design and secured over $1,000,000 in federal, 
        state, city and private funds for construction and operation of 
        the Star-Spangled Trails (www.starspangledtrails.org), and the 
        Inner Harbor Trailhead, to encourage exploration of BHA in the 
        Inner Harbor and beyond. Recruited and trained Urban Park 
        Rangers to lead guided tours on Heritage Walk 
        (www.heritagewalk.org), Mount Vernon Cultural Walk, and the 
        Pennsylvania Avenue Heritage Trail.
      <bullet> Secured more than $120,000 in foundation and other 
        grants to complete the BNHA feasibility study, rather than 
        using Federal funds, as is customary.
      <bullet> Created a mini-grant program to assist less well-
        resourced organizations develop cultural heritage projects.
      <bullet> Launched Authentic Baltimore, 
        www.authenticbaltimore.org, a program to certify the sites, 
        services and events that authentically convey the heritage of 
        Baltimore to residents and visitors.
      <bullet> Conducted dozens of workshops reaching thousands of 
        individuals. Among the most recent was co-sponsored with the 
        Alliance of National Heritage Areas, which attracted more than 
        75 NHA representatives from around the nation.
      <bullet> Supported a full-time Heritage Education and Outreach 
        Administrator who coordinated and expanded the activities of 
        the Greater Baltimore History Alliance, a consortium of 50 
        Baltimore-area history museums, and doubled their membership.
      <bullet> Completed the successful K-12 pilot initiative, 
        ``Defense of a Nation: Baltimoreans and Their Role in the War 
        of 1812,'' involving 50 teachers and 1,400 public school 
        students, and sustained its subsequent annual operation.
      <bullet> Partnered with the Baltimore City Public School System 
        to design and implement activities funded by Teaching American 
        History, a program of the U.S. Department of Education, to 
        teach American history at Baltimore's history museums, and 
        secured more than $1 million in grant funds to implement the 
        program.
      <bullet> Secured $130,000 in Federal Highway funding to complete 
        a BHA/Charles Street Scenic Byway interpretive plan.
      <bullet> Led efforts to assist development of the Arabber Center 
        (Upton Cultural Visitor Center) using $400,000 in funds in the 
        City's FY '09 capital budget.
      <bullet> Led efforts to rehabilitate PS 103 and create a Thurgood 
        Marshall/Baltimore civil rights interpretive center, using 
        $250,000 in Baltimore's FY 2008 capital budget and a $100,000 
        Preserve America grant.
      <bullet> Coordinated securing a $2 million bequest for the city-
        owned H. L. Mencken House and completion of lease agreement for 
        the house with the Society for the Preservation of H.L. 
        Mencken's Legacy.
      <bullet> Secured funds to hire staff/consultant to coordinate 
        planning for the national observance of the War of 1812 
        Bicentennial in Baltimore.
      <bullet> Coordinated the City of Baltimore's $1.4 million 
        contribution to the planning and construction of the new Fort 
        McHenry Visitor Center, an amount matched by the State.
      <bullet> Coordinated successful efforts to increase to $3 million 
        the ceiling for the Maryland Heritage Area Authority Financing 
        Fund.

    NPS can take significant advantage of the resource set and 
innovative best practices which have proven successful in the BNHA.
    Question 2. Most heritage areas begin operating as a state-
sponsored activity before seeking federal designation. The Baltimore 
Heritage Area was endorsed by the state of Maryland in 2001. How much 
was the operational budget for the Baltimore Heritage Area in 2007 and 
what was the source of funds?
    The BHA's operating budget for fiscal year 2007 (July 1, 2006 to 
June 30, 2007) was as follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In kind match of $25,000 was made available from the City of 
Baltimore for office space and equipment, and administrative support, 
communications, duplication, and mail services.
    In addition to the operating budget, BHA benefitted from another $3 
million in leveraged heritage area investments. BHA was awarded $245,00 
in MHAA projects grants; $250,000 in city capital budget funds for the 
Star-Spangled Banner Trails; $250,000 in city capital budget funds for 
PS 103/Thurgood Marshall's School; $110,000 from the Chesapeake Bay 
Gateways Network for the Inner Harbor Promenade; $130,000 from the 
State Highway Administration for the Charles Street Interpretive Plan; 
$1 million in Teaching American History funds; and $7,500 from the 
Baltimore Community Foundation for the Field Trip Transportation fund 
for Baltimore City Public School students. BHA also awarded $200,000 in 
city capital budget funds to 12 cultural heritage projects in the 
heritage area.
    Question 3. What are your priorities for use of federal funds if 
this designation is approved?
    Answer. In general, consistent with the 37 other National Heritage 
Areas, funds would be used to assist 1) preparing, updating, and 
implementing a management plan; 2) making grants to, and entering into 
cooperative agreements with, the State of Maryland, private 
organizations, non-profit organizations or any other person; 3) hiring 
and compensating staff; 4) entering into contracts for goods and 
services; 5) acquisition of properties or interests in properties by 
gift, devise, or by purchase from a willing seller using donated or 
appropriated funds; and 6) undertaking any other initiatives that 
advance the purposes of the Heritage Area under the law. Organized in 
the categories listed above, an initial award of up to $1 million would 
likely be used as follows:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    More specifically, as outlined in the feasibility study, some of 
the major priorities of the BNHA over the next few years include 
investments in:

  <bullet> Planning and implementing the national observance of the 
        bicentennial of the War of 1812, the writing of the Star-
        Spangled Banner, and the making of the flag.
  <bullet> Planning and implementing the creation of an interpretive 
        center on the national legacy of Thurgood Marshall and 
        Baltimore's national civil rights history in PS 103, the 
        historic elementary school attended by Marshall.
  <bullet> Assisting in planning and implementing the rehabilitation 
        and environmental restoration of the Middle Branch of the 
        Patapsco River and its associated historical, cultural, 
        natural, scenic and recreational resources. Visited by Captain 
        John Smith in 1608, the Middle Branch is rich in War of 1812, 
        industrial, and recreational resources, aquatic life and birds.
  <bullet> Implementing the Charles Street corridor management plan and 
        securing America's Byway designation.
  <bullet> Managing the successful re-use of President Street Station 
        (the site of the first bloodshed of the Civil War, listed in 
        the National Register of Historic Places and the National 
        Underground Railroad Network to Freedom); the Peale Museum (the 
        nation's first purpose built museum and a National Historic 
        Landmark) and the H.L. Mencken House (a National Historic 
        Landmark); and the Arabber Center (Upton Cultural Visitor 
        Center in the Old West Baltimore National Register Historic 
        District).
  <bullet> Completing and implementing a heritage area-wide 
        interpretation plan to improve experiences for residents and 
        visitors.
                                 ______
                                 
         Responses of Gale Illig to Questions From Senator Burr

    Question 1. How long have you been seeking compensation for land 
taken to establish the trail?
    Answer. The federal government took our land almost 16 years ago. 
The Justice Department and a federal judge agree that our land was 
taken by the federal government in 1992. The STB issued a NITU on March 
25, 1992, that authorized negotiations for a possible rail-to-trail 
conversion of our land. The NITU provided that if the railroad and the 
trail sponsor did not reach an agreement for a trail conversion within 
180 days the railroad easement would be abandoned without any trail 
being created. On October 6, 1992, this 180 day period was extended for 
60 days. It was again extended on December 4, 1992, for 27 days until 
December 31, 1992. We were never sent any notice of the NITU or of 
these extensions to the NITU. We had no knowledge that our land was 
subject to a possible rail-trail conversion.
    On December 30, 1992 the railroad and the trail sponsor reached an 
agreement and a trail was created on our land. Only after this 
agreement was reached did the trailgroup begin the process of building 
the trail and ultimately leasing our land to St. Louis County to 
operate the public trail. It was not until some time after this trail 
use agreement was reached and the trail group began constructing the 
trail that we learned a public trail was to being built on our land.
    28 U.S.C. Sec. 2501 provides a six years period for filing a 
compensation claim after the cause of action against the federal 
government accrues. We filed suit on December 28, 1998, less than six 
years after the Trail Use Agreement. Federal Judge Bruggink on November 
12, 1999, ruled that we had filed this claim in a timely manner because 
the statute of limitations ``clock'' did not start to run until the 
date of the Trail Use Agreement. (i.e. that a claim for the taking of 
our land did not accrue until it had been converted to trail use with a 
Trail Use Agreement.) We then endured five years of litigation with the 
Department of Justice. This lawsuit was finally resolved with a 
Settlement Agreement providing for us to be paid. The Settlement 
Agreement was to be approved by federal Judge Eric Bruggink on December 
17, 2004, and Judge Bruggink said he was ready to approve the 
settlement. However, three days before this, the Court of Appeals for 
the Federal Circuit issued its decision in Caldwell v. United States 
and issued a ``new rule'' for calculating when the statute of 
limitations ``clock'' starts running in Trails Act cases. The Justice 
Department then retroactively applied this ``new rule'' to our claim 
and dismissed the case. Judge Bruggink said that the new Caldwell-
rule'' made no sense, was the ``Grinch that stole Christmas'' and threw 
the Trails Act into a ``cocked hat'' but none the less he was required 
to follow the Court of Appeals and dismiss our claim.
    So, now, almost 16 years later we have still not been paid even 
though everyone agrees the government took our land and agrees on the 
value of the land that was taken.
    Question 2. How many property owners are involved in the Missouri 
dispute and how much will it cost the Federal government to resolve the 
case if this legislation is enacted?
    Answer. There are 88 Missouri property owners that were parties to 
the settlement with the Department of Justice. S. 2073(c) will allow 
these Missouri landowners to proceed with their claim for ``just 
compensation'' and authorize the Court of Claims to allow the 
Settlement Agreement to be finalized and paid. Under the terms of the 
Settlement Agreement, the Department of Justice agreed that the value 
of the land taken from all 88 of these landowners was $2,385,000. This 
was determined by both appraisers for the Government and appraisers for 
the property owners and was reviewed by Judge Bruggink. The Settlement 
also provided for interest on this amount. The rate of interest is to 
be calculated according to the decision of the Court in Miller v. 
United States, 08-2489L (Fed Cl.) which used an annual adjusted Moody's 
AAA rate and would be approximately $4,200,000 from the date of taking 
December 30, 1992, through March of this year. Slightly more interest 
would be added for any additional delay in finalizing this payment. The 
settlement would also reimburse the property owners $902,942 for legal 
fees and $352,697 in expenses and appraisal costs and other costs they 
incurred in making their claim for compensation. This is a total of 
$7,840,639.
    Question 3. Is S. 2073 retroactive and if so, how many other cases 
are out there that may be resurrected for settlement?
    Answer. Section C of S. 2073 provides:

          REVIEW OF CERTAIN CLAIMS--Notwithstanding any other provision 
        of law, the court in which the claim was originally filed shall 
        review on the merits, without regard to the defense of res 
        judicata or collateral estoppel, any claim that--
          (A) was brought against the United States, by the owner of 
        property that is subject to a railroad right-of-way and to 
        interim use described in paragraph (1) of section 8(d) of the 
        National Trails System Act, for damages sustained by reason of 
        such section 8(d);
          (B) was dismissed, before the date of the enactment of this 
        Act, for not being brought within the time period provided 
        under section 2401 or 2501 of title 28, United States Code; and
          (C) would have been considered to have been brought in a 
        timely manner if the amendments made by subsection (a) had been 
        in effect when the claim was brought, if the claimant applies 
        to the court for such review not later than 60 days after the 
        date of the enactment of this Act.

    This provision would specifically allow those landowners who had 
filed a timely claim prior to the Caldwell decision (timely being 
understood as filed within six years after the date of the Trail Use 
Agreement) to refile their claim if they do so within 60 days of this 
Act being enacted. In essence, this ``undoes'' the retroactive 
application of the ``new rule'' announced by the two-judge majority in 
Caldwell but only for those property owners who had actually filed a 
claim before Caldwell was decided.
    To my knowledge, this would allow only two other cases (other than 
Caldwell, which involved two landowners in Georgia, and Illig v. United 
States involving the 88 Missouri property owners) to make a claim for 
compensation. They are: Barclay v. United States, a case involving 25 
individuals and families that own rural property in Kansas and Renewal 
Body v. United States, a case involving a single landowner (a small 
family business) near Fresno California. The Barclay and Renewal Body 
cases were filed before Caldwell but had not yet reached a settlement 
or final determination of the value of the land taken for the trail.
    Question 4. How has the trail affected your land use and property 
value?
    Answer. Each of the Missouri land owners property has been affected 
differently by the taking of a portion of their land for Grant's Trail. 
The value of each land owner's property taken for the trail was 
determined by two appraisers. One appraiser was hired by the Justice 
Department and one hired by the property owners. Each property was 
appraised to determine the value of the land taken. In some cases the 
value of the land taken was only $1,000, as in the case of Mr. and Mrs. 
Overkamp's home. In other cases it was more significant. Some 
landowners with homes appraised as worth only $130,000 found that 
almost $13,000 of their home equity had been taken by the trail. Part 
of this is because of how close the trail ran to their home or how much 
of their yard was taken for the trail.
    In Sarah and my case, we have a modest three bedroom, two bathroom, 
slightly more than 2,000 square foot home. Our home was appraised by 
St. Louis County as worth $300,000. A significant part of our home's 
value was due to the fact that it sits on a double lot and--before the 
trail was created--we could divide our property and sell a lot if we 
needed to. However, because the trail took a 50 foot wide swath of our 
yard, we can no longer subdivide our home and have lost this additional 
value.
    Also, one of the features that Sarah and I most enjoy about our 
home is the quiet and secluded community where we live and a screened-
in sun porch on the south side of our home. The sun porch is one of our 
favorite rooms. Outside the sun porch and further to the south is the 
now abandoned Missouri Pacific Railroad right-of-way. We own the 
property over which the MoPac held an easement for this now abandoned 
rail line. The tracks themselves were just a single line located on the 
far side of the easement and they were infrequently used. Between the 
tracks and our home was a large, attractive hedge which gave us 
privacy.
    The County--which operates the trail--now claims the legal right to 
use the full 100 foot width of the original railroad easement, 
including the right to cut and remove all of the trees and other 
landscaping on this part of our land. There are now hundreds of people 
biking and walking through our property where we previously enjoyed a 
quiet and secluded home.
    However, the Trails Act did not just create a trail across our land 
but also created a new easement across our yard for a railroad or light 
rail to possibly be built over our property in the future. Under 
Missouri law we owned this land free of any easement for either a 
public access trail or a railroad. Now we have the possibility of a 
future railroad or light rail being built across our property. When the 
time comes when we sell our home, we will not be able to sell it for as 
much because 50 feet of our yard is now subject to this rail-trail 
easement.
    The Justice Department and their appraiser had agreed that this 
creation of a public trail and future railroad across our land had 
taken $72,065 in the value of our home from us.
    Another of the property owners that had joined the settlement is a 
community athletic association which sponsors baseball and other 
athletic activities for youth in our neighborhood. The creation of the 
trail across their land meant that they lost a significant portion of 
their land used for ball fields.
    Again, I want to emphasis that we do not oppose recreational trails 
or parks nor do we oppose the Trails Act. To the contrary recreational 
trails and parks are an important benefit to our community. It is just 
that, as in our case, when one citizens' land is taken so that the 
general public can enjoy a trail and a future railroad right-of-way is 
created, those citizens whose land is taken should be fairly 
compensated for their loss.
                                 ______
                                 
      Response of Lorelei Monsanto to Questions From Senator Burr
    Question 1. Land Lease from National park Service for Virgin 
Islands School (H.R. 53): How many other sites did the Virgin Island 
government consider for the proposed school and how was the National 
Park site selected?
    Question 2. Land Lease from National Park Service for Virgin 
Islands School (H.R. 53): How many children would attend the proposed 
school and where do they currently attend school?
    Answer. (See letter below)

                        Department of the Interior,
                                     National Park Service,
                                  St. John, VI, September 15, 2006.
Hon. Craig W. Barshinger,
Legislature of the Virgin Islands Senator at Large--26th Legislature, 
        1302 Cruz Bay, St. John, VI.
    Dear Senator Barshinger: I am in receipt of your letter requesting 
an update on the land exchange for a new public school on St. John.
    The Virgin Islands National Park (VINP) has identified a parcel of 
land that would be suitable for the proposed exchange. It would 
constitute approximately ten acres of Parcel No. 6, Estate 
Catherineberg. This location was selected for the following reasons:

    --not being part of the original Deed of Gift from Laurance 
            Rockefeller, it is not subject to the reversionary clause;
    --it is located approximately mid-island, favorable for 
            transporting students from both Cruz Bay and Coral Bay;
    --it is located on the boundary of the VINP, adjacent to other 
            development, lessening potential impacts to other park 
            resources;
    --it has less slope than most of St. John, making earth-change and 
            mitigation for environmental impacts easier;
    --it is located on Centerline Road, eliminating the need to 
            construct new roads; and
    --the location is not visible from the ocean, thus not further 
            degrading the St. John viewshed.

    With regards to the Virgin Island Government's (VIG) proposal to 
exchange certain offshore cays for this land there are several 
concerns. The first is that V1G owned cays within the boundaries of the 
VINP only comprise 3.02 acres (Booby Rock, Perkins Cay and Whistling 
Cay). Two other cays (Cinnamon Cay--1.03 acres and Waterlemon Cay--.74 
acres) are privately owned. I believe that there has been some 
discussion of other cays that are located outside of authorized park 
boundaries, but such an action would require a boundary expansion/
adjustment, a very lengthy process that involves Congressional action. 
In short, it would require the VIG to come up with significantly more 
land to exchange for what will undoubtedly be ten acres of very 
valuable VINP land.
    Moreover, any lands considered for the exchange will have to be 
appraised, as the NPS requires that any land exchanges be for lands of 
comparable value. As this action is being initiated at the VIG's 
request, the VIG will have to bear the cost of land surveys and 
appraisals. Likewise, an Environmental Impact Study will have to be 
prepared demonstrating that the development of a school at this site 
will have no negative impacts on any park resources. Also, before the 
NPS transfers any lands, a thorough archeological survey must be done 
to ensure that the NPS is not giving up and significant cultural 
resources.
    Of course, there will be many other details to be addressed before 
this becomes a reality, but these are some of the major issues and 
processes facing us right now.
            Sincerely,
                                             Art Frederick,
                                                    Superintendent.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Dr. William G. Cale, Jr., President, University of North 
                         Alabama, on H.R. 1483
    Mr. Chairman, and members of the National Parks Subcommittee: On 
behalf of the University of North Alabama (UNA), I am pleased to share 
our strong endorsement for creation by the federal government of the 
Muscle Shoals National Heritage Area.
    I am aware that the U.S. House of Representatives has approved this 
designation by passing H.R. 1483, the Omnibus Parks Bill that includes 
the Muscle Shoals National Heritage Area.
    UNA presently acts as the local coordinating entity for this 
project and we have been deeply involved with feasibility work. Through 
those efforts the advantages to this region have crystallized into a 
compelling case.
    Speaking now as a university president, I envision joint 
opportunities between the university and the proposed Muscle Shoals 
National Heritage Area that will enhance the region educationally, 
culturally, and economically. UNA is home to one of the few academic 
programs in the nation training future professionals in the music 
industry.
    The synergies that would emerge from a national designation for a 
heritage area that is already part of our curriculum are obvious and 
will serve to preserve, enrich, and build upon this musical history.
    We are proud to have a world-class Geography Department that will 
be able to assist in fulfilling a portion of the mission of this 
heritage area through sophisticated mapping and GIS technologies, 
helping us to preserve and better understand the unique history of the 
region.
    This region's history includes development along the Tennessee 
River after the advent of the TVA and Wilson Dam, and the westward 
expansion of the nation after the first railroad west of the Allegheny 
Mountains began here. The list of compelling attributes of the six-
county region is lengthy, and harkens to the Civil War, the Trail of 
Tears, and a very unique civil rights history that includes not only 
African Americans but also Native Americans.
    The designation of the Muscle Shoals National Heritage area is an 
important project to our region, and UNA looks forward to being a 
partner in its success.
                                 ______
                                 
                                 Appalachian Mountain Club,
                                                    April 23, 2008.
Hon. Daniel K. Akaka,
Chair, Subcommittee on National Parks, U.S. Senate, Washington, DC.
    Dear Mr. Chairman and Honorable Members of the Committee: On behalf 
of the Appalachian Mountain Club (AMC), we are pleased to submit our 
testimony in support of S. 923 and H.R. 1528 which would amend the 
National Trails System Act to designate the New England National Scenic 
Trail. In January, the House of Representatives approved the 
designation, and we look forward to expeditious Senate action to 
complete the legislative process on this regionally significant 
resource.
    Founded in 1876, the Appalachian Mountain Club is America's oldest 
nonprofit conservation and recreation organization. With 90,000 
members, AMC promotes the protection, enjoyment, and wise use of the 
mountains, rivers, and trails of the Appalachian region. AMC maintains 
over 1,700 miles of trail throughout the Northeast and our members 
contribute over 35,000 hours annually in volunteer trail stewardship.
    This 190-mile Metacomet-Monadnock-Mattabesett (MMM) trail system 
has been in existence for over 50 years, stretching through 39 
communities in Western Massachusetts and Central Connecticut. The New 
England National Scenic Trail Act would designate much of the MMM Trail 
System in Connecticut and Massachusetts as the New England National 
Scenic Trail.
    Nearly 2 million people live within 10 miles of the trail, which 
travels through some of the best examples of the classic New England 
landscape with stunning scenery and natural resources. At a time when 
Americans are becoming increasingly disconnected from nature, the trail 
provides a valuable outlet to experience the outdoor world. It provides 
grand vistas of mountains and rural towns, unfragmented forests and 
large river valleys, as well as being the setting for historic Native 
American and colonial landmarks, highlighting the unique landscape of 
the area. The trail system also crosses important and diverse 
ecosystems including traprock ridges, mountain summits, lakes, streams 
and waterfalls. However, recent changes in land use continue to alter 
the landscape of Southern New England, and portions of the trail are 
experiencing pressures that threaten its long-term viability.
    Recognizing this threat, and in partnership with the National Park 
Service and regional planning agencies, the AMC and a broad range of 
stakeholders took part in the federally-legislated feasibility study of 
the trail system with the main goal of determining the best way to 
protect the long term viability of the system from Long Island Sound 
through Massachusetts. The results of the study reflect substantial 
input and recommendations from a broad group of interests, including 
landowners and user groups. The study proposed a ``Trail Management 
Blueprint,'' and concluded that designation as a National Scenic Trail 
is the most feasible way to ensure the long-term viability of the 
trail, generate an increased level of attention, and ensure an 
organizing structure needed to focus resources on the trail by a wide 
array of trail partners. The study recommended route relocation and a 
trail extension to Long Island Sound that would make it approximately 
220 miles in length.
    The Berkshire Chapter of the Appalachian Mountain Club (AMC) is the 
steward of the trail in Massachusetts, and the Connecticut Forests and 
Parks Association is the steward of the trail system in Connecticut. 
The entire trail system is managed and maintained by volunteers 
primarily from these two organizations, and those efforts rely on the 
generosity and commitment of landowners who voluntarily allow the trail 
to cross their land. Under the proposed ``Blueprint for Management'' 
those local relationships will continue, and would be bolstered by the 
additional support, recognition, and resources for management and 
protection that National Scenic Trail designation would provide.
    The AMC is eager to continue our role as trail steward; however, 
key trail management and protection issues are rapidly growing beyond 
the capacity of volunteers to manage. Therefore, we urge the Senate to 
approve designation of the trail system as the New England National 
Scenic Trail as the best opportunity to protect this valuable regional 
resource from additional threats of trail corridor fragmentation, to 
provide an opportunity to address landowner issues through the 
Management Blueprint, to provide an opportunity to receive federal 
funding for trail management and protection, and to bring together 
trail partners and communities through creation of a Trail Stewardship 
Council.
    We support this legislation because of our longstanding commitment 
to providing outdoor recreational opportunities and experiences to a 
wide range of people, involving children and families in outdoor 
activities, encouraging at-risk youth to learn about and experience 
wild areas, and educating our members and the general public about the 
values of conservation and wilderness.
    Thank you for the opportunity to comment on this important 
legislation.

                                             Heather Clish,
                                         Appalachian Mountain Club.
                                          Patrick Fletcher,
                                      Chair, AMC Berkshire Chapter.
                                 ______
                                 
                     Connecticut Forest & Park Association,
                                                    April 22, 2008.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, Energy and Natural Resources 
        Committee Office, Washington, DC.
Re:New England National Scenic Trail Designation Act S. 923 and H.R. 
1528

    Dear Chairman Akaka, Senator Burr, and Honorable Members of the 
Subcommittee on National Parks: As Executive Director of the 
Connecticut Forest & Park Association, it is my distinct pleasure to 
offer our organization's strong support for the New England National 
Scenic Trail Designation Act, S. 923 and H.R. 1528. The New England 
National Scenic Trail Designation Act enjoys great public support in 
the State of Connecticut, where more than half of the subject trail is 
located. Both Senator Lieberman and Senator Dodd have co-sponsored S. 
923, and all Connecticut Representatives have co-sponsored H.R. 1528.
    The New England National Scenic Trail Designation Act would 
designate the Mattabesett and Metacomet Trails in Connecticut and the 
Metacomet-Monadnock Trail in Massachusetts as the nation's ninth 
National Scenic Trail. The Connecticut Forest & Park Association 
established and maintains the Metacomet and Mattabesett Trails in 
Connecticut. The trails are part of the Association's 800-mile Blue-
Blazed Hiking Trail System in Connecticut and have been maintained 
continuously by Association volunteers since 1931. The trails exist 
through the generosity of civic-minded landowners, both public and 
private, and the dedication and hard work of Association volunteers.
    The Metacomet and Mattabesett Trails traverse the scenic trap-rock 
ridges of central Connecticut. These ridges are sheer expanses of 
basalt, a volcanic rock that emerged from the earth as great sheets of 
magma eons ago. The magma cooled into a series of ridges collectively 
known as the Metacomet Ridge, running generally from Suffield, 
Connecticut south to Guilford. Atop these ridges run the Metacomet and 
Mattabesett Trails, and from certain vantage points the hiker can see 
Long Island Sound to his left and Mt. Tom in Massachusetts to his 
right--clear across the State of Connecticut. Though beautiful and 
historic, the trails exist largely without formal protection and with 
limited conservation ownership. The Connecticut Forest & Park 
Association believes that National Scenic Trail designation will 
greatly improve the prospects for the long-term conservation of these 
trails.
    The Association supported Congressman John Olver's original, 2001 
legislation that authorized the National Park Service to study the 
feasibility of designating these trails as a National Scenic Trail. 
During the study, we entered into a cooperative agreement with the 
National Park Service and helped complete much of the research needed 
in Connecticut. Association Board members, staff and volunteers 
actively participated in the Steering Committee that guided the 
National Park Service through the study period.
    Much good came of simply conducting the study. We identified and 
communicated with all the landowners on or within 250 feet of the 
trails. We created a GIS database that depicts the trail and the 
properties that it crosses, thus allowing us to quickly identify trail 
landowners and possible alternative routes should a trail need to be 
moved. We communicated with towns up and down the trail, and in some 
cases were able to have consideration for the trails included in the 
town's plan of conservation and development. We moved the trail off of 
several properties when landowners indicated to us that they did not 
desire the trail on their lands, and also conserved several sections of 
the trail when opportunities arose.
    We believe that designation of these beautiful, historic, open-to-
the-public footpaths as the New England National Scenic Trail will be 
most beneficial and will truly enhance the long-term viability of these 
trails. On May 15, 2007, I testified in support of H.R. 1528 before the 
House Subcommittee on National Parks, Forests and Public Lands, and I 
incorporate my testimony on that date into this letter via this 
reference: http://resourcescommittee.house.gov/images/Documents/
20070515/testimony--moore.pdf. Importantly, National Scenic Trail 
designation will not change the fundamental nature of the trail: a 
footpath that exists at the good will of the landowner and that is 
maintained by volunteer organizations, the Connecticut Forest & Park 
Association and the Appalachian Mountain Club. Critically, the New 
England National Scenic Trail Designation Act ensures that federal 
condemnation of land will not be used for protection of the trail.
    We believe that National Scenic Trail designation will greatly 
enhance the opportunities for the conservation of trail properties 
though willing seller transactions. Designation will also bring 
opportunities for better funding for trail stewardship, including such 
items as improved mapping, signage, trailhead parking, volunteer 
support and the like. Through the ``Management Blueprint'' created 
during the feasibility study and the study's proposed Stewardship 
Council, communications and relationships with landowners will be 
strengthened and improved and partnerships will be created between 
trail-maintaining organizations, towns, conservation organizations and 
businesses.
    National Scenic Trail designation is made possible under the 
authority of the National Trails System Act. The primary goal of the 
National Trails System Act is that ``trails should be established 
primarily near the urban areas of the Nation.'' We note that over two 
million people live within ten miles of this trail system. With two 
million people within ten miles of this extraordinary trail, traversing 
the scenic trap-rock ridges of Connecticut and Massachusetts, we 
believe that a New England National Scenic Trail clearly achieves the 
primary goal of the National Trails System Act, and does so strikingly.
    In conclusion, the Connecticut Forest & Park Association urges you 
to act favorably upon the New England National Scenic Trail Designation 
Act. H.R. 1528 was passed by the U.S. House of Representatives on 
January 29, 2008, and we eagerly await passage by the United States 
Senate. The Association would be pleased to provide the Subcommittee on 
National Parks with any additional information needed. Thank you very 
much for your consideration of this bill and thank you for the 
opportunity to submit testimony.
            Respectfully submitted,
                                             Adam R. Moore,
                                                Executive Director.
                                 ______
                                 
Statement of Elise Russell, Legislative Representative, National Parks 
                  Conservation Association, on H.R. 53
    national parks group says virgin islands national park must be 
           protected from unnecessary development on parkland
Group Urges Virgin Islands Government to Explore All Options Before 
        Exploiting Parkland
    ``The Senate Committee on Energy and Natural Resources, National 
Parks Subcommittee, will today hold a hearing to consider a bill (H.R. 
53) that would allow the Secretary of the Interior to enter into a 
long-term lease with the Territorial Government of the Virgin Islands 
for purposes of establishing a school, compromising the historic 
preservation of Virgin Islands National Park. The bill has passed in 
the U.S. House of Representatives.
    Development of a school on Virgin Islands National Park land is 
inconsistent with the purpose of the park. We recognize the need for 
new educational facilities in the Virgin Islands, however we strongly 
encourage the Virgin Islands government to explore all options, and 
undergo a full analysis of alternate sites, before exploiting our 
national park land.
    We are particularly concerned with the language in the bill that 
would authorize the lease of the National Park Service land for not 
only the establishment of a school, but also for ``other purposes.'' 
This would threaten park resources, and potentially give unlimited 
latitude for the Virgin Islands government to use the land in ways that 
are inconsistent with the mission and protection of the park.
    Only after exhausting the possibility of acquiring other suitable 
lands, should national park land ever be considered. If an exhaustive 
search of alternative sites bears no fruit, we would be open to a 
potential land exchange of equal value between the Park Service and the 
Virgin Islands government, but only ten acres in size and only for the 
purpose of building a school.
    Taking care of the places that honor our past and continue to 
inspire our future requires that these places be protected and 
preserved, not developed, for the enjoyment of future generations.''
                                 ______
                                 
                                      St. John, VI, April 22, 2008.
Committee on Energy and Natural Resources,
U.S. Senate, Washington, DC.
Re: H.R. 53

    Dear Committee Members, we wish to express complete opposition to 
passage of H.R. 53 that would permit the National Park Service to lease 
land within the Virgin Islands National Park to the Virgin Islands 
government, which wants to use the land to build a mid-island school on 
St. John.
    The reasons this idea is ill advised at this time include:

  <bullet> The business model for the new school assumes that ALL 
        future students that traditionally attend the private, 
        parochial, and public schools on St. John and St. Thomas would 
        drop out of those schools to attend the new St. John mid-island 
        school. This assumption is unrealistic, and an independent 
        survey of all St. John households with children to justify this 
        claim has not been conducted.
  <bullet> The VI government's dismal record of managing its current 
        financial crisis would only become worse from the added debt of 
        building and maintaining a new St. John school with a flawed 
        business model.
  <bullet> The new school operating and on-going maintenance budgets 
        have not been disclosed in any formal document to all St. John 
        property owners that pay property taxes to support the VI 
        public school system. An independently audited review of the 
        proposed new school's complete financial model, with 
        assumptions, has not been provided to all St. John property 
        owners whose property taxes are being increased upwards of 500% 
        without any formal, documentable appeal process.
  <bullet> Not all St. John parents with school age children are in 
        favor of, or believe, a new mid-island school is needed. 
        Parents of elementary students are not all in favor of their 
        children being bused up the hill, rather than walking to their 
        local schools, Guy Benjamin or Julius E. Sprauve. Many St. John 
        parents also express their children's perspective that they 
        want to attend high school on St. Thomas because of the 
        diversity and opportunity to meet, interact and make a new set 
        of friends.
            Sincerely,
                                           Philip Sheridan,
                                             Jane Sheridan.
                                 ______
                                 
  Statement of Robert H. Swenson, Associate Professor and Architect, 
        Southern Illinois University, Carbondale, IL, on S. 956
    I am pleased to submit testimony in support of Senate Bill S. 956--
Establishment of The Land between the Rivers National Heritage Area in 
the State of Illinois. My name is Robert Swenson and I was born in 
Rosiclare, Illinois and raised in Metropolis, Illinois, both on the 
lower Ohio River. I obtained my undergraduate degree from Southern 
Illinois University in 1965 and my professional degree in Architecture 
at Yale University in 1969. I have been a licensed, practicing 
architect in Illinois for 34 years and am now an Associate Professor in 
the School of Architecture at Southern Illinois University at 
Carbondale. I especially appreciate this opportunity to represent our 
university and the people of southernmost Illinois who reside within 
the seventeen counties included in this National Heritage Area proposal 
and to share my experiences as a design professional, researcher, 
teacher, and native of this region to illustrate why I wholeheartedly 
support this proposal.
    National Park Service staff have indicated that a National Heritage 
Area region should include a ``cohesive, nationally distinctive 
landscape'' which is unified around ``one nationally important story 
that sets it aside from all other areas'' with ``boundaries that are 
well defined'' and with clearly described ``contributing components.'' 
An SIU-Carbondale team is in the process of improving its original 
LBRNHA Feasibility Study submission in order to clearly demonstrate 
that the proposed national heritage area meets the criteria for 
designation, and to create the appropriate management organization to 
interface effectively with the National Park Service--National Heritage 
Area staff, others within the SIUC community, and our own regional 
heritage, educational, tourism, and economic development agencies and 
organizations to manage our National Heritage Area.
    One--Cohesive, nationally distinctive landscape--To respond to the 
first of the National Park Service requirements, the southernmost 
Illinois ``Land between the Rivers'' is truly a cohesive nationally 
distinctive landscape defined by, and contained within, the edges of 
the Wabash, the lower Ohio, and the Mississippi rivers and the prairies 
on the north--all at the confluence of remarkable geological and 
biological diversity where the woodlands and the glacier's edge rock-
outcrops meet the upper Delta. Home of the Shawnee National Forest with 
its Garden of the Gods, the Crab Orchard National Wildlife Refuge, and 
the Cypress Creek National Wildlife Refuge with its Cache River and 
Heron Pond, when you are in ``Little Egypt,'' you know where you are 
and that it is a special place. This land had abundant wildlife for 
food; trees for fuel, buildings, steamboats & furniture; salt, iron 
ore, coal, and building stone; fruit trees, fertile valleys and 
prairies for starting farms and growing crops; natural beauty and 
diversity: plus a climate allowing one to survive the four seasons--and 
all adjacent to water and the river highways.
    Two--One nationally important story that sets it aside from all 
other areas--The ``Land between the Rivers'' story is complex in that 
it represents several centuries and numerous events and not, as is 
often the case, a short period of time and a single event or person. 
Our story is, simply: Had it not been for both the strategic location 
between the two largest rivers in North America and the timber, coal, 
and mineral resources of this region, the United States probably would 
be a very different size and place today. Eight stories in particular 
stand out that make this point clear: 1) the Kincaid Mounds pre-history 
site, considered to be one of the ten most important archaeological 
sites in the nation; 2) Three European nations coming from three 
directions on the rivers competed for this place; 3) George Rogers 
Clark secured the Northwest Territory from the British to control both 
rivers; 4) Aaron Burr and General James Wilkinson were NOT successful 
with their plans to divide the country and start a new nation; 5) Lewis 
and Clark acquired Indian scout George Druillard and other volunteers 
at Fort Massac for the Corps of Discovery and taught each other mapping 
and celestial observation skills beginning at the confluence of the 
Ohio and Mississippi Rivers; 6) General Ulysses S. Grant and Admiral 
David Porter together created the joint Army-Navy strategy using 
ironclad gunboats and riverboat troop ships to divide the South; 7) the 
rivers themselves both became the interstate highways for a developing 
nation (and continue so today); and 8) the timber and coal and 
fluorspar resources in this land that fueled both the steamboats and 
the railroads continue to power the steam and nuclear power plants of 
our nation today.
    Three--Boundaries that are well defined--The Land between the 
Rivers boundaries are clear along three edges--the Wabash on the east, 
the Ohio on the South, and the Mississippi on the west--and not quite 
so clear visually on the north. The people who live here know when they 
are in Little Egypt or the Land between the Rivers, as going north out 
of the area is where the forests, coal mines, and rivers seem to stop 
and the prairies to the north begin. The Continental Congress 
understood these boundaries when it set aside the land in this region 
as ``Army'' land from the rivers north to an east-west line through 
Vincennes, Indiana on the Wabash for surviving Revolutionary War 
soldiers. The major contributing components are summarized above and 
described in greater detail along with other contributing components in 
the attachments.
    Four--Contributing components--Our story is extraordinary, complex, 
and on-going, primarily as the result of both its strategic location at 
the intersection of the two largest rivers in North America at the 
middle of this developing country and because of the numerous qualities 
unique to this landscape and resources that supported the people who 
came through here, and/or stayed here, or returned to this place. The 
United States could have been much smaller and/or different than we 
know it now because of what happened in this Land between the Rivers. A 
short list of additional people, places, and events includes:

  <bullet> The pre-history portion of the ``Land at the Confluence 
        between the Rivers'' story began with native Americans from the 
        south, the east, the north, and the west establishing ``Mound'' 
        cities at numerous sites along the lower Ohio and the 
        Mississippi, the largest being Kincaid Mounds in Massac County, 
        and in building upland communities on ridge tops, shelter 
        bluffs, and caves as well, evident in rock art throughout the 
        region.
  <bullet> The first Europeans arrived in the 1600s with the French 
        explorers Marquette and Joliet, followed by the hunters, 
        trappers, Jesuit priests, businessmen, and military who 
        established the Kaskaskia trading community on the Mississippi 
        in 1700 (later to become the headquarters for the Northwest 
        Territory and eventually the first capital of the future State 
        of Illinois) and a tannery on the lower Ohio at the Grand Chain 
        of Rocks which, with a military contingent, also controlled the 
        river to prevent the British from coming downriver and the 
        Spanish from coming upriver.
  <bullet> The French continued their presence by establishing Fort 
        Massiac on the lower Ohio in 1756 and Fort de Chartres on the 
        Mississippi, both later captured by the British ``Black Watch'' 
        and eventually by the Americans at the time of the Revolution.
  <bullet> George Rogers Clark and the Kentucky ``Longknives'' marched 
        through southernmost Illinois from Fort Massac on the Ohio to 
        capture Kaskaskia and Fort deChartres on the Mississippi from 
        the French.
  <bullet> At Alexander Hamilton's direction, General James Wilkinson 
        established Cantonment WilkinsonVille at Grand Chain on the 
        lower Ohio during the ``Quasi-War'' episode with France where 
        it looked as if the United States was going to need troops in 
        the lower Ohio Valley to attack New Orleans in the event of 
        war.
  <bullet> Fort Massac figured into the unsuccessful Aaron Burr 
        Conspiracy with the same General Wilkinson to create another 
        nation west of the Mississippi.
  <bullet> Pierre Menard established the French presence at Kaskaskia 
        and Prairie du Rocher.
  <bullet> Lewis and Clark recruited a critical group of men at Fort 
        Massac and Kaskaskia for their expedition and taught each other 
        celestial observation and surveying to successfully verify the 
        coordinates of the confluence of the Ohio with the Mississippi 
        Rivers and created the first map of the expedition of the 
        confluence as requested by President Jefferson.
  <bullet> Shawneetown on the lower Ohio became established in the 
        early 1800s as one of the earliest entry points into Illinois 
        country, became the home of the first bank and land office in 
        Illinois in 1818, was visited by Revolutionary War hero Marquis 
        de Lafayette in 1825, and is the site of the Greek Revival 
        Shawneetown Bank listed on the National Register of Historic 
        Places.
  <bullet> The circa 1800 Flatboat ``America'' recently found, 
        excavated, and documented near the town of America on the lower 
        Ohio is the only flatboat ever found and recorded from the 
        thousands that traveled the rivers.
  <bullet> Escaping slaves from the south were able to cross the lower 
        Ohio from the Tennessee and Cumberland Rivers into Massac 
        County or move through Cairo from the Mississippi with the 
        assistance of ``free Black'' farmers and liberal whites.
  <bullet> The Bank of London was un-successful in the late 1830s with 
        their City of Cairo planning and real estate venture designed 
        by nationally known Philadelphia architect William Strickland.
  <bullet> The 1830s Thebes Court House on the Mississippi River, site 
        of one of the earliest HABS-Historic American Building Survey 
        projects in in the 1930s during the Depression, held Dred Scott 
        in jail for one night after his unfavorable Supreme Court 
        decision.
  <bullet> Over 15,000 Cherokee Indians were escorted through 
        southernmost Illinois on the ``Trail of Tears'' by the U.S. 
        military led by Winfield Scott during the winter of 1838 with 
        the tragic loss of many lives. Many escaped and were provided 
        protection resulting in numerous families with a mixed Black 
        and White ancestry now represented in numerous marked and 
        unmarked graves in southernmost Illinois cemeteries.
  <bullet> Abraham Lincoln was familiar with the region when he worked 
        the ``Broadhorn'' flatboats on the Ohio and Mississippi Rivers, 
        later represented the Illinois Central Railroad's development 
        through the region, and debated Stephen A. Douglas at 
        Jonesboro, an event recently commemorated with life-size 
        statues.
  <bullet> General Ulysses S. Grant successfully maintained control of 
        the Ohio and Mississippi Rivers at Fort Defiance at Cairo and 
        with Admiral Porter developed the strategies to divide the 
        south using the army and the navy.
  <bullet> The U.S. Navy successfully sent ironclad gunboats built at 
        Mound City down through the Confederacy using the lower Ohio 
        River to enter the Tennessee, Cumberland, and Mississippi 
        Rivers, effectively dividing the south.
  <bullet> U.S. Navy hospital ships with their African-American nurses 
        on-board brought the wounded from both armies back to the 
        military hospital at Mound City on the same rivers opened up by 
        the gunboats. The National Cemetery at Mound City contains the 
        remains of Civil War participant from the North and the South, 
        including ``Colored Troops''.
  <bullet> Established near Fort Massac, the City of Metropolis 
        developed its economy based on the building of steamboats, 
        wagon components, furniture, leather gloves, stoves, mussel 
        shell buttons, and access to both the river and the rail lines.
  <bullet> Two of the largest steel truss railroad bridges in America 
        were constructed at Cairo and Metropolis connecting the Great 
        Lakes and New Orleans, and the enormous ``dual-rail'' bridge at 
        Thebes built in 1901 is still carrying major rail traffic from 
        the Southwestern to the Northeastern United States.
  <bullet> History related to the devastating 1937 Ohio River Flood and 
        the 1993 Mississippi River Flood.
  <bullet> Cairo at the confluence--an icon city known throughout the 
        world, which in many ways represents the economic and social 
        history of the entire region where the steamboats and railroads 
        and Blacks and Whites and rich and poor met to decide what to 
        do next in America. Cairo was the place where African-Americans 
        riding trains or buses north could sit anywhere but if 
        traveling south could only sit only in designated seating. The 
        first National Register Historic District in Illinois was 
        established in Cairo with numerous significant National 
        Register structures. The U.S. Custom House designed in 1869 by 
        A.B. Mullet, architect for the U. S. Treasury continues in use 
        today as a Museum of southern Illinois heritage.
  <bullet> Many more that could be included that are referenced in the 
        attachment to this testimony. Our nation has many important 
        places with some of these attributes, but few with this many, 
        with such significance, and especially so accessible to 
        historians and tourists located in the center of mid-America. 
        The major contributing components are summarized above and 
        described in greater detail along with other contributing 
        components in the attachments.

    Management Entity: The exact role, function, and administrative 
group to become the Management Entity is yet to be defined, but it will 
be an entity under the direct supervision of the Southern Illinois 
University ``system'' President Glenn Poshard and will include 
interdisciplinary faculty and staff from throughout the university 
supported by an advisory group representing all the various 
stakeholders throughout the Land between the Rivers National Heritage 
Area region. Members of the Advisory group will undoubtedly come from 
same group of volunteers from throughout the region who tirelessly met 
on many occasions to guide and assist the staff of the Office of 
Economic and Regional Development that prepared the original 
Feasibility Study.
    With assistance and guidance by National Heritage Area staff 
representing the National Park Service, the Management Entity will 
carefully create and submit a ``Management Plan'' that includes the 
following:

  <bullet> Description of comprehensive policies, goals, strategies, 
        and recommendations for telling the story of the area.
  <bullet> Specify existing and potential sources of funding and 
        economic development strategies to protect, enhance, and 
        interpret the area.
  <bullet> Describe actions and commitments that governments, private 
        organizations, and citizens will take to protect, manage, and 
        develop resources of the heritage area.

    This testimony and the attached Additional Testimony* share both 
review input and extensively edited writings borrowed from two of my 
interdisciplinary colleagues: Mark Wagner, Staff Archaeologist with the 
SIUC Center for Archaeological Investigations, who has hands-on 
experience and has written extensively in professional journals about 
his findings; and David Koch, Emeritus Director of the SIUC Morris 
Library Special Collections Research Center, who I worked closely with 
as co-director of the SIUC-Library of Congress funded ``Lewis & Clark 
in Southernmost Illinois'' research project and who continues to 
advocate for the protection and development of this Land between The 
Rivers National Heritage Area.
---------------------------------------------------------------------------
    * Additional testimony has been retained in subcommittee files.
---------------------------------------------------------------------------
    I wish to thank Senator Durbin and Senator Obama, and their staffs 
for taking the initiative in sponsoring this Bill and for SIU President 
Glenn Poshard and his staff for stepping forward to provide the people 
and resources necessary to provide professional management for this 
National Heritage Area.
                                 ______
                                 
      Supplemental Statement of Gale Illig, Grantwood Village, MO
    Background.--On April 23, the United States Senate Energy 
Committee, Subcommittee on National Parks held hearings on S. 2073 
sponsored by Senator McCaskill and co-Sponsored by Senator Bond. Daniel 
N. Wenk, Deputy Director, National Park Service, U.S. Department of 
Interior testified on behalf of the Administration in opposition to S. 
2073. Deputy Director Wenk presented his own statement in opposition 
and also incorporated the Department of Justice's letter of former 
Assistant Attorney General William E. Moschella sent on August 1, 2006 
to Congressmen Devin Nunes, then Chairman of the U.S. House Committee 
on Natural Resources, Subcommittee on National Parks opposing similar 
legislation in the House.
 statement of daniel n. wenk, deputy director, national park service, 
              u.s. department of interior--april 23, 2008
          (1) ``As a result of the Caldwell and Barclay decisions, no 
        confusion remains in the law regarding accrual of rails-to-
        trails takings claims [occurring when a NITU is issued].''

    While Deputy Director Wenk was telling the Senate that the 
Department of Justice's position is that the law after Caldwell and 
Barclay is settled and that a landowner has a taking claim when a NITU 
is issued, even before any Trail Use Agreement is reached. However, 
Justice Department lawyers are arguing in federal court the precise 
opposite. Specifically, the Department of Justice is now trying to 
escape paying ``just compensation'' in Trails Act taking cases by 
arguing that no physical taking claim arises when the NITU is issued, 
but that a taking claim can only be brought after a Trail Use Agreement 
is reached and the land is actually converted to trail use and a trail 
physically built on the land.
DOJ Statement May 1, 2008 In Response to Interrogatories in Ladd v. 
        United States, No. 07-271 (a Trails Act taking case in which 
        the NITU has been issued but no Trail Use Agreement has yet 
        been reached)
    Here, no trail use agreement was reached, and the negotiation 
period has ended. We believe that the legal effect of the [NITU], in 
that circumstance, is an issue of first impression for this Court.
    How you evaluate whether there is a taking, we believe, would be 
evaluated differently in a circumstance where the trail use agreement 
is never reached. There is no physical occupation by a recreational 
trail here.
    The Plaintiffs have grounded their claims in a particular Notice of 
Interim Trail Use, dated July 26, 2006 . . . .Here, Plaintiffs have 
argued that, by operation of the Trails Act, there is a Notice of 
Interim Trail Use that took their property, and that particular Notice 
of Interim Trail Use set a particular period of time in which to 
negotiate a trail use agreement, and that time has passed. There is no 
trail use agreement, so there can be no permanent taking.
    Here, there is no physical occupation by the government. What's 
going on on the ground during that negotiation period is the same as 
what had been going on prior to the negotiation period. What 
essentially it is, is a moratorium in which you can negotiate potential 
trail use for the future. In this situation, no trail use agreement was 
reached, and so it defaults back to the normal regulatory process that 
would occur.
    [W]e believe there are no permanent taking claims . . . [w]e 
believe that what temporary claims there are should be evaluated as 
regulatory [and not as a physical taking claim].
DOJ Statement at the February 14, 2008 status conference in Pankratz v. 
        United States, No. 07-675 (a case in which the NITU has been 
        issued and a Trail Use Agreement has been reached)
    In the current situation, [the trail operator] hasn't established 
any kind of trail, so there hasn't been any kind of physical occupation 
of that corridor. So it could be a matter that we're dealing with a 
regulatory taking [and not a physical taking].
    At this point even without the revocation [of the NITU and Trail 
Use Agreement] there is only a regulatory act. There is no physical 
invasion. So even right now I think we have an argument that there is 
at most a regulatory claim, not a physical [taking] claim.
statement of assistant attorney general william e. moschella in letter 
  to u.s. house resource subcommittee chairman, devin numes august 1, 
         2006--referenced in testimony of deputy director wenk
          (1) ``We share this commitment [to ensuring that individuals 
        whose property may have been taken by government action] have 
        an opportunity to present their claims in the Federal courts.''

    In a currently pending case, Rogers v. United States, the 
Department of Justice has sought six months of additional time to 
engage in extensive discovery seeking a ``harsh, consequence'' in order 
to defeat the landowners' claims by finding a ``chain of title ensuing 
from a forged or `wild' deed.'' (Defendant's Memorandum in Support of 
Defendant's Motion for Relief Pursuant to RCFC 56(f) filed in Rogers v. 
United States, No. 07-273). The Department of Justice expends very 
considerable resources disputing landowner's right to compensation. 
Indeed, dramatically disproportionate resources to the value of the 
claim. In Grantwood Village v. U.S., the Court of Federal Claims 
ordered the Department of Justice to reimburse the landowner almost 
$300,000 in legal fees for a dispute over land that was worth $19,000. 
Nels Ackerson, counsel for property owners' testified before the House 
Judiciary Committee in the June 20, 2004 hearing, ``Litigation and its 
Effect on the Rail-to-Trail Program.''

          Both taxpayers and land owners are paying far too great a 
        price for lawsuits when land has been taken by the Federal 
        Government for trails. One of the Justice Department's own 
        attorneys has written that in this area of the Fifth Amendment, 
        it appears to protect only wealthy land owners. The process 
        cries out for justice and common sense.
          The Department of Justice, having the benefit of very little 
        guidance from Congress, has adopted practices that I consider 
        to be unrestrained litigation, uncontrolled expenditures, and 
        unending disputes with land owners whose property has been 
        taken for trails. Congress has established no procedures to 
        rein in this inefficient process that is unfair to land owners 
        and taxpayers alike.
          The Department of Justice has compounded the cost and 
        inefficiency of this poorly conceived process by aggressively 
        litigating every issue with every land owner, sometimes over 
        and over again, and sometimes the same issue several times in 
        the same litigation. Since the Government ultimately must pay 
        the land owners' attorneys' fees, as well as the Justice 
        Department's own fees and costs, everybody loses by this 
        prolonged litigation.
          An example of this wasteful process is the litigation 
        involving Paul and Patricia Preseault . . . .On May 22nd of 
        20002 . . . some 16 years after that original take, and after 
        prolonged litigation-the Court of Federal Claims ordered the 
        Government to pay the Preseaults $234,000, plus interest, from 
        1986, for a total of approximately $552,000, for the value of 
        the land taken. And in addition, the Government must reimburse 
        Mr. and Mrs. Preseault's reasonable attorneys' fees of 
        $894,855.60. The United States will write a check for more than 
        $1,446,000. In addition, the Government's lawyers have expended 
        time and costs that appear to be nearly the same amount as the 
        Preseault's attorneys' fees. So the total cost to the 
        Government may be more than $2,500,000, for the quarter-mile 
        trail.

    In other cases such as Hash v. United States, 99-324-S-MHW, the 
Justice Department continues to litigate and re-litigate issues even 
after the Government's liability has been decided. This represents a 
substantial expense to taxpayers and frustrates landowner's right to 
compensation. This is also a practice that is contrary to the statement 
that the Department of Justice seeks to allow deserving landowners to 
present their claims for compensation.

          (2) ``In Plaut v. Spendthrift Farm, Inc. 514 U.S. 211 (1995), 
        the Supreme Court struck down a similar provision [to the one 
        in S. 2073], one that changed the applicable limitations period 
        in securities cases and allowed cases dismissed under the old 
        limitations period to be reinstated under the new period.''

    Plaut has no bearing on S. 2073. The Plaut case concerned the 
government's ability to change the statute of limitations period in 
claims between private parties. S. 2073 concerns the ability of 
Congress to change the statute of limitations period for claims against 
the federal government itself. Plaut involved a totally different 
issue. The Supreme Court itself expressly acknowledged that Congress 
possess this authority to change the statute of limitations for claims 
against itself. See United States v. Sioux Nation, 448 U.S. 371 (1980). 
Congress routinely does precisely this with private relief bills and 
other legislation establishing the limitations period for claims 
against the federal government.

          (3) ``We believe Caldwell and Barclay were correctly decided. 
        Indeed, the United States advocated in favor of using NITU 
        issuance as the accrual event in both cases.''

    The Justice Department argued before the Court of Appeals for the 
Federal Circuit that the claim accrual date for a Trails Act taking 
should be the date of the Trail Use Agreement, not the date of the 
NITU.

          On appeal, the United States argued that the trial court held 
        correctly that Caldwell's claim accrued when the railroad and 
        the City reached a trail use agreement. Caldwell v. United 
        States, 391 F.3d 1226 (Fed. Cir. 2005).
          The [trial court] held correctly that Caldwell's taking claim 
        accrued when the [trail operator] and [railroad] reached a 
        trail use agreement. In this case, the government's liability 
        (if a taking occurred) was fixed when the [trail operator] and 
        [railroad] entered into a trail use agreement, not when the ICC 
        issued the NITU and not when the deed to the corridor changed 
        hands. (Government's appellate brief in Caldwell v. United 
        States, 391 F.3d 1226 (Fed. Cir. 2005)).

          (4) ``Courts have been clear that only Federal Action should 
        trigger a takings claim against the United States. Here, the 
        issuance of the NITU is the only relevant Federal action in 
        Trails Act takings cases. Thus, we believe a contrary 
        approach--such as found in H.R. 4581--would be unnecessary and 
        inconsistent with long standing principles.''

    Prior to Caldwell the Department of Justice--and the Court of 
Federal Claims-consistently held that a Trails Act taking occurred only 
upon both a NITU and a Trail Use Agreement. See Glosemeyer v. United 
States, 45 Fed. Cl. 771 (2000), Grantwood Village v. United States, 95 
F.3d 654 (1996), and Moore v. United States, 63 Fed.Cl. 781 (2005). 
Indeed, Moore was finally resolved after Caldwell and the Department of 
Justice still resolved that case with the date of taking being the date 
of the Trail Use Agreement, not the NITU. See Moore, 63 Fed.Cl. 781.
    After Caldwell, the Department of Justice continues to argue that a 
physical taking has not occurred until both a NITU is issued and either 
a Trail Use Agreement is reached and/or a trail is physically 
constructed on the land.

          How you evaluate whether there is a taking, we believe, would 
        be evaluated differently in a circumstance where the trail use 
        agreement is never reached. There is no physical occupation by 
        a recreational trail here. (DOJ Statement at the February 14, 
        2008 status conference in Ladd v. United States, No. 07-271).
          The Plaintiffs have grounded their claims in a particular 
        Notice of Interim Trail Use, dated July 26, 2006 . . . .It is 
        true that, in the future, there could be another Notice of 
        Interim Trail Use that would be issued, but the fact that the 
        STB has jurisdiction, that can't be enough to me that there is 
        a permanent taking . . . .Here, Plaintiffs have argued that, by 
        operation of the Trails Act, there is a Notice of Interim Trail 
        Use that took their property, and that particular Notice of 
        Interim Trail Use set a particular period of time in which to 
        negotiate a trail use agreement, and that time has passed. 
        There is no trail use agreement, so there can be no permanent 
        taking. (DOJ Testimony at the February 14, 2008 status 
        conference in Ladd v. United States, No. 07-271).
          Here, there is no physical occupation by the government. 
        What's going on on the ground during that negotiation period is 
        the same as what had been going on prior to the negotiation 
        period. What essentially it is, is a moratorium in which you 
        can negotiate potential trail use for the future. In this 
        situation, no trail use agreement was reached, and so it 
        defaults back to the normal regulatory process that would 
        occur. Id.
          In the current situation, [the trail operator] hasn't 
        established any kind of trail, so there hasn't been any kind of 
        physical occupation of that corridor. So it could be a matter 
        that we're dealing with a regulatory taking. (DOJ Testimony at 
        the February 14, 2008 status conference in Pankratz v. United 
        States, No. 07-675).

    On the very day that the Department of Justice backed out of the 
settlement agreement with the Illig land owners because the Justice 
Department now contended that the date of taking occurred on the 
earlier NITU date, the Department of Justice settled another Trails Act 
taking case by claiming that the taking occurred on the date of the 
Trail Use Agreement. Doing so allowed the Department of Justice to 
avoid paying these landowners interest for the period between the NITU 
and the Trail Use Agreement. See Moore, 63 Fed.Cl. 781.

          (5) ``We are unaware of any court decision that has 
        established an accrual test similar to the one proposed in H.R. 
        4581 [and S. 2073 as the date of the Trail Use Agreement].''

    The Justice Department is not only aware of a number of cases using 
exactly the claim accrual test specified in S. 2073, the Justice 
Department has been party to and agreed to the settlement of a number 
of cases with the accrual date being the date of the Trail Use 
Agreement.--Precisely the ``accrual test'' specified by S. 2073. See 
Glosemeyer v. United States, 45 Fed. Cl. 771 (2000), Grantwood Village 
v. United States, 95 F.3d 654 (1996), and Moore v. United States, 63 
Fed.Cl. 781 (2005).

          (6) Using the Trail Use Agreement as the date for claim 
        accrual as specified in S. 2073 ``would likely prevent some 
        other landowners from achieving getting (sic) prompt resolution 
        of their claims. Under [S. 2073], these landowners would have 
        to wait for the new accrual requirements to be met in their 
        cases before they could bring suit.''

    Currently, even under the post-Caldwell rule that the NITU alone 
provides the claim accrual date the Department of Justice is still 
trying to delay and postpone landowners Trails Act taking claims. In 
Pankratz v. United States, the Justice Department sought to 
indefinitely delay Kansas landowners' claim because even though there 
was both a NITU and a Trail Use Agreement, there was a possibility that 
the trailuser may abandoned the NITU.

          [B]ut I think based on our conversation with [the trail 
        operator] from our perspective the most prudent way to proceed 
        would be to allow some additional time, that process some 
        additional time to work its way through. (DOJ Statement during 
        March 4, 2008 hearing in Pankratz v. United States, No. 07-675) 
        (In Pankratz, the NITU was issued on September 13, 2004 and the 
        government was still seeking an indefinite delay of the case 
        almost four years after the NITU.)

          (7) Using the Trail Use Agreement as the date for claim 
        accrual as specified in S. 2073 would mean ``landowners who had 
        a claim on the date of the NITU would no longer have one under 
        [S.2073], if they were divested of their property during the 
        intervening time period [between the date of the NITU and the 
        Trail Use Agreement]''

    Currently, even under the post-Caldwell rule, the Department of 
Justice is arguing that Kansas and Arizona landowners who have been 
divested of their property by a NITU have no claim for compensation for 
the period before a Trail Use Agreement and/or actual construction of a 
trail on the property.

          How you evaluate whether there is a taking, we believe, would 
        be evaluated differently in a circumstance where the trail use 
        agreement is never reached. There is no physical occupation by 
        a recreational trail here. (DOJ Statement at the February 14, 
        2008 status conference in Ladd v. United States, No. 07-271).
          The Plaintiffs have grounded their claims in a particular 
        Notice of Interim Trail Use, dated July 26, 2006 . . . .Here, 
        Plaintiffs have argued that, by operation of the Trails Act, 
        there is a Notice of Interim Trail Use that took their 
        property, and that particular Notice of Interim Trail Use set a 
        particular period of time in which to negotiate a trail use 
        agreement, and that time has passed. There is no trail use 
        agreement, so there can be no permanent taking. (DOJ Statement 
        at the February 14, 2008 status conference in Ladd v. United 
        States, No. 07-271).
          Here, there is no physical occupation by the government. 
        What's going on on the ground during that negotiation period is 
        the same as what had been going on prior to the negotiation 
        period. What essentially it is, is a moratorium in which you 
        can negotiate potential trail use for the future. In this 
        situation, no trail use agreement was reached, and so it 
        defaults back to the normal regulatory process that would 
        occur. Id.
          In the current situation, [the trail operator] hasn't 
        established any kind of trail, so there hasn't been any kind of 
        physical occupation of that corridor. So it could be a matter 
        that we're dealing with a regulatory taking. (DOJ Statement at 
        the February 14, 2008 status conference in Pankratz v. United 
        States, No. 07-675).

          (8) ``Section 2 (a) of the bill would place a new condition 
        on the right to bring a takings claim under the Trails Act, 
        specifically that the railroad ``in writing'' convey an 
        interest to the trail operator.''

    S. 2073 does not require that the conveyance be``in writing''. 
Rather, S. 2073 precisely tracks the language of the Trails Act (16 
U.S.C. Sec.  1247(d)) which says:

    If a State, political subdivision, or qualified private 
organization is prepared to assume full responsibility for management 
of such rights-of-way and for any legal liability arising out of such 
transfer or use, and for the payment of any and all taxes that may be 
levied or assessed against such rights-of-way, then the [Surface 
Transportation] Board shall impose such terms and conditions as a 
requirement of any transfer or conveyance for interim use in a manner 
consistent with this chapter, and shall not permit abandonment or 
discontinuance inconsistent or disruptive of such use.

    As such, a Trail Use Agreement--whether or not reduced to writing--
would be the time when the trail user has ``assumed full responsibility 
for management of the rights-of-way.'' As a practical matter, virtually 
every Trail Use Agreement is in fact reduced to writing as either a 
separate agreement or as deed from the railroad to the trail operator.

          (9) ``The bill would result in different legal standard 
        depending on whether the takings claim was filed in the Court 
        of Federal Claims or a district court.''
    This concern was directed to the language of H.R. 4581. S. 2073 
provides a uniform standard for cases brought in both the Court of 
Claims and in district court under the ``mini-Tucker Act.''
                                 ______
                                 
 Statement of Nancy C. Gonce, Project Director, Muscle Shoals Regional 
                          Center, on H.R. 1483

    Thank you, Mister Chairman, members of the Committee, and members 
of the staff of the National Park Service for allowing me the 
opportunity to provide testimony regarding The Muscle Shoals of 
Northwest Alabama.
    We are pleased to share with you the work of the Muscle Shoals 
Regional Center at the University of North Alabama towards designation 
of the Muscle Shoals National Heritage Area.
    The very definition of a National Heritage Area describes the 
Muscle Shoals story. The story is one of a place where natural, 
cultural, historic, and scenic resources combine to form a cohesive 
nationally distinctive landscape shaped by patterns of human activity 
shaped by geography. And as place where those patterns are an important 
part of our Nation's story.
    The area to be included in the Muscle Shoals National Heritage Area 
encompasses the six counties in Alabama of Colbert, Lauderdale, 
Lawrence, Franklin, Morgan and Limestone in which historic and 
contemporary activity ties the people and places together by their 
location on the unique geographic topography represented by a series of 
shoals on the Tennessee River in Northwest Alabama.
    The Muscle Shoals is described as the section of the Tennessee 
River extending from Brown's Ferry Island near Decatur, Alabama, for a 
distance of thirty-six miles, where there is a fall of 136 feet. This 
is greater than Niagara's fall on the American side, and indeed, is the 
greatest fall beneath a major river in the United States.
    The series of shoals and shallow water impeded defense, 
transportation, commerce, settlement, and development from the earliest 
recorded history of the region. The challenges of dealing with the 
unique landscape resulted in pivotal and standard-setting solutions to 
overcome obstacles, both natural and human.
    The Muscle Shoals area of Northwest Alabama touches the states of 
Tennessee and Mississippi geographically and historically, the 
Tennessee River connects the region to the Gulf of Mexico by the 
Tennessee-Tombigbee Waterway, and by land to the Natchez Trace Parkway.
    In fulfilling the intent of the legislation that authorized the 
Muscle Shoals National Heritage Area Feasibility Study, community 
meetings were held throughout the six-county region with an attendance 
of more than 450 people. The comments and ideas that came from those 
meetings were compiled to identify themes, significant people, places, 
and events, as well as resources available for study and documentation.
    The discussions at those community meetings centered on whether or 
not the citizens of the region felt that our history met the definition 
of a National Heritage Area. The consensus was that the definition 
applied and that there was a willingness to pursue National Heritage 
Area designation. The Muscle Shoals story would be one of a place where 
natural, cultural, historic, and scenic resources combine to form a 
cohesive nationally distinctive landscape. The Muscle Shoals is a place 
where patterns of activity shaped by geography are an important part of 
our Nation's story, whether pre-history or contemporary.
    The stories of the people, places and events of the region are 
representative of the courage and ingenuity of the American people. 
Those same people have, through their lives and work, set standards in 
many disciplines--government, science, technology, regional planning, 
the arts and culture, sports, and world affairs. What may seem at first 
glance to be just a list of people, places and events, those lists 
reflect the extraordinary contributions of ordinary people. That spirit 
of leadership, entrepreneurship, experiment, energy, courage, 
creativity and tenacity of the people associated with The Muscle Shoals 
are part and parcel of America's story.
    It was the courage of citizens, sons and daughters of The Muscle 
Shoals, such as Jesse Owens, Helen Keller, General Joe Wheeler, and 
those who left the banks of the Tennessee on The Trail of Tears who 
have helped create a Muscle Shoals chapter in America's story. Helen 
Keller, ``America's First Lady of Courage'', will be honored in the 
near future by her inclusion in Statuary Hall. Miss Keller's 
Birthplace, Ivy Green, is located in Tuscumbia, where the Helen Keller 
Public Library is one of the earliest to be established in the state. 
The extraordinary career of Jesse Owens is told at the museum that 
bears his name.
    The Muscle Shoals region is represented in Statuary Hall by General 
Joe Wheeler. General Joseph Wheeler began his military career in 1859, 
as Major General and Commander of the Confederate Cavalry in the state 
of Tennessee, and later Commander of all the United States Cavalry, 
operating in Cuba under Lt. Col. Teddy Roosevelt. He also served his 
district in the Congress of the United States. The Wheeler Family Home, 
Pond Spring, is a historic site operated by the Alabama Historic 
Commission. Wheeler Dam, Wheeler Lake, Wheeler Wildlife Refuge and the 
Wheeler Basin Public library are named in honor of General Joe Wheeler.
    It was the ingenuity of engineers, scientists, and planners who 
tamed the Tennessee with canals, dams, and locks and set high standards 
as part of the creation and work of the Tennessee Valley Authority. 
That extraordinary planning effort also set standards in the fields of 
archaeology, transportation, health care, education, library services, 
navigation and recreational land and water development to create 
another chapter.
    The people who called the Tennessee the ``singing river'' in 
ancient times helped create the distinctive sounds that are part of the 
fabric of modern American music--whether it is embodied in the works of 
W. C. Handy, ``The Father of the Blues'', or by Sam Phillips, ``The 
Father of Rock & Roll'', or by the hundreds of songwriters, producers, 
and musicians who have created a distinctive and unique American sound 
identified as the Muscle Shoals sound.
    The Muscle Shoals culture is both distinctive and distinguished. A 
creative spirit of storytelling is evident in the work of three 
Pulitzer Prize winners, professional actors, artists, filmmakers, 
writers, photographers, and educators.
    There is a dedication to telling and sharing the region's stories 
through tourism events, festivals, and in collections in museums and 
libraries, and by experiencing the natural beauty in the region's parks 
and public lands.
    Upon designation as a National Heritage Area, the management plan 
for the Muscle Shoals National Heritage Area will explore ways to draw 
together in a cohesive way the various themes and stories through the 
development of interpretative, educational, and cultural tourism 
programs. Themes which were identified in the community meetings-Music, 
Civil War, Folklore, Arts and Literature, Architecture, African 
American history, Native American history, Recreation, and other sub-
themes will be the basis of the interpretative project development. Due 
to strong cooperative efforts that already exist in the region, it is 
anticipated that programs will be developed through appropriate 
partnership and that the work of the Muscle Shoals National Heritage 
Area will take into consideration existing efforts.
    It is anticipated that much of the work of the Muscle Shoals 
National Heritage Area will be in partnership with other agencies and 
programs. Exploratory efforts are underway to find ways to identify and 
promote existing cultural assets and identify under-utilized assets.
    The imposing architectural marvel, Wilson Dam, recorded in the 
American Engineering Record and a National Historic Landmark, serves as 
a symbol of The Muscle Shoals and how a region has made the transition 
from impediment to creative solution. Architectural Trails could be 
developed to tell the story of people as well as the structures. Those 
stories would include a wide range or architectural styles ranging from 
the log cabin of W.C. Handy to the Village created to house workers, 
who were building the dams, to the recording studios, from the 
Palladian Belle Mont Mansion, to the Frank Lloyd Wright Rosenbaum 
House, and others. A visit to Ivy Green, the birthplace of Helen 
Keller, helps the visitor to understand the life and work of 
``America's First Lady of Courage''.
    Following designation, the management plan will be developed to 
determine how the programs and projects of the Muscle Shoals National 
Heritage Area will be defined and implemented.
    Prior to developing the management plan, the study team from the 
Muscle Shoals Regional Center at the University of North Alabama has 
visited several existing National Heritage Areas in the southeast, 
asking the same questions of each staff about management, challenges, 
and successes in their own Heritage Area programs. The high standards 
set by the existing National Heritage Area programs will serve as a 
model for the development, implementation, and management of the Muscle 
Shoals National Heritage Area.
    Thank you again for allowing me the opportunity to submit testimony 
in support of the Muscle Shoals National Heritage Area designation. I 
would be pleased to respond to any questions the Subcommittee members 
may have regarding this effort.
                                 ______
                                 
                                  St. Louis, MO, February 28, 2007.
Hon. Claire McCaskill,
U.S. Senate, Washington, DC.
    Dear Senator McCaskill: My wife and I congratulate you on your 
election as Missouri's new Senator. I am one of your constituents 
living in south St. Louis County, I am writing to ask you to help me 
receive payment for property that the Federal Government took from us.
    I understand last year Congressmen Carnahan and Akin introduced 
legislation in the House and Senator Bond and Talent introduced a bill 
S. 3478, in the Senate. It meant a great deal to us that our 
Congressmen and Senator's introduced these bills, and gave me hope that 
I would finally be paid for the property that the government took from 
us.
    We realize that the Senate and you as our Senator are involved in a 
lot of important issues. I was very impressed to know that our 
representatives in congress were interested enough to introduce this 
legislation.
    This bill S. 3478 did not pass in the last Congress, but I 
understand Congressman Carnahan is preparing to introduce a new bill in 
the house similar to S. 3478 and it will be co-sponsored by Congressman 
Akin, Clay and Emerson in the House.
    Your help would mean so much to me if you could introduce similar 
legislation in the U.S. Senate.
    My wife and I own our home at 2506 Via Miralesta Dr. St. Louis, Mo. 
63125. We bought our home in 1965 and where we lived and raised our 
family. Our home I feel is worth 125,000.
    In 1992 the ICC authorized a private trail group to negotiate with 
the Mo Pac Railroad to acquire the rights to the abandoned railroad 
easement that crossed our property. This railroad was abandoned and 
under Missouri law we owned this property and it was not subject to any 
easement for a railroad or for a public trial. Never the less, the Mo 
Pac gave the property to a private trail group that had the right to 
use this abandoned right-of-way for a recreational trail. Even though 
the Mo Pac did not own the right to give our property to the private 
trail group, the Mo Pac was able to give them our property to use for a 
public trail because of the federal Rails-to-Trails Act. This abandoned 
railroad corridor can (and may) also be reactivated in the future for 
light-rail or railroad use.
    As I understand the situation, the U.S. Supreme Court has said that 
the Trails Act is legal but that the federal government owes us 
compensation for this taking of our property.
    To receive this compensation we filed a claim in a case in the 
United States Court of Claims known as ILLig v. United States. This 
lawsuit took more than five years and was finally resolved when the 
Justice Department agreed in the fall of 2004 to pay us 8,000 for our 
property. The Justice Department also agreed to pay us interest. But 
unfortunately, in a totally unbelievable turn of events, two days 
before the settlement with the Justice Department was to be approved by 
the Judge in our case, a court of appeals decision in a Geogia case 
called Caldwell was issued. The Caldwell case retroactively changed the 
statue of limitations and meant that our case was dismissed with us 
receiving nothing for the government's taking of our property. Our 
lawyers said the Caldwell case made no sense and that one of the three 
judges dissented and said the decision was ``contrary to all 
authority.''
    Our lawyers have also said that the only way we can be certain to 
get the compensation that everyone agrees we are owed is by Congress 
passing a law like S. 3478 to correct the error of this Caldwell case.
    I am writing to ask that you support similar legislation this year 
in the Senate to make sure that I and the almost 100 other Missouri 
property owners receive compensation for this taking of our property by 
the federal government.
    We are very glad we can write to ask for your help with this. It 
would mean a great deal to us personally if you would support 
legislation in the Senate similar to what Congressmen Carnahan will be 
introducing in the House.
    It is amazing to me that it takes an Act of Congress for citizens 
to be paid for the government's taking of their property, and is 
especially amazing when the Justice Department had already agreed that 
the government took our property and agreed how much we are owed.
    Thank you for reading this letter.
            Sincerely,
                                            Erwin Pfeiffer.
                                 ______
                                 
       Statement of Thomas C. Kiernan, President, National Parks 
                        Conservation Association
    On behalf of the more than 340,000 members of the National Parks 
Conservation Association (NPCA), I want to express our opposition to 
H.R. 53, which would authorize the Secretary of the Interior to enter 
into a long-term lease of portions of Virgin Islands National Park to 
the Territorial Government of the Virgin Islands (GVI) for purposes of 
establishing a school.
    This legislation is controversial because it combines two extremely 
important and emotional public policy issues: protecting our national 
parks, and providing young people with the best possible schools. NPCA 
believes, as do others on the island, that we can protect the Park 
while also doing what's right for the children of St. John. Earlier 
this month a non-profit was created, ``Kids First!'' dedicated to 
providing a quality education for the children of St. John in a safe 
and nurturing environment.
    The development of a school on Virgin Islands National Park land is 
inconsistent with the purposes of the Park. It conflicts with the 
direction given by the Park's authorizing legislation, which states, 
``the national park shall be administered and preserved by the 
Secretary of the Interior in its natural state . . . '' (70 Stat. 940). 
We are particularly concerned with the language in the bill that 
authorizes the lease of National Park Service land for not only the 
establishment of a school, but also for ``other purposes.'' This 
potentially gives unlimited latitude for the GVI to use the land in the 
Park in ways inconsistent with the mission protection of the Park. 
Finally, we are concerned this legislation sets a harmful precedent of 
opening the door for other national park land to be leased away, 
essentially in perpetuity.
    We urge the GVI to undergo a full analysis of alternate sites 
outside the Park. On March 25th NPCA delivered to committee staff an 
independent real estate appraiser's report, attached here, identifying 
a number of sites on the island that might be suitable for building a 
school, some of which are currently listed for sale. Only after 
exhausting the possibility of acquiring other suitable lands, should 
national park land ever be considered.
    NPCA recognizes the need for new educational facilities in the 
Virgin Islands. However, we cannot support building a school and 
related facilities on national park land. If an exhaustive search of 
alternative sites bears no fruit, we would be open to a potential land 
exchange of equal value between the Park Service and GVI, but ONLY 10 
acres in size, and ONLY for the purpose of building a school. Thank you 
for considering our views.
                                 ______
                                 
        Statement of Betty-Mae Stienhans, Grantwood Village, MO

    I am a single woman and I live in the home that I grew-up in with 
my parents. For more than fifty one years I have lived in my home in 
the town of Grantwood Village in St. Louis County. My parents, now both 
deceased, also lived in this home. As I have gotten older, one of the 
pleasures I have is my garden. Recently, I had to have hip replacement 
so I am not able to work in the garden as I would like but still it is 
a great joy for me to have a garden.
    About fifteen years ago the federal government took a significant 
part of my yard for a public trail. I do not oppose trails and parks, 
but this was a trail that ran through my back yard and garden very near 
my home. It had been an abandoned railroad but the railroad had not 
used the easement in years and the portion of my property that the 
railroad had used (when they did many years ago) was very narrow. The 
railroad had abandoned this easement and I owned the property which was 
my yard and garden. The part of my property taken and used for the 
trail is much wider than that part which had been used years ago by the 
railroad.
    I understand that it is the prerogative of the federal government 
to create parks and trails and that doing so sometimes means that the 
government needs to take private property owned by citizens for these 
trails and parks. I also understood that when, as in my case, the 
government takes a citizens' property, the government is required to 
pay for the value of the property they have taken.
    Well, in my case this has not happened. I have not been paid for 
the portion of my home that the government took for this trail. What is 
especially outrageous is that a federal judge and the United States 
Justice Department all agree that the government took my property, and 
that I was entitled by the U.S. Constitution to be paid ``just 
compensation'' the Justice Department agreed to pay me $31,000 for the 
value of my home that was taken. While I would rather have had my 
property back, being paid for this was at least some consolation for 
the loss of my yard and garden. To give you an idea of how significant 
a portion of my property was taken, you should know that my home was 
appraised by the St. Louis County Assessor with a market value of 
$125,000 and the Justice Department agreed that the government had 
taken $31,000 of this value. While I realize that $31,000 is not a 
large amount of money to the federal government, it means a great deal 
to me. My home is the only real estate that I own and the government 
taking this much of my home equity is a devastating financial effect. 
Especially as I get older I look to my home equity as a source of funds 
for my long-term care.
    Unbelievably, just two days before the federal judge was to approve 
the settlement with the Justice Department, a Court of Appeals in a 
Georgia case called Caldwell, retroactively changed the statute of 
limitations and the Justice Department said I could not be paid. That 
was in 2004. In other words, the government was able no avoid its 
constitutional obligation to pay me for the property they took from me, 
not because other government did not take my property but because some 
court in another case retroactively changed the rules.
    It is difficult to express how very disheartening it is to be 
treated this way by my government. I have always paid my taxes, voted 
and tried to support my community and country in every way I can. I 
never thought that the government would take my property but, if they 
did, I always assumed that they would treat me fairly. As you can see, 
that has not been my experience.
    I am not alone in this situation. About one hundred of my neighbors 
(also your constituents) were also denied this compensation by this 
retroactive change in the statute of limitations. We have all been 
treated unfairly by our own government.
    I understand that you are already familiar with what I am telling 
you because in the last Congress you sponsored S. 3478 which would have 
corrected the error and injustice of the Caldwell case. I wrote you a 
note then to thank you for your support of that bill. I am writing 
today to ask that you support similar legislation again in this session 
of the Senate. This is a matter of very great importance to me and to 
my neighbors.
    It means a great deal to me that you have helped me on this matter 
in the past and I hope that we can get it passed this year. I have been 
waiting more than 15 years for the government to pay me for the 
property they have taken, I just hope that this year I will finally be 
paid.
                                 ______
                                 
        Statement of Frank and Juanita S. Scotino, St. Louis, MO

    We are one of your constituents and live in St. Louis County of 
Lemay Missouri. We are writing to thank you for your assistance last 
year and to ask for your continued assistance this year.
    Last year you introduced Senate Bill S. 3478. It meant a great deal 
to us that you introduced this Bill and gave us hope that we would 
finally be paid for the property that the government took from us. It 
truly made us proud to know that my U. S. Senator cared about making 
sure that we and these other Missouri property owners were treated 
fairly by the federal government. We realize that the Senate and you as 
our senator are involved in a lot of important national issues. 
However, as one Missouri voter we were very impressed and pleased to 
know that you were interested enough in our situation to introduce this 
legislation. Thank you again!
    We understand that S. 3478 did not pass in the last Congress. We 
understand that congressmen Carnahan and Akin are preparing to 
introduce a new bill in the House that is very similar to S. 3478 and 
that it will be co-sponsored by Congressmen Akin, Clay, and Emerson in 
the House. We would like to ask that you introduce similar legislation 
in the U.S. Senate this year.
    Here is some brief background on why your help means so much to me. 
We are senior citizens (82 years old). We have a wonderful family that 
we enjoy. You have done so much for Senior Citizens in Missouri. Thank 
you for the job you have done for us. This compensation would mean a 
lot to us. It would help with our independence.
    It is amazing to us that it take an Act of Congress for citizens to 
be paid for the government's taking of their property. This is 
especially amazing when the Justice Department has already agreed that 
the government took our property and agreed how much we are owed. A 
federal judge has also agreed that the government took our property and 
that we are owed this compensation. The U. S. Supreme Court said that 
the Fifth Amendment to the U.S. Constitution guaranteed our right to 
receive this compensation when a rail to trail easement across our 
property.
    We are very glad that you are our Senator and that I can write to 
ask for your help with this. It would mean a great deal to us 
personally if you would reintroduce a Bill similar to S. 3478 that you 
introduced last year. Thank you for reading this letter and thank you 
so much for your help last year.
                                 ______
                                 
             Statement of Mary Kathryn England, Arnold, MO

    I live in Arnold, Missouri but formerly resided along Grant's Trail 
in St. Louis County.
    I am writing to ask you to help me receive payment for property 
that the federal government took from my family. About 100 other 
Missouri property owners are in the same situation and are entitled to 
receive compensation for the government's taking of their property but 
we all need you help.
    Congressmen Carnahan is preparing to introduce a bill in the House 
that is co-sponsored by Congressmen Clay, Akin and Emerson. This bill 
will allow me and the other Missouri property owners to receive the 
payment that the Justice Department has already agreed we are owed for 
the government's taking of my property. Here is some brief background.
    Last year Congressmen Carnahan and Akin introduced similar 
legislation in the House and Senator Bond and Talent introduced a bill, 
Senate Bill S. 3478, in the Senate. It meant a great deal to me that 
our Congressmen and Senators introduced these Bills and gave me hope 
that I would finally be paid for the property that the government took 
from my late wife and myself. It truly made me proud to know that my 
U.S. Senators cared about making sure that I and these other Missouri 
property owners were treated fairly by the federal government. We 
realize that the Senate, and you as our senator, are involved in a lot 
of important national issues. However, as one Missouri voter I was very 
impressed and pleased to know that our representatives in Congress were 
interested enough in my situation to introduce this legislation.
    Unfortunately, S.3478 did not pass in the last Congress. I 
understand that Congressmen Carnahan is preparing to introduce a new 
bill in the House that is very similar to S. 3478 and that it will be 
co-sponsored by Congressmen Akin, Clay and Emerson in the House. If I 
could be so bold, I would like to ask that you introduce similar 
legislation in the U.S. Senate this year. While this bill did not pass 
last year, I am hopeful that it can this year.
    In 1992 the ICC authorized a private trail group to negotiate with 
the MoPac Railroad to acquire the rights to the abandoned railroad 
easement that crossed our property. This railroad was abandoned and 
under Missouri law we owned this property and it was not subject to any 
easement--for a railroad or for a public trail. Never the less, the 
MoPac gave the property to a private trail group that had the right to 
use this abandoned right-of-way for a recreational trail. Even though 
the MoPac did not own the right to give our property to the private 
trail group, the MoPac was able to give them our property to use for a 
public trail because of the federal Rails-to-Trails Act. This abandoned 
railroad corridor can (and may) also be reactivated in the future for 
light-rail or railroad use.
    I lived in my home with my mother when the railroad abandoned its 
easement and a trail was created. I joined an action to get 
compensation for the significant equity taken out of my home by the 
federal government. Shortly thereafter, the company I worked for, 
Eastern Airlines, went under and I lost my job. I soon found another 
but that company moved from the area. In the end, I had to give up my 
home because I was unable to afford to live there. When I sold it, I 
was unable to receive full value because of the presence of a public 
trail on the property. The government was supposed to compensate me but 
it never has. Instead, it is hiding behind a newly created legal rule 
to deny me compensation. The proposed legislation will do nothing more 
than make sure the federal government pays for property it now uses for 
the public. The U.S. Supreme Court said that the Fifth Amendment to the 
U.S. Constitution guaranteed our right to receive this compensation 
when a rail-to-trail easement was created across our property.
    Please let me know if there is anything I can do to help make sure 
that this bill passes this year. Thank you for reading this letter and 
thank you so much for your help.
                                 ______
                                 
                Statement of Jane Butler, St. Louis, MO

    Congratulations on your election to be Missouri's new Senator. As a 
citizen who lives in St. Louis County, Missouri, I am writing to ask 
you to help me receive payment for the property that the federal 
government took from me. About 100 other Missouri property owners are 
in the same situation and are entitled to receive compensation for the 
government's taking of their property, but we all need your help.
    Congressmen Carnahan is preparing to introduce a bill in the House 
that is cosponsored by Congressmen Clay, Akin and Emerson. This bill 
will allow me and the other Missouri property owners to receive the 
payment that the Justice Department has already agreed we are owed for 
the government's taking of my property. Here is some background.
    Last year Congressmen Carnahan and Akin introduced similar 
legislation in the House and Senator Bond and Talent introduced a bill, 
Senate Bills S. 3478, in the Senate. It truly made me proud to know 
that my US Senators cared about making sure that I and the other 
property owners were treated fairly by the federal government.
    Since the bill last year did not pass, Congressman Carnahan is 
preparing a new bill in the House that is very similar to S. 3478 and 
that it will be co-sponsored by Congressmen Akin, Clay and Emerson in 
the House. I would like to ask that you introduce similar legislation 
in the Senate this year.
    In 1992 the ICC authorized a private trail group to negotiate with 
the MoPac Railroad to acquire the right to the abandoned railroad 
easement that crossed our property. This railroad was abandoned and 
under Missouri law we owned this property and it was not subject to any 
easement--for a railroad or for a public trail. The MoPac gave the 
property to a private trail group that had the right to use this 
abandoned right-of-way for a recreational trail. Even though the MoPac 
did not own the right to give my property to the private trail group, 
the MoPac was able to give them my property to use for a public trail 
because of the federal Rails-to-Trails Act.
    It was my home, my property and is my most significant asset. The 
fifty-foot wide easement for a public trail represented a substantial 
loss in the value of my home and the loss in my home equity that I have 
worked over the years to build up.
    As I understand the situation, the US Supreme Court has said the 
Trails Act is legal but the federal government owes me compensation for 
the property. To receive this compensation, I filed a claim in a case 
in the United States Court of Claims known as Mig v. United States. The 
lawsuit took more than five years and was finally resolved when the 
Justice Department agreed in the fall of 2004 to pay for the property. 
The Justice Department also agreed to pay me interest. To me, it is a 
lot of money that I could use. It is also doing the right thing!
    I am 64 years old and have waited for more than 15 years for the 
government to pay me. Unfortunately, in a totally unbelievable turn of 
events, two days before the settlement with the Justice Department was 
to be approved by the Judge in our case, a Court of Appeals decision in 
a Georgia case called Cardwell was issued. The Caldwell case 
retroactively changed the statute of limitations and meant that our 
case was dismissed with me receiving nothing for the government's 
taking of my property.
    Our lawyers said the Caldwell case made no sense and that one of 
the three judges dissented and said the decision was ``contrary to all 
authority.' The Judge in our case said the Caldwell case was the 
``Grinch that Stole Christmas'' and even though he disagreed with the 
decision he was bound to follow it.
    Our lawyers told me that the only way I can be certain to get the 
compensation I am owed, is by Congress passing a law like S. 3478 to 
correct the injustice. The Justice Department has admitted that I am 
entitled to receive compensation for my property. It is time to ``Do 
the Right Thing.'' It is amazing that it takes an Act of Congress for 
citizens to be paid for their property. The US Supreme Court said that 
the Fifth Amendment to the US Constitution guaranteed this right for 
compensation when a rail-to trail crossed my property. Would you please 
support legislation in the Senate similar to what Congressman Carnahan 
will be introducing in the House. Thank you for your time and for 
reading this letter.
                                 ______
                                 
              Statement of Brenda Brinkmann, Imperial, MO

    I live in Imperial, Missouri. I am writing to encourage you to 
support legislation that will help to compensate Missouri property 
owners. I was very pleased to learn that you are again joining other 
legislators from Missouri, re-introduce legislation that will help 
compensate Missouri property owners for property taken from them for 
use by the public.
    My husband and I made our home at 2512 Via Miralesta in St. Louis, 
County. I was a secretary and am now retired. My husband passed away 
some time ago without ever having been paid for the property taken from 
us. In 1992, the government established a hiking and biking trail for 
the public to use across our property. We have still not been paid.
    In 1992, the federal government took part of my home for use as a 
public trail. The railroad had abandoned its easement it had used for 
rail service and the property was to come to my family for our use and 
enjoyment. We made a claim for compensation to the government because 
of the taking. Even though I know that the government can take private 
property for public use, I also know it must pay compensation to the 
property owner when it does so.
    The reason the government gave for backing out of a settlement just 
two days before it was to be finalized by the federal court was that a 
decision by two judges, in a case unrelated to mine called Caldwell v. 
United States, changed the date of the taking. The most upsetting thing 
is that the government is trying to avoid compensation even though it 
admits that it took my property and admits that it took $8,000 from the 
equity in that home. It is not fair that I, as a private individual, 
must pay that amount for what amounts to a public park without the 
public contributing a dime for the use of my property. It was a great 
disappointment to me that the government would treat us in this way--
hiding behind a decision in another case which the dissenting judge 
said was ``against all authority.'' The government should honor its 
constitutionally required obligation to pay private property owners 
when it takes their land for public use.
    I am told that representatives Carnahan, Akin, Clay and Emerson 
will introduce legislation to correct the situation and provide the 
compensation owed to me and the others in my case. I hope you will 
support that effort. I also as that you sponsor similar legislation in 
the Senate. I cannot express here how important this is to me and 
others in my situation.
                                 ______
                                 
Statement of Robert Barczewski, Affton Athletic Association, Affton, MO

    Congratulations on your election to be Missouri's new Senator. I am 
one of your constituents and live in Affion I am writing to ask you to 
help me receive payment for property that the federal government took 
from our association. About 100 other Missouri property owners are in 
the same situation and are entitled to receive compensation for the 
government's taking of their property but we all need you help.
    Congressmen Carnahan is preparing to introduce a bill in the House 
that is cosponsored by Congressmen Clay, Akin and Emerson. This bill 
will allow us and the other Missouri property owners to receive the 
payment that the Justice Department has already agreed we are owed for 
the government's taking of my property. Here is some brief background.
    Last year Congressmen Carnahan and Akin introduced similar 
legislation in the House and Senator Bond and Talent introduced a bill, 
Senate Bill S. 3478, in the Senate. It meant a great deal to us that 
our Congressmen and Senators introduced these Bills and gave me hope 
that I would finally be paid for the property that the government took 
from our association. It truly made me proud to know that my U.S. 
Senators cared about making sure that I and these other Missouri 
property owners were treated fairly by the federal government. We 
realize that the Senate, and you as our senator, are involved in a lot 
of important national issues. However, as one Missouri voter I was very 
impressed and pleased to know that our representatives in Congress were 
interested enough in my situation to introduce this legislation.
    Unfortunately, S.3478 did not pass in the last Congress. I 
understand that Congressmen Carnahan is preparing to introduce a new 
bill in the House that is very similar to S. 3478 and that it will be 
co-sponsored by Congressmen Akin, Clay and Emerson in the House. If I 
could be so bold, I would like to ask that you introduce similar 
legislation in the U.S. Senate this year. While this bill did not pass 
last year, I am hopeful that it can this year.
    In 1992 the ICC authorized a private trail group to negotiate with 
the MoPac Railroad to acquire the rights to the abandoned railroad 
easement that crossed our property. This railroad was abandoned and 
under Missouri law we owned this property and it was not subject to any 
easement--for a railroad or for a public trail. Never the less, the 
MoPac gave the property to a private trail group that had the right to 
use this abandoned right-of-way for a recreational trail. Even though 
the MoPac did not own the right to give our property to the private 
trail group, the MoPac was able to give them our property to use for a 
public trail because of the federal Rails-to-Trails Act. This abandoned 
railroad corridor can (and may) also be reactivated in the future for 
light-rail or railroad use.
    As I understand the situation, the U.S. Supreme Court has said that 
the Trails Act is legal but that the federal government owes us 
compensation for this taking of our property. To receive this 
compensation we filed a claim in a case in the United States Court of 
Claims known as Illig v. United States.
    Our lawyers have now told us that the only way we can be certain to 
get the compensation that everyone agrees we are owed is by Congress 
passing a law like S. 3478 to correct the error of this Caldwell case.
    The value of the land that was taken from us is $152,000. We would 
love to be compensated so we could use this money to further enhance 
our sports programs for children in South St. Louis County.
    I should also say that I do not oppose the Trails Act or the 
creation of recreational trails. The legislation that Congressmen 
Carnahan is planning to introduce in the House will actually improve 
the Trails Act and make it possible for more railroad rights-of-ways to 
be converted to recreational trails at less expense to taxpayers. 
However, it will allow the federal government to pay me and these other 
Missouri property owners for land that the Justice Department has 
admitted was taken from us in our case. The Justice Department and the 
Court agreed that we were entitled to receive compensation for this 
taking of our land. It is only right that the government honor this 
obligation.
    I am writing to ask that you support similar legislation this year 
in the Senate to make sure that I and the almost 100 other Missouri 
property owners receive compensation for this taking of our property by 
the federal government.
    It is amazing to me that it takes an Act of Congress for citizens 
to be paid for the government's taking of their property. This is 
especially amazing when the Justice Department has already agreed that 
the government took our property and agreed how much we are owed. A 
federal judge has also agreed that our property was taken by the 
government and that we are owed this compensation. The U.S. Supreme 
Court said that the Fifth Amendment to the U.S. Constitution guaranteed 
our right to receive this compensation when a rail-to-trail easement 
was created across our property. I just do not understand how, with all 
this, a two judge decision in a Georgia case can retroactively change 
the law two days before we were suppose to be paid and now we get 
nothing even though everyone agrees the government took--and still 
has--our property.
    I am very glad that I can write to ask for your help with this. It 
would mean a great deal to me personally if you would support 
legislation in the Senate similar to what Congressman Carnahan will be 
introducing in the House. Thank you for reading this letter.
                                 ______
                                 
 Statement of S. Catherine Longley, Senior Vice President for Finance 
     and Administration and Treasurer, Bowdoin, College, on S. 662

    Please accept this testimony in support of S.662. My name is 
Catherine Longley and I am the Senior Vice President for Finance & 
Treasurer of Bowdoin College in Brunswick, Maine. Bowdoin College is 
the present owner of the Harriet Beecher Stowe House, a National 
Historic Landmark.
    The Harriet Beecher Stowe House in Brunswick, Maine, is where 
Harriet Beecher Stowe lived when she wrote the landmark novel, Uncle 
Tom's Cabin. There is no dispute about the historic significance of the 
site nor its value, in particular for African Americans and women. The 
novel was based on her family's exposure to the brutality of slavery 
when living in Ohio just across the river from Kentucky, a slave state. 
According to the National Register of Historic Places, which added the 
Stowe House to its registry in 1962, ``Many of the characters in her 
book mirrored real-life individuals such as Josiah Henson, a fugitive 
slave who escaped from Kentucky to Canada along the Underground 
Railroad with his wife and two children.'' While in Ohio, Stowe also 
heard women's accounts of what it was like to live in a slave 
household.
    The publication of Uncle Tom's Cabin inspired antislavery activism, 
including activism among many as yet uncommitted to the cause. Stowe 
spoke out against slavery during the period before the Civil War and 
urged the emancipation of slaves during the war. Abraham Lincoln was to 
have said upon meeting her in 1862, ``So you're the little woman who 
wrote the book that started this Great War!''
    Harriet Beecher Stowe was also one of the most popular writers of 
the 19th century, contributing to Western Monthly Magazine and Godey's 
Lady's Book, as well as subsequently writing a number of successful 
novels and articles on religion and housekeeping, She was a highly 
educated woman in an era when the education of women was unusual. She 
was also writing while managing a household of nine. The house where 
she and her large family lived while she wrote Uncle Tom's Cabin is a 
national treasure and is deserving of thoughtful preservation and 
public access.
    With the support of Maine's congressional delegation, the College 
received a $99,000 HUD grant. In March 2007, the College engaged the 
firm of Barba. + Wheelock, an architectural and preservation firm in 
Portland, Maine, to undertake a Historic Structure Report. The report 
details extensive archival research and investigation of the structure 
itself. In brief, the findings reveal that restoration of the house in 
which Stowe lived is not practical. A major remodeling of the house 
took place in 1855 shortly after the Stowes left Brunswick. The report 
concludes that these extensive renovations have left the structure with 
little of its Stowe-era appearance. Although room layouts and ceiling 
heights remain unchanged in some areas, historic millwork and trim 
throughout the exterior and interior largely date to the mid-nineteenth 
century. Restoring the house to its 1850--1854 appearance would require 
extensive removal of historic fabric, and much guesswork and filling in 
the blanks to recreate missing features.
    While the house would not become a typical, furnished house/museum, 
surviving historic fabric can be preserved. Rooms can be restored to 
their mid-nineteenth century appearance containing appropriate 
exhibits. The history of and changes to the Stowe House itself could be 
part of the interpretation. Surviving Stowe-era fabric such as 
concealed wallpapers and the hearth could be preserved and interpreted 
for visitors. The house, although altered, is nonetheless where Stowe 
lived when writing her very influential book and it retains historic 
significance as the site of that important event. The College has been 
engaged in dialogue with representatives from the Maine Historic 
Preservation Commission, the local Pejepscot Historical Society, Maine 
Freedom Trails, Inc., and local and state leaders to try to identify 
creative ways to partner with one another to ensure this property is 
preserved and to locate potential funding.
    If the National Park Service were to add the Harriet Beecher Stowe 
House to its ranks of important historical destinations, it would be in 
good company. The Town of Brunswick is steeped in history and has a 
wealth of literary, historic, and cultural locations. Bowdoin's Walker 
Art Building, itself on the National Register of Historic Places, was 
completed in 1894 and houses one of the oldest and most prized college 
art collections in the nation, encompassing more than 15,000 objects. 
Bowdoin's Peary-MacMillan Arctic Museum is named for Arctic explorers 
and Bowdoin College graduates Robert E. Peary (Class of 1877) and 
Donald B. MacMillan (Class of 1898). Also in Brunswick are the 
Pejepscot Museum, the SkolfieldWhittier House Museum, and the Joshua L. 
Chamberlain Museum. Joshua Lawrence Chamberlain led the 20th Maine with 
extreme valor at the Battle of Gettysburg and was present at the end of 
the Civil War when he was chosen by Ulysses S. Grant to accept the 
Confederate surrender at Appomattox. Combining resources with the 
National Park Service would greatly add to the enrichment of scholars, 
visitors, and local citizens who could enjoy the cultural benefits of 
the area.
    Uncle Tom's Cabin was the best-selling novel of the 19th century. 
It is impossible to overstate the influence of the book and its 
testimony to the power of words and literature to change the world. 
Preserving the Stowe House offers not only an opportunity to understand 
Stowe's work in its historical context, but also opens the possibility 
for continued discussions about words and action. We ask the 
Subcommittee on National Parks to support a special resource study to 
evaluate resources at the Harriet Beecher Stowe House to determine the 
suitability and feasibility of establishing the site as a unit of the 
National Park System, and for other purposes.
                                 ______
                                 
                       Mount Grace Land Conservation Trust,
                                         Athol, MA, April 23, 2008.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Re: Testimony--New England National Scenic Trail

    Dear Jeff Bingaman, This letter is provided in strong support of 
pending bills S. 923 and H.R. 1528 to amend the National Scenic Trails 
Act to designate the New England National Scenic Trail.
    Mount Grace Land Conservation Trust is a regional nonprofit land 
trust with a mission to protect land and encourage land stewardship in 
north central Massachusetts. Our service area encompasses six towns in 
which the currently undesignated trail passes. Working with local 
landowners and conservation partners at all levels, Mount Grace has 
helped to permanently conserve 21,000 acres in our 21 year history, in 
an area with an average land parcel size of 25 acres.
    Mount Grace supports designation of the proposed New England Trail 
(now the Metacomet-Monadnock Trail in Massachusetts) as a National 
Scenic Trail because designation will increase the prominence of this 
well-established multi-state trail, thereby expanding funding 
opportunities for voluntary land conservation by interested landowners 
in the region.
    Mount Grace owns conservation land on which the trail passes in the 
Franklin County towns of Wendell and Warwick, Massachusetts and we have 
facilitated the protection of numerous other parcels of privately or 
now-publicly owned land along the trail. Protection of this trail 
corridor is an identified priority in Mount Grace's 5-yr Focus Area 
Strategy.
    National Scenic Trail designation will strengthen the economic and 
recreational resources of our region. I urge you to support favorable 
passage of these bills into law. Thank you.
            Very truly yours,
                                          Leigh Youngblood,
                                                Executive Director.
                                 ______
                                 
              Statement of Richard P. Decker, Atlanta, GA
    Dear Members of the Committee: I am a part-time resident of St. 
John, U.S.V.I. I own a house at 3-20 Estate Catherineberg, St. John, 
U.S.V.I. I am writing to express my strong opposition to H.R. 53, which 
would allow the National Park Service to lease land within the Virgin 
Islands National Park to the Virgin Islands Government for the purpose 
of a school.
    This bill would give extraordinary and unprecedented authority to 
the Secretary of the Interior to enter into a long-term lease of public 
land to the Government of the Virgin Islands. This is tantamount to a 
give-away of public property. The public will never get that land back, 
and the Virgin Islands National Park, and the National Park System, 
will suffer.
    H.R. 53 is opposed by the Department of the Interior, the National 
Park Service, the National Park Conservation Association and many full-
time and part-time residents of St. John, because it is an 
unprecedented attack on the national park system. See attached letters, 
Tab ``A''.* The members of the House of Representatives failed to heed 
the opinions of these knowledgeable sources. I appeal to the members of 
this committee.
---------------------------------------------------------------------------
    * Letters have been retained in subcommittee files.
---------------------------------------------------------------------------
    I urge the members of this committee to look at the attached page 
from the National Park Service's web page on Historic Places. 
Catherineberg is the area the sponsors of this Bill want the park to 
give up. The land in question is adjacent to the Catherineberg Sugar 
Mill, one of the most recognized and photographed sites in the Virgin 
Islands National Park. Unstable ruins from the 18th and 19th centuries 
are also on this land. Further, the land in question lies directly 
above beautiful Cinnamon Bay Beach. Clearly, the construction of a 
large facility on this fragile hillside will endanger historic ruins in 
Catherineberg and sea life in Cinnamon Bay that has been enjoyed by 
thousands of visitors to the Virgin Islands National Park for many 
years.
    Many thoughtful and responsible voices in the Virgin Islands oppose 
this misuse of public land. See attached editorial, Tab ``B''. Local 
residents are rightfully concerned about their public schools, but 
there is no consensus in favor of the proposed ``lease'' of public park 
land. See attached articles and samples of disagreement, Tab ``C''.
    Moreover, there is absolutely no proven necessity or justification 
for the development of this pristine land into a school. The existing 
school structure in Cruz Bay can be easily, and comparatively, cheaply 
renovated to accommodate the school-aged children of St. John for many 
years to come or, less historic and environmentally sensitive land can 
be purchased by the Virgin Islands Government for a new school.
    In short, H.R. 53 is a bad bill. It is short-sighted and counter-
productive. There are many other solutions, including renovating the 
existing structure, or developing other, less historically and 
environmentally sensitive land. The Virgin Islands Government can sell 
the existing structure for commercial use and use the sales proceeds to 
buy other land not within the Park. None of these alternatives have 
been meaningfully explored.
    Giving away a piece of the Virgin Islands National Park will not 
end the Virgin Islands Government's apparently insatiable desire to 
appropriate public park land. Indeed, a local politician, Carmen 
Wesselhoft, has been quoted as saying that the proposed 10 acres is 
``not enough'' and she wants ``200 more acres'' from the Park for 
``housing'' because land is ``too expensive for locals.'' Obviously, 
H.R. 53 only adds incentive to this kind of thinking.
    Far and away the most important asset of the Virgin Islands is the 
Virgin Islands National Park on St. John. Without the Park, St. John 
would already be overdeveloped like St. Thomas, and another national 
jewel would be ruined. Please do not consider passing H.R. 53.

                                 <all>

      

</pre></body></html>
